<html>
<title> - PROMOTING THE WELL-BEING AND ACADEMIC SUCCESS OF COLLEGE ATHLETES</title>
<body><pre>[Senate Hearing 113-726]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-726

   PROMOTING THE WELL-BEING AND ACADEMIC SUCCESS OF COLLEGE ATHLETES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-246 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2014.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     4
Statement of Senator Coats.......................................    58
Statement of Senator Heller......................................    60
    Prepared statement...........................................    60
Statement of Senator McCaskill...................................    64
Statement of Senator Klobuchar...................................    78
Statement of Senator Nelson......................................    81
Statement of Senator Blumenthal..................................    82
Statement of Senator Booker......................................    84
Statement of Senator Ayotte......................................    88
Statement of Senator Scott.......................................    90

                               Witnesses

Myron Laurent Rolle, Student-Athlete, Florida State University 
  College of Medicine............................................     6
    Prepared statement...........................................     8
Devon Jahmai Ramsay, Former College Football Player, University 
  of North Carolina..............................................    11
    Prepared statement...........................................    14
Taylor Branch, Author and Historian..............................    15
    Prepared statement...........................................    19
William D. Bradshaw, Past President of the National Association 
  of the National Association of Collegiate Directors of 
  Athletics (NACDA)..............................................    23
    Prepared statement...........................................    25
Dr. Richard M. Southall, Associate Professor, Department of Sport 
  and Entertainment Management and Director, College Sport 
  Research Institute, University of South Carolina...............    27
    Prepared statement...........................................    29
Dr. Mark A. Emmert, President, National Collegiate Athletic 
  Association....................................................    40
    Prepared statement...........................................    42

                                Appendix

Letter dated August 4, 2014 to Hon. John Thune from Mark A. 
  Emmert, President, National Collegiate Athletic Association....    97

 
   PROMOTING THE WELL-BEING AND ACADEMIC SUCCESS OF COLLEGE ATHLETES

                              ----------                              


                        WEDNESDAY, JULY 9, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order, and I want 
to thank all of you very much for coming here. You're a bit 
squeezed in there but water is on the house.
    [Laughter.]
    The Chairman. So be comfortable, and be glad.
    College sports has an absolutely extraordinary position in 
the culture of our country. Not only have college sports 
inspired incredible fan passion all across the country but they 
have provided a very important way for young men and women to, 
as is written, both do athletics as an avocation and get an 
education. We are going to talk about that today.
    For many young people, however, athletics has provided an 
avenue to college that would have otherwise not have existed, 
and it is important to understand that.
    College athletes and athletics are rooted in the notion of 
amateurism. The history of that is very interesting and 
important, going back to the founding of the NCAA in 1906 and 
all the rest of it and going back, actually, to the Greek's 
concept of amateurism.
    Playing college sports is supposed to be an avocation. 
Students play college sports for the love of the game not for 
the love of money. That is the ideal but many people believe 
this notion of college sports as being undermined by the power 
and the influence of money.
    I remember a meeting I had in my office with the three top 
executives of ESPN and it was one of those meetings in which I 
didn't say a word because they just went around in circles, 
each talking about what a great business model they had and how 
they had the control and the power that no other broadcast 
system would ever have and how thrilled they were with it, and 
how they were going to make it even stronger.
    There's a growing perception that college athletics, 
particularly Division I football and basketball, are not 
avocations at all. What they really are is highly profitable 
commercial enterprises. They believe that.
    Critics of big-time college athletics say that the goal of 
these programs is not to provide young people with a college 
education, but to produce a winning program that reaps 
financial rewards for the athletic departments and their 
schools. It is not, however, about the students; they're part 
of what generates the money.
    It's about capturing the billions of dollars of television 
and marketing revenues that college sports do generate. And it 
will generate even more.
    Colleges and universities say that these revenues benefit 
college athletes and their student bodies at large. But I think 
we have to consider whether the lure of such riches could 
corrupt the basic mission of athletic programs. Winning teams 
get higher payouts than losing teams which creates a strong 
incentive to win--an incentive which land-grant public 
universities and others are more than happy to follow. And win 
at any cost.
    Much of the money is often funneled right back into those 
sports programs in the form of multimillion-dollar coaching 
salaries and state-of-the-art facilities--many of them paid for 
by the taxpayers to perpetuate the cycle of winning. I think 
somewhere in my reading here, about $48 million of all the $900 
million that NCAA gets from their broadcasting--March Madness 
and all the rest of it, a very small portion--goes specifically 
to academics. But even that is hard to figure because nobody 
has the figures.
    Mr. Emmert works for them. They make the decisions. He 
carries out what they want and, yet, I think a subject of 
discussion is: how does he carry out what they want? What 
powers do you have, Mr. Emmert, for actually carrying out what 
you think is a good idea? You've been president of three major 
universities, different places. Then, I would think, your 
passion for education would need to show itself.
    Athletics to me are meant to serve schools and their public 
duty to educate students, not the other way around. That's the 
way it's always put forward and that's the way it should be.
    Dr. Mark Emmert is here to present the perspective of the 
colleges and universities that belong to the NCAA and I would 
like to thank you for testifying. You could have declined to do 
so. Some do, but you didn't. And I'm grateful for that.
    I believe that you were put at the helm of the NCAA because 
you have impressive academic credentials and a sterling 
reputation. And I think that we all appreciate that you're 
extremely well compensated. Your commendable individual 
qualities and capabilities are not what trouble me. I think I'm 
just very skeptical that the NCAA can ever live up to the lofty 
mission that you constantly talk about, and which is written 
and printed in speeches and statements and responses to Penn 
State this or something else that. The mission--nothing comes 
before education--is always there but the actions don't appear 
to be.
    I don't see how the NCAA will ever be capable of truly 
making a safe, good education experience for students its 
number one priority. I want you to tell me that I'm wrong, that 
I am wrong and that I'm particularly wrong about the future. 
But I'll be a tough sell.
    I think we believe that the NCAA has largely been left to 
its own to determine what reforms are appropriate and how to 
accomplish its mission. As we continue to learn more about what 
goes on at some major universities and colleges, we want to 
know if the NCAA is seriously considering how college athletes 
are faring under this system. Not just living as they do but 
injured as they often become, racked by poverty if they don't 
do well and maybe their stipends are cut off. And is there an 
advantage in a mandated four-year scholarship. All of these 
things are put at play.
    How are young men, who strap on their helmets on a football 
field in front of 100,000 passionate and paying customers, how 
are they doing? How are young men who lace up their shoes and 
play basketball for March Madness, which consumes the nation, 
is deliberately spread out over a long period of time so that 
no kid, 12 years or 10 years or over, can ever hope to do any 
homework because there's always basketball on?
    Are colleges and universities living up to their end of the 
bargain in providing them with a good education? Are these 
young athletes entitled to any of the billions of dollars that 
are reaped from their athletic services? And when young men and 
women put their bodies at risk from playing sports for their 
schools, whether women's lacrosse or men's soccer, do they have 
adequate health insurance? I don't know. I don't know.
    And I never go into a restaurant or a barber shop or 
anything without asking, sometimes to their discomfort, ``Do 
you have health insurance?'' Because I know the answer is going 
to be no. And I care about health care and I get very unhappy 
when people who work in places don't make a lot of money, don't 
have health insurance.
    Do the schools and athletic leagues sufficiently minimize 
the risk of concussions? And what happens to a student who is 
injured before graduation? Can he or she finish out their 
studies or does the scholarship run dry?
    Well, a couple of months ago, we all heard the deeply 
troubling comments of Shabazz Napier, the talented University 
of Connecticut guard who was the most valuable player of the 
2014 NCAA basketball tournament. In the midst of a tournament 
that generated hundreds of millions of dollars in revenue for 
the NCAA and its members, Mr. Napier talked about how sometimes 
he did not have enough to eat during college. How did college 
sports benefit Mr. Napier on the nights he had to go to bed 
hungry?
    Now, you can look at that two ways. So there he is, he's 
trying to pick out a sensational example of a famous athlete 
and turn it into some very large problem. I'm not trying to do 
that. I think it is a problem. And the whole sense of giving 
students a safety net and a sense of confidence that, if they 
don't turn out to be as good running backs or point guards or 
whatever and they don't make the team or they're let off in 
their third year. Are they dropped? Do they get the 
scholarships or what happens? I don't know.
    The title of today's hearings is ``Promoting the Well-Being 
and Academic Success of College Athletes.'' I want to have an 
objective, open-minded and frank discussion on this subject. 
I'm going to try my best to. The NCAA has the same goal as I 
do.
    Dr. Emmert is going to tell us that the NCAA's mission is 
to protect college athletes from abusive practices and 
exploitation and to promote college sports as a means towards 
achieving academic excellence.
    Today, I want to explore whether the NCAA is fulfilling its 
mission. We still hear too many reports of fraudulent 
academics. We still hear too many tragic stories of former 
college athletes who have absolutely nothing to show for the 
services they provided even though they helped generate 
millions and millions of dollars. This subject is often 
discussed, but I'm here to tell you that--and if perchance the 
Democrats should control the Congress next time, and nobody is 
quite sure of that, John Thune has one idea, Bill Nelson has 
another idea, and you. Yes, okay.
    [Laughter.]
    The Chairman. And that I think that we want to continue 
this. We want to make this a continuing surge of this oversight 
committee. We have jurisdiction over sports--all sports. All 
sports. And we have the ability to subpoena; we've created a 
special investigations unit. We're very into this subject. I 
personally am. I think our members are. And so, this is the 
part of a process here.
    So I'm going to have some tough questions for our panel: is 
the NCAA and its member schools: is it simply a legal cartel; 
have college sports become a multibillion-dollar commercial 
enterprise which is no different than the other corporate 
witnesses who have appeared before this committee; or is the 
NCAA truly different; and does the 100-year-old organization, 
in fact, have the best interest of college athletes? They're 
large questions and important to be answered.
    I turn now to my very distinguished Ranking Member, Senator 
John Thune, from the state of South Dakota.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding the 
hearing today. And I want to thank our panelists for the 
opportunity to examine the current state of collegiate 
athletics. And, like you, I look forward to hearing from our 
witnesses including the President of the National Collegiate 
Athletic Associate on how the NCAA and its member institutions 
are fulfilling the commitments made to our collegiate student-
athletes.
    I'm an avid sports fan and I know other members of this 
committee are as well. As a former basketball player in high 
school and college, and the proud father of a daughter who 
competed at the Division I level, I certainly recognize that 
participation in organized sports not only requires physical 
and mental strength, but also teaches teamwork and other skills 
that serve you throughout life. However, the college student-
athlete is, and should be, a student first. Colleges and 
universities must remember and prioritize their academic 
obligation to student-athletes.
    As the popularity of college sports has grown, particularly 
the popularity of college football and men's and women's 
basketball, so too has the profitability of many collegiate 
athletic programs. In the current environment, the stakes have 
been raised both for the student-athlete who wants to succeed 
and for the university that has a financial interest in winning 
games. Increasing revenues for some schools in conferences, due 
in large part to lucrative contracts for the broadcast rights 
to football and basketball games, have become more common. 
Revenues from ticket sales and merchandising efforts for some 
schools are also significant. And, of course, alumni want to 
see their teams win, and may be inspired to contribute to 
winning programs.
    As we'll hear today, the NCAA is a member-driven 
organization whose stated mission is ``to integrate 
intercollegiate athletics into higher education so that the 
educational experience of the student-athlete is paramount.'' 
However, a major criticism of college sports is that some 
institutions appear unable to balance the core academic mission 
of the university and the commercial considerations that often 
accompany college athletics, particularly in high-profile 
sports. Many feel the commitment to the student-athlete is 
falling short.
    Another point of contention involves athletic scholarships 
and whether the practice of offering annual, as opposed to 
multiyear, scholarships unfairly places student-athletes at 
risk of losing their scholarships as a result of poor-
performance or injury. But, while multiyear scholarships may 
benefit student-athletes, they may disadvantage smaller schools 
who can't match the resources of larger institutions.
    Clearly, collegiate athletics in America is not without 
controversy, and we will hear from some of the NCAA's most 
vocal critics today. While I'm sure that today's hearing will 
highlight a host of important issues, I hope we will not lose 
sight of the positive impact that amateur athletics has made on 
the lives of countless student-athletes. And we must remember 
that college athletics is not just about football and 
basketball.
    The Director of Athletics at the University of South Dakota 
recently shared the results of the student-athlete exit 
interviews he conducts annually to evaluate the school's 
athletic program for the vantage point of the athletes 
themselves. He underscored two stories that stood out from this 
past year's athletes.
    The Athletic Director at USD reiterated how Dustin Gens, a 
sophomore diver at USD, recovered from open-heart heart surgery 
to qualify to dive at the NCAA's Zone Championships, a feat 
that would not have been possible without the work of a 
dedicated training staff, academic support, coaches, team, and 
family. He also noted the moving story of Hanna Veselik, a 
sophomore swimmer, who leaned on friends, family, and teammates 
to help her through the tragic loss of her father who passed 
away early in the season. With this support, Hanna was able to 
return to the pool and achieve lifetime best times in all of 
her swimming events at the Summit League Championships.
    As the USD Athletic Director puts it, ``These two are just 
a sample of what college athletics should mean. If you strip 
away the money, fancy locker rooms, charter flights, and large 
budgets, you're left with student-athletes who often have to 
overcome personal, social, economic, academic, and athletic 
adversity, all just to compete. But they frequently do it with 
passion and a determination that makes us all proud.'' That's 
from the Athletic Director at the University of South Dakota.
    Recognizing the challenges exist, it is my hope that the 
NCAA, its member institutions, the student athletes themselves, 
and other stakeholders will seek solutions that promote the 
education, health, and well-being of student athletes and seek 
to preserve amateurism in collegiate athletics. This is an area 
where Congress can provide a forum, but the solutions are most 
likely to come from those most directly involved in the 
education and development of student-athletes.
    Mr. Chairman, thank you again for holding this hearing, and 
I look forward to hearing and having an opportunity to question 
our witnesses. Thank you.
    The Chairman. Thank you, sir.
    What we are going to do now is we are going to hear the 
testimony. And then, both Senator McCaskill and Senator Booker, 
both of whom are sterling and wonderful people, are going to 
get very, very angry at me. Because I'm going to charge into 
the regular order and I'm going to allow Senator Coats to ask 
the first question, which violates all the rules of the 
Committee but----
    Senator McCaskill. Oh, I'm mad.
    The Chairman. That'll make you a better questioner.
    Senator Booker. As the most junior member on the Committee, 
I must say that Senate rules do not allow me to be mad at you, 
Chairman.
    [Laughter.]
    Senator Coats. And, Mr. Chairman, for what it's worth, I 
was under the impression, also, that we were the first to 
arrive and ask questions in order. So I arrived at 2:10----
    The Chairman. See?
    Senator Coats.--just so I can be first.
    The Chairman. What am I going to do?
    [Laughter.]
    Senator Coats. Because I didn't want to put you in a bad 
spot or breach the rules either.
    The Chairman. You never do and you are wonderful. So you 
will ask the first questions after the two of us.
    Mr. Rolle, and thank you for being here.
    And don't be nervous.

  STATEMENT OF MYRON LAURENT ROLLE, STUDENT-ATHLETE, FLORIDA 
              STATE UNIVERSITY COLLEGE OF MEDICINE

    Mr. Rolle. OK.
    The Chairman. I mean it.
    Mr. Rolle. All right.
    The Chairman. It's a wonderful opportunity to say what's in 
your heart and on your mind.
    Mr. Rolle. Yes, sir.
    First, I want to thank you and the Committee for inviting 
me here today to share some of my experience and knowledge on 
this very important subject, very complicated subject as well.
    I've had many conversations with fellow student-athletes on 
this issue about the current role of student-athletes today in 
this giant scheme of collegiate athletics. And we often walk 
away from those conversations with more questions than answers. 
So I'm hoping today is a first step toward answering some of 
those questions and providing some context and some clarity to 
this discussions so that we can see our student-athletes 
receive maximum edification in all aspects of their person, be 
it a student, and athlete, a leader, and a man and a woman. 
That's very important to me.
    I want to start my remarks by beginning at the genesis of 
my story. My parents are from the islands of the Bahamas, my 
brothers are as well. I was born here in the states and I was 
raised in New Jersey. I went to high school in Princeton, New 
Jersey.
    And after my school days in Princeton, I would go over to 
the university and I saw this big poster, a statue, and 
trophies of this guy who became my hero. His name was Bill 
Bradley. He was just a rock star, in my opinion, an epitome of 
what a student-athlete ought to be; college basketball 
American, best player in college at a school like Princeton, 
Hall-of-Famer, a U.S. Senator, and a Rhodes Scholar. That's the 
first time I heard those two words, Rhodes Scholar, used in the 
same sentence.
    And once I finished high school in Princeton, I had 83 
scholarship offers to go anywhere I want to to play football 
and I was rated the number one high school prospect in the 
country by ESPN. I decided to go to Florida State. And when I 
got to Tallahassee on campus, first thing I did was go to the 
Office of National Fellowships and told them that I wanted to 
be a Rhodes Scholar like my hero Bill Bradley. If he did it, I 
want to try and do it as well. And so, 3 years later, I was 
fortunate to earn that scholarship.
    Then, I went to see my teachers and academic advisors at 
FSU and tell them that I want you guys to help increase my 
intellectual capital so 1 day I can be an outstanding pediatric 
neurosurgeon, like another one of my influences, Dr. Ben 
Carson. Now, I'm a second year medical student hopefully able 
to do that in the future.
    And last, I went to my strength coaches and my athletic 
trainers and my football coaches, Bobby Bowden included, and 
told them that I want them to equip my body and get me ready 
for a career as a national football player. And fortunately, I 
was able to be drafted by the Titans and play for the Steelers 
as well.
    Now, it may sound like my story is pristine and ideal, and 
maybe used as the poster child for which you want a collegiate 
student-athlete to have experienced, but I will say that my 
story is quite rare and unique. And some people even call it an 
anomaly because, outside of Senator Cory Booker, the last major 
Division I football player to earn a Rhodes Scholarship was a 
guy named Pat Haden. And that was in the 1970s, he played at 
USC, and played for the Las Angeles Rams as well as a 
quarterback.
    There are very few student-athletes who I've come in 
contact with that have had the same infrastructure as I've had; 
the family support, had the foresight, not come from a broken 
school system in high school, and not come from a broken family 
who are able to engage in their college experience and maximize 
their time.
    Many more of my teammates and friends and fellow student-
athletes struggled in the college environment; they struggled 
mightily, struggled economically. Because, now, with the 
scholarship stipend that they receive they became, believe it 
or not, the main breadwinners for their families and would have 
to send some of their scholarship money home to take care of 
their immediate and extended family.
    They also struggled academically as well. A lot of them 
would go through this academic machinery in their colleges and 
be spit out at the end of that machine left torn, worn and 
asking questions, and with really no direction, no guidance, on 
where they should go; no purpose, no idea of their trajectory 
and sometimes left with a degree in hand that didn't behoove 
any of their future interest.
    So I hope today we can shed light on this aspect, as you 
said, Chairman Rockefeller, that we are really pouring energy 
and life and money and exposure, and highlighting on TV, the 
life of the athlete. But I believe that we're still falling a 
bit short of edifying and improving, augmenting, the aspect of 
the students; the person, the man, the woman, and even the 
philanthropist and the leader.
    And I believe if we can do that, we can not only see our 
student-athletes at these major schools go on to be productive 
athletes in the professional ranks but, more importantly, be 
productive leaders and citizens that go on to be leaders of 
industry and leaders of men, leaders of women, and just really 
have an indelible impact as they go on into their future.
    So thank you for having me here. And I'm looking forward to 
joining this discussion.
    [The prepared statement of Mr. Rolle follows:]

  Prepared Statement of Myron Laurent Rolle, Scholar-Athlete, Florida 
                  State University College of Medicine
Introduction
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, it is a pleasure and a blessing to have this opportunity to 
be in your presence and present my thoughts on a compelling matter 
concerning college athletics. Let me first thank you and your wonderful 
staff for the invitation.
    In the confines of academia, I am what is commonly referred to as a 
``Scholar-Athlete.'' I wear that mantle proudly and I strived each day 
to be an outstanding person, student and athlete. As my career has 
transitioned, I am today striving to be the best medical student I can 
be at The Florida State University College of Medicine with a view to 
being a pediatric neurological surgeon. I used the values my parents, 
Whitney and Beverly Rolle, instilled in me at an early age and in my 
brothers, as the foundation for my growth and the light to the path of 
life. In our household, education superseded sports and our Christian 
faith superseded all. The message was very clear and understood. My 
parents taught me how to value life, education, respect authority, 
treat others as you would like to be treated, respect our elders, serve 
our community, set lofty goals and never say never. These principles 
have made me who I am today.
Academic and Athletic Background
    Before I address the collegiate athlete compensation issue, let me 
briefly recap my academic and athletic careers as this may shed light 
on my thoughts on the subject matter of concern.
    In primary, high school and college, I took an active role in 
student life outside of athletics. I served as a student leader in all 
levels of my academic life. I was Student Council President in both 
Primary and High School. I served as Vice President of our Student 
Athlete Advisory Council at FSU. I was editor of my primary and high 
school newspapers. I played the baritone saxophone, participated on 
Brain Bowl Teams and played the lead role of Tevye in Fiddler on the 
Roof. I spent hours visiting the elderly in Absecon Manner in Galloway, 
New Jersey, where I grew up and served Habitat for Humanities in 
Florida and West Virginia during my high school years at The Peddie 
School and The Hun School.
    My athletic career started on the playing fields at Gabriel Fields 
and basketball courts throughout South Jersey. I was athletically 
gifted and participated at a high level in Baseball, Basketball, Track 
and Football. By the time my high school career was over, I was ranked 
the Number One High School Football Player in America by ESPN.
    At Florida State University, I started at strong safety on a full 
athletic scholarship throughout the three years I spent at FSU. I 
earned both academic and athletic All-American honors. We will discuss 
FSU later in this conversation.
    In 2010, I was drafted in the sixth round of the NFL draft by the 
Tennessee Titans and remained in the NFL for three years.
    I recently completed my first year as a full-time medical student 
at Florida State University College of Medicine.
Influences
    At an early age I felt I knew what I wanted in life. I wanted to 
serve. Today, I envision myself as a combination Servant and 
Transformative Leader.
    At the Smithville School in Galloway, New Jersey we studied the 
nervous system. This intrigued me to the extent that my older brother 
bought me a book ``Gifted Hands'' by Ben Carson. I completed this book 
in 3 days and I was hooked. I knew I wanted to be a neurosurgeon. My 
parents encouraged me and allowed me to participate in a very valuable 
program The National Youth Leadership Forum on Medicine--where I spent 
time during my high school breaks at LSU and Tulane University 
shadowing doctors and being exposed to the medical profession as it 
truly is performed.
    Another life changing episode in my young life happened while at 
The Hun School of Princeton. The Hun School is minutes away from 
Princeton University where one of your former colleagues, Senator Bill 
Bradley was an outstanding All-American Basketball Player and also a 
Rhodes Scholar. While I did not have definitive plan as to how to 
accomplish what Senator Bradley accomplished, it set my thoughts in 
motion. During my recruitment by all of the major Universities, I 
emphasized education was my priority and football would be secondary. 
Florida State University accepted this condition and I was allowed to 
pursue my academic endeavors without hindrance and thus my connection 
to the Office of National Fellowships. The relationship with the Office 
of National Fellowships allowed me to make the dreams that Senator 
Bradley's accomplishments instilled in me to become a reality and my 
earning the Rhodes Scholarship in 2009.
    Serving my community was indeed an active part of my life. As I 
grew and matured, I wanted this aspect of my life to continue. Using 
the platform that my FSU career and the Rhodes Scholarship provided, I 
along with my family, formed The Myron L Rolle Foundation whose mission 
statement embodies my very being--``Dedicated to the support of health, 
wellness, education and other charitable initiative throughout the 
world that benefit children and families in need.'' We have annually 
hosted for five years the Myron Rolle Wellness and Leadership Academy 
at Camp Blanding, Starke, Florida for foster children in the State of 
Florida. We have conducted the ``Our Way To Health'' program for Native 
Americans in Florida, New Mexico and Arizona, Rhodes to Success program 
in Florida and now a Bahamas version of the Myron Rolle Wellness and 
Leadership Academy.
College Life
    I spent three full years at FSU immersed with the football program 
and players with the exception of a six week period that I spent in 
Europe at FSU's London Study Centre Abroad, graduated magna cum laude 
from FSU in two and one-half years and won the Rhodes Scholarship in my 
final year. As a member of the football team, we trained during the 
off-season and during the season together, we spent much of our down-
time together, enjoyed off-campus life together, we studied together 
and generally lived together. During this period, I was able to 
participate in student life as a normal student by being involved in 
extra-curricular activities including pledging for my Fraternity, Kappa 
Alpha Psi, participating in human mesenchymal stem cell research and 
serving an executive role in Seminole Student Boosters.
    Because of the unique position in which I placed myself at FSU, I 
was able to see both sides of the student-athlete challenges, conflicts 
and now the controversial positions relative to compensating college 
athletes.
    I can appreciate the traditional arguments from the University 
perspective that they are providing one a full-four year scholarship 
that values in excess of US$250,000.00 or the claims from non-athlete 
students that the athlete is taking a position that a more qualified 
non-athlete student should have occupied. There are many legitimate 
arguments to support the University's and non-athlete student's 
positions. However, there is an equally compelling argument from the 
athletes.
    Let me talk about a few scenarios that I have personally experience 
and one shared with me second-hand.
    Playing football in a major university program is almost like a 
full time job. There is very little margin for error in managing your 
time. Typically during the season, your day begins with either a 5:00 
or 6:00 AM work-out in the weight room or a study session at the 
football facilities. This is followed by getting dressed and breakfast 
between 7:00 and 8:00 AM. After breakfast, most players have morning 
classes that can take you through the morning and up to 1:00 PM. Lunch 
is normally at an on-campus restaurant or cafeteria. There may be a 
little down-time between lunch and the time you must be at the 
facilities. If you have an injury, you make every effort to get that 
treated during this down-time. Around 2:30 PM or 3:00 PM, players 
report to their section meetings dressed. Around 4:00 PM players report 
to the field for practice that can last anywhere from 1\1/2\ to 2\1/2\ 
hours. After practice the players shower and clean-up for supper that 
is around 6:30 or 7:00 PM. Depending on the situation, there may be 
position meetings after supper or study sessions. A player normally 
could leave the facility between 8:00 PM and 9:30 PM and return to his 
dorm or apartment where he must study his films as well as his class 
work. Bed time could be any-time between 11:00 PM and 1:00 AM. At 5 or 
6:00 AM the process repeats itself. As you can see a significant 
portion of the football players day is consumed by football and at the 
football facility.
    The University provides a small monthly stipend to the athletes to 
cover food and rent at a minimal but acceptable living standard. Many 
of my team mates struggled to make ends meet on a monthly basis. Why 
you may ask? Many of the athletes come from deprived economic 
backgrounds where they must support their families back home so that 
the family could survive. Many of them take a portion of their 
allowance and send it home to support their family. If by chance an 
unplanned child is involved, the athlete must provide for that child as 
best he can. With the schedule delineated above there is no possible 
chance the athletes can take a second job to supplement his monthly 
stipend.
    Here are some of the issues and challenges the athlete and 
University face. The vast majority of the athletes are not prepared and 
ready for the rigorous and regimented life style of college football. 
In high school they were promoted socially and not provided the tools 
to navigate their way through an intense college curriculum that will 
provide for them once the college or NFL careers come to an end. The 
vast majority of college football players' careers end when their 
college eligibility ends. There are a few and a small select group who 
manage to make it to the NFL and survive where they can create 
financial security for their family. The universities are pressured to 
accept marginal students in order to remain competitive and share in 
the enormous wind-fall of bowl and television revenues.
    While many athletes enter college ill-equipped, the universities 
have excellent educational support systems that manage to keep the 
athletes eligible. The universities provide the opportunities for the 
athletes to change the trajectory of their and their families' lives. 
Some embrace this opportunity and others do not. My argument with 
universities is that they should evaluate each case on its own merit 
and develop a program where the individual's dreams and passion are 
channeled into the direction where once a course of study is completed 
the athlete becomes a productive citizen maximizing his or her skills.
Compensation to Athletes
    Compensation to athletes is an administrative nightmare but time 
has come to walk through the door and in the words of Spike Lee ``Do 
the right thing''. I am a proponent of compensating athletes. All 
college athletes should be compensated but not at the same level. 
However, I believe athletes in revenue generating sports should be 
compensated more than those in non-revenue generating sports.
    There are many who struggle with the idea of paying college 
athletes. Maybe a Managed Fund should be set-up that will be available 
to the athlete upon graduation or some criteria that demands some level 
of academic accomplishment from the athlete. This Managed Fund could be 
an outstanding way to fiscally support the continued education of the 
student-athlete once their playing days cease. A portion of the overall 
revenues generated from the product within which the athletes 
participate should fund the Managed Fund. A certain portion for non-
revenue generating sports should also be set-aside.
    It is my view that there should be a mechanism in place to address 
the immediate needs of the athlete who struggles with the standard 
monthly stipend. Maybe the monthly stipend needs to be increased or a 
means test be developed to ascertain the economic immediate needs which 
could carefully be deducted from the Managed Fund.
    Paying college athletes is the right thing to do and now is the 
right time to do it. Once we sharpen the mechanism in which to deliver 
this novel system, I believe we will see more successful student-
athletes making significant contributions beyond the playing field.
    Thank you for the opportunity to testify, and I look forward to 
answering your questions.

    The Chairman. Thank you very, very much.
    And now, Devon Ramsay.
    Welcome.

   STATEMENT OF DEVON JAHMAI RAMSAY, FORMER COLLEGE FOOTBALL 
              PLAYER, UNIVERSITY OF NORTH CAROLINA

    Mr. Ramsay. Good afternoon, Chairman Rockefeller.
    The Chairman. Devon, right? Yes.
    Mr. Ramsay. Good afternoon, Chairman Rockefeller and 
members of the Committee. It is an honor and a pleasure to have 
this opportunity to be in your presence and share my story and 
thoughts on the current state of college athletics. Let me 
first thank you and your staff for the invitation.
    I was born to Sharon Lee and Devon Anthony Ramsay on 
December 8, 1988 in Red Bank, New Jersey. My mother always 
valued a strong education and sent me to the Rumson County Day 
School, which was a Blue Ribbon private winning school that 
covered kindergarten through eighth grade. At Rumson, I 
excelled in the classroom and participated in athletics. And by 
the time it was for me to leave, I had the opportunity to go to 
the Lawrenceville School, which is right down the road in 
Princeton where I played against Myron.
    [Laughter.]
    Mr. Ramsay. I decided this would be the best academic and 
athletic environment for me. I would go on to have a successful 
academic and athletic career, graduating in 2007. And I decided 
to sign my letter of intent to go to the University of North 
Carolina at Chapel Hill. And what drew me to that school was 
not only its esteemed reputation as a top academic institution 
but also as the new hire of then new head coach, Butch Davis. 
This showed that the university had an all-around commitment to 
excellence.
    Now, my career at the University of North Carolina has been 
one filled with adversity. I've undergone five surgeries, been 
through three head coaches, and been asked if I wanted to 
transfer or if I wanted to take a medical redshirt. However, 
despite all this, I managed to succeed, being named an 
offensive starter for another 6 years and, by NFL draft analyst 
Mel Kiper, named the top three in my position.
    But most importantly, I got my degree in public policy with 
a concentration of business. After graduating, I moved back to 
Red Bank, where I would pursue my hopes of making an NFL team. 
However, I didn't make the team at Tampa Bay.
    Now, in the summer of 2010, two of my teammates had 
violated NCAA rules and attended a party thrown by sports 
agents. The University of North Carolina then launched their 
own investigation into the matter and discovered several 
potential counts of academic fraud. After the final practice of 
the week, before we played Clemson, I was told to report to one 
of the conference rooms and brought in for questioning by 
University officials. Before the questioning began, I was told 
that this conversation would be recorded and was asked if I 
needed a lawyer. I thought I had been called in there to see if 
they could find any more leads for the investigation, but then 
they began to ask me about my definition of academic fraud, 
academic dishonesty and plagiarism. And that is when they 
brought up a two-year-old e-mail correspondence between myself 
and a tutor. In the said e-mail, I ask the university's tutor 
for help with grammar and overall quality in the paper. And she 
replied by adding four to five sentences to a two and half page 
paper.
    They ask me if this is the exact same paper I turned in. 
However, I couldn't remember since it was 2 years ago. In the 
following 4 weeks that I was held out of competition, they sent 
me to the University's Honor Court. And the Attorney General of 
the Honor Court said that there was no case here; that there 
wasn't enough evidence. They had no final version of the paper, 
it wasn't submitted electronically and, I don't know, most 
people don't keep papers from 2 years ago.
    As I was being held out by UNC, an official from the 
compliance office proposed that if I were to plead guilty after 
being held out for so many games, that the NCAA would, in fact, 
allow me to play. At this time, I believe that the UNC's 
compliance office which was very well-versed in NCAA policy. 
However, it was a shocking blow that the NCAA then ruled me 
guilty of academic fraud which strips away my remaining 
eligibility and tarnishes my reputation.
    After coming to the realization that UNC was more concerned 
with penalties and losses of scholarships than protecting one 
of its own, my mother and I set out to find lawyers that would 
hopefully have my best interests at heart. However, none would 
stand against the NCAA nor its membership.
    Fortunately for me, Robert Orr, a State Supreme Court 
judge, reached out to my mother after reading an article that 
she had been involved with in The News and Observer. Without 
Judge Orr's legal knowledge and tenacity, I would have no one 
to turn to. As we went through the appeals process, which was 
possible with the endorsement of the University of North 
Carolina, the leadership at UNC once again wanted me to take a 
plea for a reduced sentence. However, Judge Orr, my mother and 
I needed to have my name unsullied. By going back and looking 
at the original interview, reviewing a lack of evidence and 
disregarding the guided testimony, the NCAA overturned its 
ruling and reinstated my eligibility.
    Unfortunately, the first game of the next season, I tore 
three ligaments in my knee. After receiving my sixth year of 
eligibility, I was not able to return to the field of play 
until my final game; which I participated in two plays.
    Now, one of the things that was, looking back at my career, 
that I wish I could have partaken in was in internships. A few 
of my friends from Lawrenceville went on to play at the Ivy 
League. It's not as demanding as, you know, high-level Division 
I football. They were allowed to go and pursue other things 
during the summer. And upon graduation, some of my friends got 
great job offers.
    An internship gives you direction, teaches you valuable 
life lessons and prepares you for a level of professionalism. 
At a competitive football school, completing an internship is 
almost impossible. In order to be eligible to receive your 
scholarship stipend during the summer and granted aid, if 
you're eligible, one was if you were enrolled in a certain 
number of credit hours. I've seen several teammates attempt to 
manage school, summer workouts and their internship. Most of 
these athletes ended up quitting their internship because of 
the sheer level of exhaustion experienced on an average day. 
Only one was able to complete this internship because it 
counted towards his credit hours so he wasn't required to go to 
any classes.
    At the University of North Carolina, football players are 
one of the only teams not allowed to participate in University 
camps, which would hone skills for those that would want to get 
into coaching and create another source of income. In fact, 
during a panel discussion about the documentary ``$chooled: The 
Price of College Sport,'' Head Coach of the George Mason men's 
basketball team Paul Hewitt stated that his team has to do an 
internship before they graduate a mandatory one. I think this 
is a great practice.
    If the NCAA truly wants to develop student-athletes and 
prepare them for success off the field, then they should 
mandate that all athletes complete an internship. The reason it 
needs to be mandated is because there exists a culture that 
demonizes any activity that won't directly help a program. 
Players that go home for a semester, and I had friends that had 
done this, are labeled as selfish and lazy and almost a cancer 
to the team. But, in fact, he's just going home. He's still 
working out. He's just trying to improve his own value for the 
likelihood that he's not going to make the NFL.
    I've come to realize that there is a void in college 
athletics. The NCAA, as an institution, no longer protects the 
student-athlete. They are more concerned with signage and 
profit margins. As I was called up to the initial meeting with 
UNC's investigators, I wasn't aware that I needed to defend 
myself against my university and the NCAA. And, as a student, I 
lack the resources and the knowledge to defend myself against 
an 80 year-old institution. My family lacked the resources to 
hire a lawyer. And if I refused to be interviewed, I would have 
been held down until I testified.
    In the NCAA, college football players have a very small 
window of opportunity to prove our worth to the NFL. Therefore, 
every game you miss is a lost opportunity and a means to 
devalue your worth. There needs to exist an entity that quickly 
and effectively advocates for the student-athlete. I was 
extremely fortunate that Judge Orr reached out to my family to 
help. However, it terrifies me how many students might have had 
their eligibility unjustly taken and their reputation damaged.
    The student-athlete has a short career and is an amazing 
new, renewable resource. And because of that, the NCAA is able 
to take advantage of naive young men and women. There needs to 
be an organization that will, in fact, protect the college 
athlete and has no ties to the financial being of the 
universities or to the NCAA. Allowing the NCAA continue to 
intimidate schools and athletes is dangerous and unfair. To 
quote a famous Roman poet, ``Who will watch the watchmen?''
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Mr. Ramsay follows:]

  Prepared Statement of Devon Ramsay, Former College Football Player, 
                      University of North Carolina
Introduction
    Good afternoon Chairman Rockefeller and Members of the Committee, 
it is an honor and a pleasure to have this opportunity to be in your 
presence and share my story and thoughts on the current state of 
college athletics. Let me first thank you and your staff for the 
invitation.
Academic and Athletic Background
    I was born to Sharon Lee and Devon Anthony Ramsay on December 8th 
1988 in Red Bank, New Jersey. My mother has always valued a strong 
education and sent me to the Rumson County Day School, a Blue Ribbon 
winning private school that covered kindergarten through the eighth 
grade. At Rumson, I excelled in the classroom and participated in 
athletics. By 2003, My achievements at Rumson County Day School 
garnered the attention of many prestigious boarding schools along the 
east coast. I decided to attend the Lawrenceville School, an elite 
preparatory and boarding school outside of Princeton New Jersey. This 
would be the best environment academically and athletically. At 
Lawrenceville, I would go on to have a successful academic and athletic 
career graduating in 2007. In 2007, I signed a letter of intent to 
attend the University of North Carolina at Chapel Hill. What drew me to 
this amazing school was its esteemed reputation as a top academic 
institution and the hire of then new head coach Butch Davis. This 
showed that the University had an all around commitment to excellence.
    My career at the University of North Carolina has been one filled 
with adversity. I have underwent five surgeries, been through three 
head coaches, have been asked if I wanted to transfer and if I wanted 
to take a medical redshirt. However, despite all the adversity, I have 
managed to succeed being named an offensive starter for four out of my 
six seasons, named as one of the top three fullbacks in the country by 
NFL Draft Analyst Mel Kiper Jr. and most importantly attaining a degree 
in Public Policy with a concentration in business. After graduation, I 
moved back home to Red Bank, where I pursued my dreams of making an NFL 
team. I would get an opportunity with the Tampa Bay Buccaneers; 
however, I did not end up making the roster.
NCAA Case
    In the summer of 2010, two of my teammates had violated NCAA rules 
and attended a party thrown by sports agents. The University of North 
Carolina then launched their own investigation into the matter and 
discovered several potential counts of academic fraud. After the final 
practice before we are to play Clemson, I was told to report to one of 
our conference rooms and brought in for questioning by University 
officials. Before the questioning began and was told that this 
conversation would be recorded and I was asked if I needed a lawyer. I 
thought I had been called to see if they could find any more leads in 
the investigation. They then proceed to ask my definition and 
understanding of plagiarism. After which the investigators presented a 
two year old e-mail correspondence between myself and a tutor. In said 
e-mail, I ask the university's tutor for help with grammar and overall 
quality. She replies by adding four sentences to a two and half page 
paper.
    They began to ask me if I turned in the paper as the tutor sent it 
and I couldn't remember since it had been two years for a two and half 
page paper. In the following four weeks that I was held out of 
competition, I was sent to see the Attorney General of UNC's Honor 
Court who came to the conclusion that since there was no final version 
of the paper present, this case would not go to trial due to lack of 
evidence.
    As I was being held out by UNC, an official from the compliance 
office proposed that if I were to plead guilty after being held out for 
so many games that the NCAA would in fact allow me to play. At this 
time, I believed that UNC's compliance to be well versed in NCAA 
policy. It was a shocking blow when the NCAA had ruled I was guilty of 
``academic fraud'' which strips away my remaining eligibility and 
tarnishes my reputation. After coming to the realization that UNC was 
more concerned with penalties and loss of scholarships than protecting 
one of its own, my mother and I set out to find lawyers that would 
hopefully have my best interests at heart. However, none wanted to 
stand against the NCAA nor its membership. Fortunately, Robert Orr, a 
former State Supreme Court judge, reached out to my mother after 
reading an article in The News and Observer. Without Judge Orr's legal 
knowledge and tenacity, I would have no one to turn to. As we went 
through the appeals process, which was only possible with the 
endorsement of the University of North Carolina, the leadership at UNC 
once again wanted me to take a plea for a reduced sentenced. However, 
Judge Orr, my mother and I needed to have my name unsullied. By going 
back and looking at the original interview, reviewing a lack of 
evidence and disregarding the guided testimony, the NCAA overturned its 
ruling and reinstated my eligibility. Unfortunately, the first game of 
the next season, I tore three ligaments in my left knee. After 
receiving a sixth year of eligibility, I was not able to make a return 
to the field of play in my final game.
Internships
    A few of my friends from the Lawrenceville School went on to play 
football in the Ivy League and one of the things I noticed and admired 
is that they were able to participate in assorted internships during 
their summers and upon graduation received great job offers. An 
internship gives you direction, teaches you valuable life lessons and 
prepares you for a level of professionalism. At a competitive football 
school, completing an internship is almost impossible. In order to be 
eligible to receive your scholarship stipend and grant in aid (if 
you're eligible) one must be enrolled in a certain number of credit 
hours. I've seen several teammates attempt to manage school, summer 
workouts and their internship. Most of these athletes ended up quitting 
their internship because of the sheer level of exhaustion experienced 
on an average day. Only one was able to complete his internship because 
it counted towards his credit hours. At the University of North 
Carolina, football players are one of the only teams not allowed to 
participate in University camps, which would hone skills for those that 
want to get into coaching and create another source of income. During a 
panel discussion about the documentary ``$chooled: The Price of College 
Sport,'' Head Coach of the George Mason Men's Basketball team Paul 
Hewitt stated that his team has to do an internship before they 
graduate. I think this is a great practice. If the NCAA truly wants to 
develop ``student athletes'' and prepare them for success off the 
field, then they should mandate that all athletes complete an 
internship. The reason it needs to be mandated is because there exists 
a culture, that demonizes activity that won't directly help a program. 
Players that go for a semester are labeled as ``selfish'' and ``lazy'', 
when in fact he is only improving his value for the likelihood that he 
will not make the NFL.
    I have come to realize that there is a void in college athletics. 
The NCAA as an institution no longer protects the ``student athlete''. 
They are more concerned with signage and profit margins. As I was 
called up to the initial meeting with UNC's investigators, I wasn't 
aware that I needed to defend myself against my university and the NCAA 
and as a student I lacked the resources and knowledge to defend myself 
against an eighty year old system. My family lacked the resources to 
hire a lawyer and if I refused to be interviewed I would have been held 
out until I testified. In the NCAA, college football players have a 
small window of opportunity to prove their worth to the NFL. Therefore, 
every game you miss is a lost opportunity and a means to devalue your 
worth. There needs to exist an entity that quickly and effectively 
advocates for the ``student athlete'' I was extremely fortunate that 
Judge Orr reached out to my family to help. However, It terrifies me 
how many students might have had their eligibility unjustly taken and 
their reputation damaged. The ``student athlete'' has a short career 
and is an amazing renewable resource and because of that the NCAA is 
able to take advantage of naive young men and women. There needs to be 
an organization that will in fact protect the college athlete and has 
no ties to the financial well being of the Universities or to the NCAA. 
Allowing the NCAA to continue to intimidate schools and athletes is 
dangerous and unfair. To quote a famous Roman poet, ``Who will watch 
the watchmen?''
    Thank you for the opportunity to appear before you today. I look 
forward to taking your questions.

    The Chairman. Thank you very much, Mr. Ramsay. We 
appreciate it a lot.
    Mr. Taylor Branch is from Baltimore. He is an author and an 
historian. And he has written one of the, what I call, five 
best books ever written in terms of my own reading preferences, 
about the civil rights movement and the development of it. And 
he's also an expert on this subject and has written 
extensively.
    We welcome you, sir.

        STATEMENT OF TAYLOR BRANCH, AUTHOR AND HISTORIAN

    Mr. Branch. Thank you.
    Thank you, Senator Rockefeller. Thank you, Senator Thune. 
Thank you, members of the Committee, guests, sports fans and 
educators. I am honored to be here.
    The subject for your hearing today, college sports and the 
well-being of college athletes, is full of mine fields and 
myths. I hope to offer some summary comments for possible 
discussion under three headings: amateurism, balance and 
equity.
    Amateurism has become the distinguishing feature of NCAA 
governance. It is identified in official pronouncements as the 
bedrock principle of college athletics. The NCAA Bylaws define 
and mandate amateur conduct as follows: ``Student athletes 
shall be amateurs in an intercollegiate sport, and their 
participation should be motivated primarily by education and by 
the physical, mental and social benefits to be derived. Student 
participation in intercollegiate athletics is an avocation, and 
student athletes should be protected from exploitation by 
professional and commercial enterprises.'' That's NCAA Bylaw 
2.9.
    The word ``amateur'' reflects conflicted attitudes about 
money, youth, and the purposes of recreation. Its broad 
ambivalence has opened a muddled flexibility in public habits, 
allowing the United States to become the world's only nation to 
develop commercialized sports at institutions of higher 
learning. Even the major universities involved, which were 
founded to uphold intellectual rigor, routinely ignore or 
excuse the contradictions of a multibillion-dollar side 
industry built on their undergraduate students.
    Confusion and mythology begin with the word itself. 
Dictionary synonyms for ``amateur'' range from a wholesome 
``enthusiast'' or ``devotee'' to a bumbling ``dabbler'' or 
``rookie.'' Merriam-Webster gives a stinging illustration of 
the latter tone: ``The people running that company are a bunch 
of amateurs.'' Accordingly, the same word expresses praise and 
scorn without distinction. This ambiguity gains reinforcement 
in our uniquely designed popular world of sports, where fans 
are encouraged to cheer and boo without thinking objectively.
    The ideal of ancient Greek amateurism has always been 
misleading, because the athletes of Olympus actually competed 
for huge prizes. Aristotle researched well-rewarded champions 
back through records of the earliest Olympic festivals. And 
modern scholars have confirmed evidence of high-stakes victory 
and loss. ``Ancient amateurism is a myth,'' noted the 
classicist David Young. ``Purists who refused to mix money with 
sport did not exist in the ancient world,'' concludes Michael 
B. Poliakoff, ``and victors' monuments boast of success in the 
cash competition as openly as they boast of victory in the 
sacred contests.''
    Golf legend Bobby Jones is enshrined in modern sports 
history as the ideal, as the model amateur, and gentleman who 
decline every championship prize he earned. His reputation fits 
the true definition of amateur, which is derived from the Latin 
``amator'' or ``lover,'' specifying one who chooses to pursue a 
skill out of subjective devotion rather than the hope of 
financial gain. Some non-college sports still allow athletes to 
declare and renounce amateur status.
    Significantly, students themselves called themselves 
amateurs when they invented intercollegiate sports after the 
Civil War. Until 1905, students retained general control of the 
new phenomenon in everything from scheduling and equipment to 
ticket sales. They recruited alumni to construct Harvard 
Stadium in 1903 with zero funds from the college. ``Neither the 
faculties nor other critics assisted in building the structure 
of college athletics,'' declared Walter Camp, Yale class of 
1880, who became the father of college football in his spare 
time.
    The NCAA, created in 1906, slowly transformed the amateur 
tradition inherited from college athletes. Its board declared a 
goal of total faculty control as late as 1922, and the weak 
NCAA organization could not hire its first full-time staff 
member until 1951. After that, however, burgeoning revenue from 
television contracts allowed NCAA officials to enforce amateur 
rules as an objective requirement rather than a subjective 
choice. This is problematic because attempts to regulate 
personal motivation and belief commonly run afoul of the 
Constitution. Even if internal standards were allowed, and 
somehow could be measured, NCAA rules contradict the key 
requirement that college sports must be an avocation, or 
calling, which comes from ``vocare,'' to call, and ``vox,'' 
voice, by denying athletes an essential voice. NCAA rules 
govern the players by fiat, excluding them from membership and 
consent.
    Balance. Checks and balances are required for sound 
governance, and the NCAA structure is unbalanced in at least 
four basic respects. First, NCAA enforcement suffers an 
inherent conflict of interest between alleged violations in 
football as opposed to basketball, because the organization 
lost its television revenue from college football and is almost 
wholly dependent on a sole-source broadcasting contract for the 
March Madness basketball tournament.
    Second, the NCAA structure creates a false impression of 
common practice between the very few schools that aggressively 
commercialize college athletics, roughly 100 to 150 of some 
1,200 NCAA members, and the vast majority of schools with small 
crowds and negligible sports revenue. An elastic NCAA 
amateurism stretches all the way from a Division III cross-
country race to Notre Dame Football on ESPN.
    Third, NCAA officials resolutely obscure differences 
between commercialized sports and the academic mission on 
campus. In the classroom, colleges transfer highly valued 
expertise to students, but this traditional role is reversed in 
big-time sports. There, athletes deliver highly valued 
expertise to the colleges. This distinction is basic and 
fundamental to your Committee's stated purpose of promoting 
educational integrity. College athletes are, or should be, 
students in the classroom and competitor players in the 
athletic department. They face multiple roles in careers like 
many Americans, but their conflicting demands cannot be managed 
or balanced unless they are squarely recognized. The NCAA 
undermines this logical separation by insisting that sports are 
an educational supplement for a hybrid creature under its 
jurisdiction called the student-athlete. Universities 
implicitly concur by offloading some of their academic 
responsibility to the NCAA.
    Fourth, the NCAA and its member schools strip rights from 
athletes uniquely as a class. No college tries to ban 
remunerative work for all students, and no legislature could or 
would write laws to confiscate earnings from one targeted group 
of producers in a legitimate enterprise. On the contrary, 
universities sponsor extensive work study programs, and 
student-citizens everywhere exercise freedom to market skills 
everywhere from bookstore jobs and pizza delivery to the 
entrepreneurial launch of Facebook, unless they are athletes. 
For college athletes alone, the NCAA brands such industry 
unethical.
    Equity. Basic fairness requires attention to the rights and 
freedom of participants above the convenience of observers. 
Applied to college sports, this principle would mean that no 
freedom should be abridged because of athletic status. While I 
am neither a lawyer nor a professional economist, I find ample 
historical evidence that experts object to collusion in the 
NCAA's regulatory structure.
    In Microeconomics, a prominent textbook, professors Robert 
Pindyck and Daniel Rubinfeld make the NCAA a featured example 
of an economic cartel that reaps anti-competitive profit. The 
courts have agreed in two landmark cases. In NCAA versus Board 
of Regents of the University of Oklahoma in 1984, the U.S. 
Supreme Court struck down the NCAA's exclusive control of 
college football broadcasts as an illegal restraint of trade. 
Overnight, the major football schools won the freedom to sell 
every broadcast their markets would bear, without having to 
share proceeds with the smaller schools through the NCAA. ``We 
eat what we kill,'' bragged one official at the University of 
Texas.
    In Law v. the NCAA, 1998, assistant coaches won a $54 
million settlement along with an order vacating the NCAA's 
$16,000 limit on starting salaries. The compensation of 
assistant football coaches has cracked the $1 million barrier 
since then with salaries skyrocketing even in non-revenue 
sports. By 2010, the University of Florida paid its volleyball 
coach $365,000.
    Thus, the supervisors of college sports have won economic 
freedom, and they enjoy enormous largesse from a distorted 
cartel marketplace that now shackles only the most vital 
talent: the players. ``To reduce bargaining power by student 
athletes,'' wrote Pindyck and Rubinfeld, ``the NCAA creates and 
enforces rules regarding eligibility and the terms of 
compensation.''
    NCAA officials, of course, steadfastly assert that their 
whole system is devoted to the educational welfare and benefit 
of the college athletes. ``Football will never again be placed 
ahead of educating, nurturing and protecting young people,'' 
NCAA president Mark Emmert, sitting near me, vowed when he 
announced NCAA sanctions for the recent scandal at Penn State.
    Such professions must be reconciled somehow with NCAA rules 
that systematically deny college athletes a full range of 
guaranteed rights from due process and representation to the 
presumption of innocence. These rules can turn words on their 
head, like Alice in Wonderland. The NCAA's bedrock pledge to 
avoid commercial exploitation of college athletes, for 
instance, aims to safeguard them from getting paid too much, or 
at all, rather than too little in the ordinary usage of the 
word exploit, to use selfishly for one's ends, as employers who 
exploit their workers.
    In closing, I would suggest one hopeful precedent from the 
past work of your Commerce Committee. This is not the first 
time that the governance of amateur sports, together with the 
education of college athletes, has presented a daunting tangle 
of passions and vested interests.
    Fifty years ago, an early bonanza in sports revenue 
intensified the bitter feud between the NCAA and the Amateur 
Athletic Union, AAU, which controlled access to the Olympic 
Games. AAU leaders accused an ``unpatriotic'' NCAA of 
sabotaging U.S. chances to win medals. They claimed that 
college athletes already were paid, and therefore not amateurs 
at all since the NCAA approved athletic scholarships in 1956. 
NCAA officials retorted that AAU coaches were parasites on 
college training facilities.
    These two sides nitpicked, boycotted, sabotaged, and 
disqualified each other until President Kennedy enlisted no 
less a mediator than General Douglas MacArthur to foster U.S. 
hopes for the 1964 Tokyo Olympics. The squabbling exhausted 
MacArthur, who recommended a Blue Ribbon commissions that 
brought proposals eventually to this committee.
    Your predecessors shaped what became the Olympic and 
Amateur Sports Act of 1978. One key provision of that law 
secured for active athletes a 20 percent share of the voting 
seats on each of the 39 new U.S. Olympic Committees. Though 
small, this representation soon transformed amateur sports. 
Granted a voice, athletes tipped the balance on governing 
committees in the United States and inexorably around the 
globe. Marathon races, then tennis tournaments, recognized a 
right for players to accept prize money and keep their Olympic 
eligibility. New leagues sprang up to popularize volleyball and 
other games with corporate sponsors. Olympic officials came to 
welcome professional competitors in every sport except boxing.
    By 1986, when the International Olympic Committee expunged 
the word amateur from its bylaws, the modified games defied 
every prediction of disasters. Indeed, most people scarcely 
don't notice the change. Some of you helped recognize success 
in the revised Ted Stevens Olympic and Amateur Sports Act of 
1998.
    This example suggests a good place to start. Wherever 
possible, make athletes true citizens rather than glorified 
vassals in college sports. Where markets extend into college 
sports, make them fair and competitive. Recognize the rights, 
uphold the rights, of college athletes. Give them a voice, and 
challenge universities, in turn, to make wise, straightforward 
decisions about the compatibility of commercialized sports with 
education.
    Thank you.
    [The prepared statement of Mr. Branch follows:]

                  Prepared Statement of Taylor Branch
    Thank you, Senator Rockefeller. Thank you, Senator Thune. Thank 
you, members of the Committee. I am honored to be here.
    My name is Taylor Branch, from Baltimore, Maryland. My educational 
background includes an AB degree in history from the University of 
North Carolina at Chapel Hill (1968) and an MPA (Master of Public 
Affairs) degree from the Woodrow Wilson School of Public and 
International Affairs at Princeton University (1970. Since 1976, I have 
made my living primarily as an independent author of books.
    Pertinent to the title for your session today, ``Pursuing the Well-
Being and Academic Success of College Athletes,'' I wrote a capsule 
history of the National Collegiate Athletic Association (NCAA) for the 
October 2011 issue of The Atlantic Monthly, entitled ``The Shame of 
College Sports.'' Because of widespread public debate that ensued, I 
expanded the Atlantic article into a digitally published e-book called 
The Cartel, and I proposed a short ``Three-Point Reform Agenda for 
Sports in Higher Education.'' The agenda is available on my website at 
http://taylorbranch.com/2012/06/14/a-three-point-reform-agenda-for-
sports-in-higher-education/.
    What follows are summary comments for possible discussion under 
three headings: Amateurism, Balance, and Equity.
Amateurism
    ``Amateurism'' has become the distinguishing feature of NCAA 
governance. It is identified in official pronouncements as ``a bedrock 
principle of college athletics \1\.'' The NCAA Bylaws define and 
mandate amateur conduct as follows: ``Student athletes shall be 
amateurs in an intercollegiate sport, and their participation should be 
motivated primarily by education and by the physical, mental and social 
benefits to be derived. Student participation in intercollegiate 
athletics is an avocation, and student athletes should be protected 
from exploitation by professional and commercial enterprises.\2\''
---------------------------------------------------------------------------
    \1\ Opening sentence of the NCAA website page headed, ``Office of 
the President, Remaining Eligible, Amateurism,'' at www.ncaa.com.
    \2\ NCAA Bylaw 2.9.
---------------------------------------------------------------------------
    The word ``amateur'' reflects conflicted attitudes about money, 
youth, and the purpose of recreation. Its broad ambivalence has opened 
a muddled flexibility in public habits, allowing the United States to 
become the world's only nation to develop commercialized sports at 
institutions of higher learning. Even the major universities involved, 
which were founded to uphold intellectual rigor, routinely ignore or 
excuse the contradictions of a multi-billion-dollar side-industry built 
on their undergraduate students.
    Confusion and mythology begin with the word itself. Dictionary 
synonyms for ``amateur'' range from a wholesome ``enthusiast'' or 
``devotee'' to a bumbling ``dabbler'' or ``rookie.'' Merriam-Webster 
gives a stinging illustration of the latter tone: ``The people running 
that company are a bunch of amateurs.'' Accordingly, the same word 
expresses praise and scorn without distinction. This ambiguity gains 
reinforcement in our uniquely designed world of sports, where fans are 
encouraged to cheer and boo without thinking objectively.
    The ideal of ancient Greek amateurism has always been misleading, 
because the athletes of Olympus actually competed for huge prizes. 
Aristotle researched well-rewarded champions back through records of 
the earliest Olympic festivals, and modern scholars have confirmed 
evidence of high-stakes victory and loss \3\. ``Ancient amateurism is a 
myth,'' noted the classicist David Young.\4\ ``Purists who refused to 
mix money with sport did not exist in the ancient world,'' concludes 
Michael B. Poliakoff, ``and victors' monuments boast of success in the 
cash competitions as openly as they boast of victory in the sacred 
contests.'' \5\
---------------------------------------------------------------------------
    \3\ Michael B. Poliakoff, Combat Sports in the Ancient World. New 
Haven: Yale University Press, 1987, pp. 3, 131.
    \4\ David Young, The Olympic Myth of Greek Amateur Athletics. 
Chicago: Ares Press, 1985, p. 7.
    \5\ Poliakoff, Combat Sports in the Ancient World, p. 19.
---------------------------------------------------------------------------
    Golf legend Bobby Jones is enshrined in modern sports history as 
the model amateur, and gentleman, who declined every championship prize 
he earned. His reputation fits the true definition of ``amateur,'' 
which is derived from the Latin ``amator,'' or ``lover,'' specifying 
one who chooses to pursue a skill out of subjective devotion rather 
than the hope of financial gain.\6\ Some non-college sports still allow 
athletes to declare and renounce amateur status.
---------------------------------------------------------------------------
    \6\ http://www.merriam-webster.com/dictionary/amateur.
---------------------------------------------------------------------------
    Significantly, students called themselves amateurs when they 
invented intercollegiate sports after the Civil War.\7\ Until 1905, 
students retained general control of the new phenomenon in everything 
from schedule and equipment to ticket sales. They recruited alumni to 
construct Harvard Stadium in 1903 with zero funds from the college.\8\ 
``Neither the faculties nor other critics assisted in building the 
structure of college athletics,'' declared Walter Camp (Yale class of 
1880), who became the ``father'' of college football in his spare 
time.\9\
---------------------------------------------------------------------------
    \7\ Joseph N. Crowley, In the Arena: The NCAA's First Century. 
Indianapolis: The NCAA, 2006, p. 37.
    \8\ Mark F. Bernstein, Football: The Ivy League Origins of an 
American Obsession. Philadelphia: University of Pennsylvania Press, 
2001, p. 72.
    \9\ Ronald A. Smith, Sports & Freedom: The Rise of Big-Time College 
Athletics. New York: Oxford University Press, 2006, pp. 83-88, 118.
---------------------------------------------------------------------------
    The NCAA, created in 1906, slowly transformed the amateur tradition 
inherited from college athletes.\10\ Its board declared a goal of 
``total faculty control'' as late as 1922, and the weak NCAA 
organization could not hire its first full-time staff member until 
1951.\11\ After that, however, burgeoning revenue from television 
contracts allowed NCAA officials to enforce amateur rules as an 
objective requirement rather than a subjective choice.\12\ This is 
problematic, because attempts to regulate personal motivation and 
belief commonly run afoul of the Constitution. Even if internal 
standards were allowed, and somehow could be measured, NCAA rules 
contradict their requirement that college sports must be an 
``avocation,'' or calling (``vocare,'' to call, from ``voc-, vox,'' 
voice), by denying athletes an essential voice. NCAA rules govern the 
players by fiat, excluding them from membership and consent.
---------------------------------------------------------------------------
    \10\ Crowley, In the Arena: The NCAA's First Century, p. 44.
    \11\ Ibid., p. 67.
    \12\ John Sayle Watterson, College Football: History, Spectacle, 
Controversy. Baltimore: The Johns Hopkins University Press, 200, pp. 
265-276; Paul R. Lawrence, Unsportsmanlike Conduct: The National 
Collegiate Athletic Association and the Business of College Football. 
New York: Praeger Publishers, 1987, pp. 71-82
---------------------------------------------------------------------------
Balance
    Checks and balances are required for sound governance, and the NCAA 
structure is unbalanced in at least four respects. First, NCAA 
enforcement suffers an inherent conflict of interest between alleged 
violations in football, as opposed to basketball, because the 
organization lost its television revenue from college football and is 
almost wholly dependent on a sole-source broadcasting contract for the 
March Madness basketball tournament.\13\
---------------------------------------------------------------------------
    \13\ Lawrence, Unsportsmanlike Conduct, p. 148; Keith Dunnevant, 
The Fifty-Year Seduction. New York: St. Martin's Press, 2004, pp. 160-
167.
---------------------------------------------------------------------------
    Second, the NCAA structure creates a false impression of common 
practice between the few schools that aggressively commercialize 
college athletics--roughly 100-150 of some 1,200 NCAA members--and the 
vast majority of schools with small crowds and negligible sports 
revenue. An elastic NCAA ``amateurism'' stretches all the way from a 
Division III cross-country race to Notre Dame football on ESPN.
    Third, NCAA officials resolutely obscure differences between 
commercialized sports and the academic mission on campus. In the 
classroom, colleges transfer highly valued expertise to students, but 
this traditional role is reversed in big-time sports. Athletes there 
deliver highly valued expertise to the colleges. This distinction is 
basic, and is fundamental to your committee's stated purpose of 
promoting educational integrity. College athletes are, or should be, 
students in the classroom and competitors in the athletic department. 
They face multiple roles, like most Americans, but their conflicting 
demands cannot be managed or balanced until they are squarely 
recognized. The NCAA undermines this logical separation by insisting 
that sports are an educational supplement for a hybrid creature under 
its jurisdiction, called the ``student-athlete.'' Universities 
implicitly concur by offloading some of their academic responsibility 
to the NCAA.
    Fourth, the NCAA and its member schools strip rights from athletes 
uniquely as a class. No college tries to ban remunerative work for all 
students, and no legislature could or would write laws to confiscate 
earnings from one targeted group of producers in a legitimate 
enterprise. On the contrary, universities sponsor extensive work-study 
programs, and student-citizens exercise freedom to market skills 
everywhere from bookstore jobs and pizza delivery to the 
entrepreneurial launch of Facebook--unless they are athletes. For 
college athletes alone, the NCAA brands such industry ``unethical.''
Equity
    Basic fairness requires attention to the rights and freedoms of 
participants above the convenience of observers. Applied to college 
sports, this principle would mean that no freedom should be abridged 
because of athletic status. While I am neither a lawyer nor a 
professional economist, I find ample historical evidence that experts 
object to collusion in the NCAA's regulatory structure.
    In Microeconomics, a prominent textbook, professors Robert Pindyck 
and Daniel Rubinfeld make the NCAA a featured example of an economic 
cartel that reaps anti-competitive profit.\14\ The courts have agreed 
in two landmark cases. In NCAA v. Board of Regents of the University of 
Oklahoma (1984), the U.S. Supreme Court struck down the NCAA's 
exclusive control of college football broadcasts as an illegal 
restraint of trade.\15\ Overnight, the major football schools won 
freedom to sell every broadcast their markets would bear, without 
having to share the proceeds with smaller schools through the NCAA. 
(``We eat what we kill,'' bragged one official at the University of 
Texas.) In Law v. NCAA (1998), assistant coaches won a $54-million 
settlement along with an order vacating the NCAA's $16,000 limit on 
starting salaries.\16\ The compensation of assistant football coaches 
has cracked the $1 million barrier since then,\17\ with salaries 
skyrocketing even in ``non-revenue'' sports. By 2010, the University of 
Florida paid its volleyball coach $365,000.\18\
---------------------------------------------------------------------------
    \14\ Robert S. Pindyck and Daniel L. Rubinfeld, Microeconomics 
(Eighth Edition). New York: Prentice Hall, 2001, pp. 480-481.
    \15\ Dunnevant, The Fifty-Year Seduction, pp. 160-167.
    \16\ Law v. NCAA, 134 F.3d 1010 (10th Cir. 1998).
    \17\ Kevin Zimmerman, USC's Monte Kiffen's Salary Highest Among 
NCAA assistant coaches,'' SB Nation, Dec. 18, 2012.
    \18\ Joe Drape and Katie Thomas, ``As Colleges Compete, Major Money 
Flows to Minor Sports,'' New York Times, Sept. 2, 2010.
---------------------------------------------------------------------------
    Thus, the supervisors of college sports won economic freedom, and 
they enjoy enormous largesse from a distorted cartel market that now 
shackles only the most vital talent: the players. ``To reduce 
bargaining power by student athletes,'' wrote Pindyck and Reubinfeld, 
``the NCAA creates and enforces rules regarding eligibility and the 
terms of compensation.'' \19\ NCAA officials, of course, steadfastly 
assert that their whole system is devoted to the educational benefit of 
college athletes. ``Football will never again be placed ahead of 
educating, nurturing, and protecting young people,'' NCAA president 
Mark Emmert vowed when he announced NCAA sanctions for the recent 
scandal at Penn State.\20\ Such professions must be reconciled with 
NCAA rules that systematically deny college athletes a full range of 
guaranteed rights--from due process and representation to the 
presumption of innocence. These rules can turn words on their head, 
like Alice in Wonderland. The NCAA's bedrock pledge to avoid 
``commercial exploitation'' of college athletes, for instance, aims to 
safeguard them from getting paid too much, or at all, rather than too 
little in the ordinary usage of the word exploit: ``to use selfishly 
for one's ends--employers who exploit their workers.'' \21\
---------------------------------------------------------------------------
    \19\ Pindyck and Rubinfeld, Microeconomics, p. 455.
    \20\ Emmert quoted in Taylor Branch, ``The NCAA Entrenches Itself 
as Part of the Problem,'' The Chronicle of Higher Education, August 1, 
2012.
    \21\ Listing for ``exploit'' at www.dictionary.reference.com.
---------------------------------------------------------------------------
    In closing, I would suggest one hopeful precedent from the past 
work of your Commerce Committee. This is not the first time that the 
governance of amateur sports, together with the education of college 
athletes, has presented a daunting tangle of passions and vested 
interests. Fifty years ago, an early bonanza in sports revenue 
intensified a bitter feud between the NCAA and the Amateur Athletic 
Union (AAU), which controlled access to the Olympic Games. AAU leaders 
accused an ``unpatriotic'' NCAA of sabotaging U.S. chances to win 
medals. They claimed that college athletes already were ``paid,'' and 
therefore not amateurs at all, once the NCAA approved athletic 
scholarships in 1956. NCAA officials retorted that AAU coaches were 
``parasites'' on college training facilities. The two sides nitpicked, 
boycotted, sabotaged, and disqualified each other until President 
Kennedy enlisted no less a mediator than General Douglas MacArthur to 
mediate U.S. hopes for the 1964 Tokyo Olympics. The squabbling 
exhausted MacArthur, who recommended Blue Ribbon commissions that 
brought proposals eventually to this Committee.
    Your predecessors shaped what became the Olympic and Amateur Sports 
Act of 1978.\22\ One key provision of that law secured for active 
athletes a twenty-percent share of the voting seats on each of the 
thirty-nine new U.S. Olympic Committees. Though small, this 
representation soon transformed amateur sports. Granted a voice, 
athletes tipped the balance on governing committees in the United 
States and inexorably around the globe. Marathon races, then tennis 
tournaments, recognized a right for players to accept prize money and 
keep their Olympic eligibility. New leagues sprang up to popularize 
volleyball and other games with corporate sponsors. Olympic officials 
came to welcome ``professional'' competitors in every sport except 
boxing. By 1986, when the International Olympic Committee expunged the 
word ``amateur'' from its bylaws, the modified Games defied every 
prediction of disaster. Indeed, most people scarcely noticed the 
change. Some of you helped recognize success in the revised Ted Stevens 
Olympic and Amateur Sports Act of 1998.
---------------------------------------------------------------------------
    \22\ Kenny Moore, Bowerman and the Men of Oregon. New York: Rodale, 
Inc., 2006, p. 349; Joseph M. Turrini, The End of Amateurism in 
American Track and Field. Urbana: University of Illinois Press, 2010, 
pp. 74-83, 140-147.
---------------------------------------------------------------------------
    This example suggests a good place to start. Wherever possible, 
make the athletes true citizens rather than glorified vassals in 
college sports. Challenge universities in turn to make wise, 
straightforward decisions about the compatibility of commercialized 
sports with education.
    Thank you.

    The Chairman. Thank you very much, Mr. Branch.
    And I want to be very critical of myself because the 
general rule around here is that witnesses speak for five or 6 
minutes, but I failed to make that clear. And so, we just got--
--
    Mr. Branch. It says 5 minutes right here, but I wasn't 
watching.
    [Laughter.]
    Mr. Branch. Sorry.
    The Chairman. But I want to just sort of keep it to five or 
six or seven minutes. That would be the best. And I thank you 
for your testimony. And it was my fault.
    Mr. Bradshaw, who is the former Director of Athletics at 
Temple University, we welcome you, sir.

    STATEMENT OF WILLIAM D. BRADSHAW, PAST PRESIDENT OF THE 
   NATIONAL ASSOCIATION OF COLLEGIATE DIRECTORS OF ATHLETICS 
                            (NACDA)

    Mr. Bradshaw. Chairman Rockefeller, Ranking Member Thune, 
ladies and gentlemen of the Committee, good afternoon. Your 
invitation to me to testify today about promoting the well-
being and academic success of our student-athletes is much 
appreciated.
    It is an honor for me, this afternoon, to represent the 
1,600-plus institutions and 11,000-plus individual members of 
NACDA and its athletics administrators who are the 
practitioners of our enterprise and representing, in excess, of 
500,000 student-athletes across all three NCAA divisions, as 
well as the NAIA and junior-community colleges.
    NACDA serves as the professional association for those in 
the field on intercollegiate athletic administration. It 
provides educational opportunities and serves as a vehicle for 
networking the exchange of information and advocacy on behalf 
of the association.
    My career in higher education includes positions as an 
assistant baseball coach, head baseball coach, director of 
alumni and, before retiring a year ago, 36 years as a Division 
I athletic director at three universities. My athletic career 
includes 3 years as a student-athlete and one as a walk-on, 
followed by 2 years as a professional baseball player in the 
Washington Senators organization where two broken ankles 
influenced a career change and a Master's Degree. I trust my 
ankles are safe with you Washington Senators here today.
    These experiences proved valuable to my subsequent 36 years 
as a Division I athletic director at La Salle, DePaul, and 
Temple Universities, retiring from this wonderful profession 
one year ago.
    During the five decades of my career, I have seen 
significant improvements and the commitment by universities to 
the academic, athletic and personal experiences of student-
athletes. From state-of-the-art academic support services, 
elite coaching and training, athletic facilities, to the much 
improved equipment, safety requirements and emerging NCAA 
permissive benefits, our student-athletes have never had it 
better. And yet, we know we can do better. We, as educators, 
are committed to maximizing and developing the enormous 
academic, athletic and personal potential that our talented 
student-athletes bring to our universities.
    In assessing the well-being of student-athletes, it's 
important to examine our university's performances and trends 
in the areas of academics, financial security, health safety 
and life skills.
    Academics. Over the past 20 years, graduation rates, by any 
metric, have drastically improved for student-athletes. In 
2013, the Graduation Success Rate measure for all student-
athletes in Division I was 82 percent, including 71 percent for 
Division I FBS football participants, and 73 percent for men's 
basketball student-athletes.
    Among the reasons for this dramatic improvement in 
graduation rates are: increased NCAA requirements for initial 
eligibility and continued eligibility, and universities' 
proactive response to the Academic Progress Rate metric 
instituted by the NCAA to measure individual teams' classroom 
performance each semester.
    Health and safety. While universities strive to use best 
practices, we can never do too much to ensure the health and 
safety of our student-athletes. The prevention and detection of 
concussions, for example, particularly in the sport of 
football, remain as one of the highest priorities for every 
athletic director at every level. Best practices that have 
become commonplace include: hiring strength and conditioning 
coaches, dieticians, and nutritionists; required seminars for 
all student-athletes to discuss drugs and alcohol, assault, 
date rape, and gambling, as well as comprehensive regular drug 
testing and follow-up.
    Financial security. As we all know, the real costs to 
attend college have risen above inflation for years, causing 
many students to have massive debt upon graduation and proving 
too costly for others to even attend the college of their 
choice. Currently, Division I student-athletes receive $2.1 
billion in athletic scholarships, and this total will continue 
to escalate with anticipated NCAA legislation covering real 
costs of education, combined with the annual increases in 
tuition, room and board, books and fees.
    In addition to the real value of an athletic scholarship, 
and according to the U.S. Census data, a college graduate, on 
the average, earns $1 million more over a lifetime than a non-
graduate. Other financial benefits for student-athletes 
include: universities' health insurance; NCAA catastrophic 
insurance; multi-year athletic grants; and student assistance 
funds available to conference offices.
    The vastly improved conditions afforded student-athletes 
have resulted in their unprecedented performances in the 
classroom, on the playing fields, and in preparation for life. 
Few other campus activities or clubs produce such natural 
diversity as intercollegiate athletics, bringing together young 
men and women from various races, religions, nations, beliefs, 
with the common denomination being their academic profiles and 
athletic skills.
    Less than 1 percent of Division I student-athletes will 
ever participate in professional sports, and that professional 
career, on average, lasts only a few years. This reality 
underscores the value of a college education, an education that 
many young men and women could not afford without an athletic 
scholarship.
    In our profession of intercollegiate athletics, the 
student-athletes under our care are the center of our universe, 
and the most important people to consider in our 
decisionmaking. If we always ask ourselves, before allocating 
resources, building facilities, or hiring coaches, is this 
decision in the best interest of our student athletes, then I 
believe that answer has helped us to arrive at the right 
decision.
    Any of your questions are most welcome. Thanks, again, for 
inviting me to be with you this afternoon.
    [The prepared statement of Mr. Bradshaw follows:]

   Prepared Statement of William D. Bradshaw, Past President of the 
   National Association of Collegiate Directors of Athletics (NACDA)
    Chairman Rockefeller, ladies and gentlemen of the Committee, good 
afternoon. Your invitation to me to testify today about promoting the 
well-being and academic success of our student-athletes is much 
appreciated.
    It is an honor for me, this afternoon, to represent the 1,600-plus 
institutions and 11,000-plus individual members of NACDA and its 
athletics administrators who are the practitioners of our enterprise 
and representing in excess of 500,000 student-athletes across all three 
NCAA divisions, as well as the NAIA and junior/community colleges. 
NACDA serves as the professional association for those in the field of 
intercollegiate athletics administration. It provides educational 
opportunities and serves as a vehicle for networking, the exchange of 
information and advocacy on behalf of the association.
    My 45 years of experience in higher education includes completion 
of a bachelor's degree at La Salle University, one year as a walk on 
member of the baseball team, followed by three years on an athletic 
scholarship. Following graduation, I played two years of professional 
baseball in the Washington Senators organization and, following two 
broken ankles, I completed my master's degree at Niagara University, 
while serving as a resident assistant and volunteer baseball coach. I 
continued at Niagara as the head baseball coach for two years, followed 
by two years as the director of alumni.
    These experiences proved valuable to my subsequent 36 year career 
as a Division I Athletics director at La Salle (9), DePaul University 
(16) and Temple (11), retiring from this wonderful profession one year 
ago.
    During the five decades of my career, I have seen significant 
improvements in the commitment by universities to the academic, 
athletic and personal experiences of student-athletes. From state-of-
the-art academic support services, elite coaching and training, 
athletic facilities, to the much improved equipment, safety 
requirements, and emerging NCAA permissive benefits--our student-
athletes have never had it better. And yet, we know we can do better. 
We, as educators, are committed to maximizing and developing the 
enormous academic, athletic and personal potential that our talented 
student-athletes bring to our universities.
    In assessing the well-being of student-athletes, it's important to 
examine our universities performances and trends in the areas of 
academics, financial security, health/safety and life skills.
Academics
    Over the past 20 years graduation rates, by any metric, have 
drastically improved for student-athletes. In 2013, the Graduation 
Success Rate (GSR) measure for all student-athletes in Division I was 
82 percent, including 71 percent for DI FBS football participants, and 
73 percent for men's basketball student-athletes.
    Among the reasons for this dramatic and continued upward momentum 
are:

  <bullet> The NCAA has increased academic requirements for initial 
        eligibility and mandated progress toward a specific degree for 
        a student-athlete to maintain eligibility once enrolled.

  <bullet> The NCAA also initiated the Academic Progress Rate (APR) 
        metric, measuring progress of teams' academic performance each 
        semester, with penalties for those teams that do not meet a 
        minimum threshold.

  <bullet> Universities have responded vigorously to the new standards 
        by committing resources, additional hires, facilities and 
        summer school opportunities, to improve academic advising for 
        student-athletes.
Financial Security
    As we all know, the real costs to attend college have risen above 
inflation for years, causing many students to have massive debt upon 
graduation and proving too costly for others to even attend their 
college of choice. Currently, Division I student-athletes receive $2.1 
billion in athletic scholarships, and this total will only increase 
with anticipated permissive NCAA legislation covering real costs of 
education, together with annual increases in tuition, room/board, books 
and fees.

  <bullet> In addition to the real dollar value of an athletic 
        scholarship, and according to the U.S. Census data, a college 
        graduate, on average, earns $1 million more over a lifetime 
        than a non-graduate.

  <bullet> The universities ability to cover health insurance, and the 
        NCAA's catastrophic injury insurance program that picks up 
        medical costs above $90,000, provide full and unlimited 
        coverage for student-athletes.

  <bullet> Multi-year athletic grants now can provide security to 
        student-athletes as they complete their degree requirements at 
        the institutions they originally enrolled in.

  <bullet> Many student-athletes also take advantage of student 
        assistance funds, managed by the athletic conferences and 
        funded by the NCAA, which provides emergency and other 
        necessities to student-athletes with documented, miscellaneous 
        needs.
Health and Safety
    While universities strive to utilize best practices, hire certified 
trainers and strength and conditioning coaches, provide personnel 
certified in CPR and first aid at practices and contests, we can never 
do too much to insure the health and safety of our student-athletes.
    As we hire dieticians and nutritionists to help our student-
athletes with healthy choices, we are continuously challenged to find 
solutions to prevent drug and alcohol abuse by student-athletes. 
Comprehensive drug testing programs and policies are provided by the 
NCAA and each member institution. The prevention and detection of 
concussions, particularly in the sport of football, remain as one of 
the highest priorities for every athletic director at every level.
    At the same time, many of our athletic departments require student-
athletes to attend seminars which address issues of drugs and alcohol, 
assault, date rape and gambling.
Life Skills
    At the vast majority of Division I institutions, there are required 
life skills programs organized for student-athletes, many requested by 
the student-athletes themselves. These programs often utilize an 
outside expert, and include topics such as:

  <bullet> Career counseling

  <bullet> Etiquette training

  <bullet> Resume preparation/job interviews

  <bullet> Financial planning after graduation

    In addition, many of the student-athletes most meaningful and 
memorable experiences come from the myriad of community service 
projects available to each team during the academic year. And quite 
helpful to many of us are the individual questionnaires and exit 
interviews we conduct with our graduating seniors. Their candid 
evaluations of their student-athlete experience are invaluable toward 
best practices in the future.
    The vastly improved conditions afforded student-athletes have 
resulted in their unprecedented performances in the classroom, on the 
playing fields, and in preparation for life.
    Few other campus activities or clubs produce such natural diversity 
as intercollegiate athletics, bringing together young men and women 
from various races, religions, nations and beliefs, with the common 
denomination being their academic profiles and athletic skills.
    Less than 1 percent of Division I student-athletes will ever 
participate in professional sports, and that professional career, on 
average, lasts only a few years. This reality underscores the value of 
a college education, an education that many young men and women could 
not afford without an athletic scholarship.
    In our profession of intercollegiate athletics, the student-
athletes under our care are the center of our universe, and the most 
important people to consider in our decision making. If we always ask 
ourselves, before allocating resources, building facilities, or hiring 
coaches--is this decision in the best interest of our student-
athletes?--then I believe that answer has helped us to arrive at the 
right decision.
    Any of your questions are most welcome.
    Thanks again for inviting me to be with you this afternoon.

    The Chairman. Thank you very much, Mr. Bradshaw.
    Now Dr. Richard Southall, who is a professor at the 
University of South Carolina, the Director of the College 
Sports Research Institute.
    Welcome, sir.

             STATEMENT OF DR. RICHARD M. SOUTHALL,

            ASSOCIATE PROFESSOR, DEPARTMENT OF SPORT

           AND ENTERTAINMENT MANAGEMENT AND DIRECTOR,

 COLLEGE SPORT RESEARCH INSTITUTE, UNIVERSITY OF SOUTH CAROLINA

    Dr. Southall. Thank you.
    Chairman Rockefeller, Ranking Member Thune, and 
distinguished Committee Members, thank you for the opportunity 
to speak before you today. My initial draft of my comments was 
only 35 minutes. So thank you for giving me the advice.
    As Director of the College Sport Research Institute at the 
University of South Carolina, my comments today are not off-
the-cuff remarks, but informed by sociological, organizational 
and economic theories, as well as empirical studies, and drawn 
extensively from NCAA documents. They reflect not only my work, 
but also that of numerous colleagues and scholars.
    While I am well aware there are distinct socio-demographic 
differences within and between NCAA divisions, as well as 
between NCAA revenue and Olympic sports, my testimony today 
will focus on how, within big-time college sport, NCAA members 
have sought to protect their business interests at the expense 
of the well-being and academic success of NCAA profit-athletes.
    For several decades, the NCAA was aware that as the scale 
of both revenue, generation and spending continue to grow, 
there is a general sense that big-time athletics is in conflict 
with the principle of amateurism and that increased 
governmental and public scrutiny is likely if graduation rates 
do not improve in underperforming sports.
    Consequently, in 2003 the NCAA embarked on a two-phase 
organizational rebranding strategy that was part of an 
aggressive public and media relations agenda that addressed 
critics and provided an alternative to what the NCAA described 
as the doggerel of cynics.
    First, the NCAA created a term of art, The Collegiate Model 
of Athletics, as a better understood definition of amateurism 
that isolates the principle to the way in which college 
athletes are viewed without imposing its avocational nature on 
revenue-producing opportunities. Notably, Division I revenues 
have more than doubled since 2003.
    Tellingly, internal NCAA documents reveal protecting the 
collegiate model is nearly, by definition, the primary focus of 
the office of the NCAA president.
    Concurrently, in an effort to maintain the perception of a 
clear line of demarcation between college and professional 
sport, and offer support for the effectiveness of its new 
Academic Progress Program, the NCAA developed the Academic 
Progress Rate, or APR, and Graduation Success Rate, or GSR. 
Since 2003, the NCAA has consistently sought to utilize these 
rates as proof that big-time college sport has one clear focus: 
Education.
    However, several items are noteworthy. One, neither the 
Federal Graduation Rate, FGR, mandated by Congress, nor the 
NCAA's GSR, is perfect or inherently a more accurate metric. 
They utilize different sampling and statistical analyses to 
examine different cohorts. In short, they are different 
graduation rates.
    Two, the GSR consistently returns a rate 12 to 25 percent 
higher than the FGR. As far back as 1991, the NCAA knew that 
removing eligible dropouts, in other words transfers or 
athletes who leave school in good academic standing, from the 
GSR cohort would result in a markedly higher success rate.
    Three, since there is no comparable national-level GSR for 
the general student body to report GSR and FGR data 
simultaneously in press releases or data-set tables, invites 
inappropriate comparisons and fosters confusion among the 
general public.
    While the NCAA National Office has sought to protect its 
collegiate model, academic support staffs labor within a system 
that too often depends on an amorphous special-talented 
admission process, focuses on maintaining eligibility and 
results in athletes often clustering or being steered to majors 
conducive to their practice and competition; or, in other 
words, work schedules. Tellingly, several authorities within 
the NCAA and university governance structures recognize 
clustering and scheduling of easy courses as problems.
    In addition, contrary to the NCAA's public posturing that 
they are just normal students, profit-athletes tend, in 
important respects, to be physically, culturally and socially 
isolated from the campus community. They live in a tightly 
controlled parallel universe indicative of Goffman's total 
institutions.
    Through the steady drumbeat of sophisticated and subtle 
institutional propaganda, the NCAA has sought spontaneous 
consent to a mythology that big-time college sport a priori 
enhances the educational experience of ``student-athletes.''
    Propaganda is effective because it exploits people's 
reluctance to intellectually engage with any oppositional 
alternative views. Since 2003, while the NCAA has successfully 
embedded its Collegiate Model of Athletics including the 
Graduation Success Rate, into the public's consciousness, there 
has been little progress in ensuring profit-athletes have equal 
access to educational opportunities afforded other students.
    In conclusion, there is clear evidence the NCAA's 
Collegiate Model of Athletics not only systematically inhibits 
access to a world-class university education, but also exploits 
profit-athletes by denying them basic bargaining rights, due 
process and standard forms of compensation.
    I want to thank the Committee Members for the opportunity 
to visit with you today.
    [The prepared statement of Dr. Southall follows:]

    [In addition to the prepared statement that follows, Dr. Southall 
submitted three articles to the Committee:]

        Richard Southall and Ellen J. Staurowsky, ``Cheering on the 
        Collegiate Model: Creating, Disseminating, and Imbedding the 
        NCAA's Redefinition Amateurism,'' in Journal of Sport and 
        Social Issues, XX(X)1-27, 2013 Sage Publications. http://
        jss.sagepub.com/content/early/2013/08/21/0193723513498606

        Richard M. Southall and Jonathan D. Weiler, ``NCAA Division-I 
        Athletic Departments: 21st Century Athletic Company Towns,'' in 
        Journal of Issues in Intercollegiate Athletics, 2014, 7, 161-
        186, 2014 College Sport Research Institute. http://csri-
        jiia.org/documents/publications/research_articles/2014/JIIA
        _2014_7_08_161_186_21st%20Century.pdf

        Richard M. Southall, Mark S. Nagel, John M. Amis, and Crystal 
        Southall, ``A Method to March Madness? Institutional Logics and 
        the 2006 National Collegiate Athletic Association Division I 
        Men's Basketball Tournament,'' in Journal of Sport Management, 
        2008, 22, 677-700, 2008 Human Kinetics, Inc. http://
        www.academia.edu/740241/Southall_R._M._Nagel_M._S._Amis_J._and
        _Southall_C._2008_._A_method_to_March_Madness_Institutional_
        logics_and_the_2006_National_Collegiate_Athletic_Association_Div
        ision
        _I_men_s_basketball_tournament._Journal_of_Sport_Management_22
        _6_677-700
                                 ______
                                 
  Prepared Statement of Dr. Richard M. Southall, Associate Professor, 
    Department of Sport and Entertainment Management and Director, 
     College Sport Research Institute, University of South Carolina
Introduction
    Chairman Rockefeller, Ranking Member Thune, and distinguished 
committee members, thank you for the opportunity to share extended 
written remarks with the Committee. My remarks draw upon previously 
published peer-reviewed articles, and utilize well-established 
sociological, organizational, and economic theories, as well as 
empirical studies. In addition, I refer extensively to National 
Collegiate Athletic Association (NCAA) documents and the work of 
numerous colleagues who--over several decades--have researched college 
sport.
    Before I begin, I want to recognize two individuals whose work laid 
the groundwork for much of today's college-sport research: George Sage 
and Stanley Eitzen. In addition, throughout my academic career I have 
had the distinct honor of working with and learning from great 
colleagues, including: John Amis, Jamal Brooks, Brendan Dwyer, Woody 
Eckard, Gerry Gurney, Peter Han, Louis Harrison, Billy Hawkins, Ramogi 
Huma, Matthew Kelley, Che Mock, Leonard Moore, Mark Nagel, Evelyn 
Oregon, Michael Oriard, Kadie Otto, Amanda Paule-Kobe, Fritz Polite, 
Daniel Rascher, David Ridpath, Allen Sack, Gary Sailes, Linda Sharp, 
John Singer, Earl Smith, Crystal Southall, Deborah Southall, Ellen 
Staurowsky, Robert Turner, Pam Vaccaro, Sonny Vaccaro, Jonathan Weiler 
and Doug Wells.
    In addition, while I recognize there are distinct socio-demographic 
differences within and between NCAA divisions, as well as between NCAA 
revenue and Olympic sports, my extended written remarks focus on what 
is euphemistically called ``big-time'' college sport. Specifically, my 
remarks (and the attached peer-reviewed research articles) trace the 
manner in which NCAA D-I member universities and the NCAA national 
office have sought to protect their business interests at the expense 
of the well-being and academic success of NCAA profit-athletes.\1\
---------------------------------------------------------------------------
    \1\ Profit-athletes are NCAA college athletes whose estimated 
market value exceeds the value of NCAA-approved compensation (i.e., 
NCAA Bylaw 15.02.5 ``A full grant-in-aid is financial aid that consists 
of tuition and fees, room and board, and required course-related 
books.'').
---------------------------------------------------------------------------
Organizational Rebranding
    For several decades, the NCAA has been aware that ``[a]s the scale 
of both revenue generation and spending [continue to grow], there is a 
general sense that `big-time' athletics is in conflict with the 
principle of amateurism'' (NCAA, 2010a, para. 3) and that increased 
governmental and public scrutiny is likely ``. . . if graduation rates 
do not improve in underperforming sports'' (NCAA, 2010c, para. 4).
    Consequently, to deflect criticism of the business of big-time 
college sport, in 2003 the NCAA embarked on a two-part organizational 
rebranding strategy that was part of ``. . . an aggressive public and 
media relations agenda that addresses critics . . . [and] provide[s] an 
alternative to [what the NCAA describes as] the doggerel of cynics'' 
(NCAA, 2010c, para. 4).
    First, the NCAA created ``. . . a term of art [The Collegiate Model 
of Athletics] [as] . . . a better understood definition of amateurism 
that isolates the principle to the way in which [college] athletes are 
viewed without imposing its avocational nature on revenue-producing 
opportunities'' (NCAA, 2010a, para. 3; NCAA, 2010d, para. 1). NCAA 
documents reveal the NCAA national office staff believes ``[p]rotecting 
the collegiate model is nearly by definition the primary focus of the 
office of the NCAA president'' (NCAA, 2010c, para 3).
    Second, in an effort to maintain the perception of a clear line of 
demarcation between its collegiate model and professional sport, and 
offer support for the effectiveness of its new Academic Progress 
Program (APP), the NCAA developed two metrics: the Academic Progress 
Rate (APR) & Graduation Success Rate (GSR). Over the past decade the 
NCAA has consistently sought to position its GSR as the best or most 
accurate graduation rate and utilize GSR and APR scores as evidence 
big-time college sport has one clear focus--education.
    However, specific to this NCAA graduation-rate strategy several 
items are noteworthy:

  1.  Neither the Federal Graduation Rate (FGR), mandated by Congress, 
        nor the NCAA's GSR is perfect or inherently a more accurate 
        metric; they utilize different sampling and statistical 
        analyses to examine different cohorts. In short, they are 
        different graduation rates.

  2.  The GSR consistently returns a ``success'' rate 12-25 percent 
        higher than the FGR. As far back as 1991 (NCAA, 1991), the NCAA 
        knew that by removing \1/4\ to \1/3\ of what it referred to as 
        ``eligible dropouts'' from the sample would result in a 
        markedly higher ``success'' rate.

  3.  A comparison of published FGRs of NCAA athletes and the general 
        student population includes a significant number of part-time 
        students at many schools. This is problematic because NCAA 
        athletes must be ``full-time.'' Consequently, it makes sense to 
        compare full-time college athletes with other full-time 
        students. Without adjusting for the possible downward ``part-
        timer bias'' in the student-body rate, any comparison may be 
        distorted--or somewhat skewed. Because part-time students take 
        longer to graduate, reported general student-body FGRs may be 
        significantly reduced, making the relative rate of college 
        athletes at many schools and conferences appear more favorable.

  4.  Finally, since there is no comparable national-level GSR for the 
        general student body, GSR and FGR data should NOT be reported 
        simultaneously. To do so in press releases or dataset tables 
        invites inappropriate comparisons and fosters confusion.

    While the NCAA national office has sought to protect the 
organization's collegiate model by focusing on rebranding strategies, 
athletic department academic support staffs have been caught between a 
proverbial rock and a hard place. As advisors will candidly admit 
``off-the-record,'' the collegiate model depends on an amorphous 
``special-talent'' admissions process, and results in a focus on 
maintaining eligibility and athletes often clustering or ``being 
steered'' to majors conducive to their work (i.e., practice and 
competition) schedules (Gurney & Southall, 2012, 2013; Southall, 2012).
    Several ``authorities'' within NCAA and university governance 
structures have identified clustering and scheduling of easy courses as 
problems within college sport. The 2013 NCAA Faculty Athletics 
Representative (FAR) Study (pg. 26) reports that 66 percent of DI FAR's 
identified ``scheduling considerations'' and 59 percent identified 
``major provides an easy academic path'' as ``Reasons for Major 
Clustering.'' In addition, a 2012 report from the Association of 
Governing Boards of Universities and Colleges specifically noted that 
relative to intercollegiate athletics, governing boards have a 
responsibility to monitor clustering. These reports confirm that NCAA 
staff, faculty members, university administrators, and governing board 
trustees are all aware of clustering. While these issues may be 
publicly downplayed, or data aggregated to present a more palatable 
image of the collegiate model, disparities in graduation rates between 
profit-athletes and the general student body, as well as large-scale 
clustering of such athletes are examples of systemic impediments to 
profit-athletes' equal-educational access.
Total Institutions
    In addition, profit-athletes, tend--in important respects--to be 
physically, culturally, and socially isolated from the campus 
community. They live in what is, in many ways, a tightly controlled 
parallel universe indicative of Goffman's (1961) total institutions 
(Southall & Weiler, 2014).
    In practice, big-time college-sport programs fall somewhere on a 
spectrum between two extremes: educational utopia and exploitative 
sweatshop (Green, 2010). Intercollegiate athletics potentially provides 
a chance for athletes to obtain a college degree while competing in 
their chosen sport. However, profit-athletes who are disproportionately 
engulfed in their athletic role (Adler & Adler, 1991), foreclosing 
themselves from other identities (Oregon, 2010), often view college 
sport mostly as an opportunity to dramatically improve their families' 
socio-economic status (Makuhari Media Production, 2013). In order to 
realize this economic gain players often travel to out-of-state 
colleges and universities, and barter their athletic abilities in 
exchange for an athletic grant-in-aid (Hawkins, 2010). Similar to labor 
migrations in which rural Southern workers headed North for job 
opportunities, three Southern states (Texas [1], Florida [3], and 
Georgia [5]) are among the top five Football Bowl Subdivision (FBS) 
football-player producing states (Baker, 2010). In addition, when 
analyzed on a per-capita basis, six Southern states are among the 
country's top-ten (Louisiana [2], Florida [3], Alabama [4], Georgia 
[5], Texas [6], Mississippi [8]) (Baker, 2010). As a result, many 
profit-athletes' relationships with NCAA Division-I universities and 
colleges are akin to the existences of oscillating migrant laborers, 
who rotate between their residence and work locations (Hawkins, 2010; 
Southall & Weiler, 2014).
    Within this environment, the behavior of current NCAA D-I athletes' 
(especially profit-athletes) is monitored and scrutinized by athletic 
department staff and coaches much more so than that of regular 
students. For example, athletes' use of social media, a right every 
other student possesses, is closely tracked and restricted. In an NCAA 
news release Hosick (2013) noted, ``Many member institutions feel 
pressure to monitor their student-athletes' online activity to 
demonstrate effective oversight that will stand up to scrutiny if ever 
faced with allegations of significant violations of NCAA rules'' (para. 
2). While the methods of monitoring differ, most compliance directors 
agree that significant monitoring and regulation of content posted is 
justified. As one Associate Athletic Director for [NCAA] Compliance 
said, ``We do monitor it, and we tell them we're doing it. . . . We're 
not going to bury our heads in the sand'' (Hosick, 2013, para. 18).
    In addition to monitoring and regulating athletes' social media 
activities, some athletic departments specifically track their profit-
athletes' spending habits. In the fall of 2012 The Ohio State 
University (OSU) began such targeted scrutiny (Bishop, 2012). Ohio 
State justified the practice as a reasonable response to a recent 
scandal in which football players exchanged memorabilia for free 
tattoos, a violation of NCAA rules against impermissible benefits to 
athletes (Bishop, 2012). OSU's athletic director, Gene Smith, called 
this surveillance tactic a ``common sense'' policy, since there are so 
many different ways to run afoul of NCAA rules (Bishop, 2012).
    Consistent with a post-racial perspective,\2\ Smith said such 
scrutiny was simply ``educational,'' since many profit-athletes come 
from poor backgrounds (where they had never before, for example, opened 
a checking account) (Bishop, 2012). Consistent with Goffman's (1961) 
total institutions and similar to the culture of Southern textile 
towns, big-time intercollegiate athletic administrators see nothing 
abnormal about exerting extreme paternalistic claims on the lives of 
profit-athletes that echo the social experience of migrant company-town 
workers.
---------------------------------------------------------------------------
    \2\ Data from the 2009-2010 NCAA Student-Athlete Race/Ethnicity 
Report (NCAA, 2010c), Integrated Postsecondary Education Data System 
(IPEDS), and School District Demographics System (SDDS) provide 
evidence the majority of NCAA FBS football and men's basketball players 
(including those with the greatest market value) are African-American 
males, who come disproportionately from lower-to-middle class socio-
economic backgrounds (National Center for Education Statistics, n.d.).
---------------------------------------------------------------------------
    While in fundamental ways the life of a football player at the 
University of Alabama-Tuscaloosa in 2013 is not equivalent to the 
actual conditions of life on a plantation, nor as perilous as being a 
West Virginia coal miner, it should be noted college football players 
(by far the most lucrative college sport) do face endemic health 
problems. According to Hootman, Dick, and Agel (2007), college football 
players have the highest injury rates for both practices (9.6 injuries 
per 1,000 A-Es) and games (35.9 injuries per 1,000 A-Es) among all 
college athletes. In recent years research on head trauma and its 
potential long-term negative health effects has cast a pall over the 
sport.
    Similar to subsurface coal mining, which frequently led to ``black 
lung'' disease among miners, and ``brown lung'' disease that afflicted 
textile workers, college football (college sport's main economic 
engine) is increasingly seen as a dangerous ``occupation,'' with 
``recent published reports of neuropathologically confirmed chronic 
traumatic encephalopathy (CTE) \3\ in retired professional football 
players and other athletes who have a history of repetitive brain 
trauma'' (Center for the Study of Traumatic Encephalopathy [CSTE], 
n.d., para. 1).
---------------------------------------------------------------------------
    \3\ According to the Center for the Study of Traumatic 
Encephalopathy (CSTE), an independent academic research center located 
at Boston University School of Medicine, CTE ``. . . is progressive 
degenerative disease of the brain found in athletes (and others) with a 
history of repetitive brain trauma, including symptomatic concussions 
as well as asymptomatic subconcussive hits to the head'' (CSTE, n.d.).
---------------------------------------------------------------------------
    As a result, while the extensive health services provided to FBS 
football players may initially appear to be generous and altruistic, 
they can also be viewed as capital expenditures to protect 
universities' investments in the labor-force that drives the collegiate 
model (Huma & Staurowsky, 2012). If an important profit-athlete is 
injured and unable to compete, his athletic value to the athletic 
department is significantly diminished. Therefore, it is in an athletic 
department's best interest to insure revenue-generating profit-athletes 
can be rehabilitated and return to competition as soon as possible.
Protecting the Collegiate Model
    Through sophisticated and subtle sociological propaganda (Jowett & 
O'Donnell, 1992; Southall & Staurowsky, 2013) the NCAA national office 
has achieved spontaneous consent to its collegiate model. For some, 
NCAA hegemony is complete (i.e., coaches, conference commissioners, and 
administrators, corporate partners), while others exist in a state of 
``moral and political passivity'' (Gramsci, 1971, p. 333). Some (i.e., 
presidents, FAR's, and many loss-athletes \4\) view profit-athletes as 
valued entertainment commodities. Almost all, however, consistently 
proclaim the educational mission of college sport while protecting the 
collegiate Model of Athletics--a massive revenue-producing enterprise. 
To protect this model, it is crucial that college-sport stakeholders 
convince the general public that revenue-generating athletes are 
something other than ordinary employees entitled to standard forms of 
compensation.
---------------------------------------------------------------------------
    \4\ In the current NCAA D-I Collegiate Model of Athletics, almost 
all ``Olympic sport'' college athletes are ``loss-athletes''--athletes 
whose market value is less than the value of NCAA-approved 
compensation. In addition, not all ``revenue-sport athletes'' are 
necessarily profit-athletes, since reserve or ``bench'' players may 
have a diminished market value.
---------------------------------------------------------------------------
    As Kuhn (1991) noted, propaganda is effective because it exploits 
people's reluctance to intellectually engage with any oppositional or 
alternative views. Since 2003, while the NCAA has successfully imbedded 
its Collegiate Model of Athletics into the public's consciousness, 
there has been little progress in ensuring profit athletes have equal 
access to educational opportunities afforded other students. Consistent 
with Black's (2001) analysis, the national office's propaganda has 
imperceptibly influenced marginalized NCAA institutional actors to 
adopt a mental and emotional state that fluctuates between resistance 
and conformity, disagreement and apathy. In addition, by positioning 
the NCAA president as a philosopher king, who speaks with almost 
unquestioned moral authority, the national office maintains a semblance 
of order, continuity and stability within college sport.
    The NCAA's consistent warning that college sport ``as we know it'' 
is under attack and that it must not ``. . . be allowed to be drawn to 
the professional model like a moth drawn to a flame'' (Brand, 2004, p. 
7) is predicated on the axiom that allowing athletes independent 
representation or access to the college-sport market would unhinge 
college sport's ties to alumni and fans, and result in college sport's 
destruction. This assertion is not supported by empirical evidence. No 
publicly available research supports the notion that if profit-athletes 
participated in the multi-billion dollar college-sport enterprise, 
consumers would be so outraged they would cease attending games.
    Interestingly, the term ``collegiate-model'' was unveiled while the 
NCAA was engaged in ongoing conversations with a primary media partner 
(ESPN) about a new venture that would deliver college-sport content to 
viewers seven days a week, 24 hours a day. In September of 2004, ESPNU 
executive John Wildhack said the new cable channel (ESPNU) would give 
``. . . college-sports fans more of what they want. There is not a 
better opportunity for ESPN than this network, considering the roots of 
our company that go back to college basketball and football and our 
relationship with the NCAA'' (Reynolds, 2004, para. 16). This 
additional distribution channel was launched during the height of March 
Madness 2005. Ironically, one of ESPNU's first broadcasts--under the 
umbrella of ESPN's Emmy-award winning enterprise journalism franchise--
Outside the Lines--was the ``ESPNU Town Hall: Should College Athletes 
Be Paid?'' Paradoxically, the NCAA's hegemony was so complete it could 
even generate revenue off discussions about issues plaguing college 
sports resulting from its collaboration with media partners.
    While systematic and sustained propaganda need not be detrimental 
to society, its use to silence open critical discourse is problematic, 
especially when applied in educational settings. Cautioning that 
propaganda had the potential to discourage open-mindedness, a condition 
antithetical to education, Martin (1929) wrote, ``Education aims at 
independence of judgment. Propaganda offers ready-made opinions for the 
unthinking herd'' (as quoted in Black, 2001, p. 122). Herman and 
Chomsky (2002) likened the use of propaganda in a democracy to that of 
violence in a dictatorship, where mechanisms for dissent are 
effectively stifled either through benign messaging or outright force.
    The NCAA national office's calculated efforts to obtain consent to 
``. . . a better understood definition of amateurism that isolates the 
principle to the way in which student-athletes are viewed without 
imposing its avocational nature on revenue-producing opportunities'' 
(NCAA, 2010a, para. 3) through consistent messaging and subtle 
persuasion--rather than member engagement--reveals the extent to which 
an effective sociological propaganda campaign can shape public 
discourse.
    This strategy is consistent with the NCAA's federated governance 
structure, which isolates decision-making among a small group of major 
conferences, and results in acquiescence from the vast majority of the 
``association'' and ``membership'' (Staurowsky, 2004). While State of 
the Association addresses serve as blueprints for where the NCAA is 
headed, the vast majority of individuals working in college sport 
rarely read them, and only a few institutional decision makers actually 
hear the addresses. The subtle nuances in language and preferred 
terminology encoded in these speeches have been represented and 
retransmitted through NCAA communiques that invite agreement rather 
than critical consideration. As a consequence, many groups acquiesce to 
a Collegiate Model of which they have little, if any, working 
knowledge. Some within the intercollegiate athletic community genuinely 
do not apprehend what is at stake in embracing a model that codifies 
the monetization and revenue maximization of the college-sport 
enterprise at every level, something once reserved only for Division I.
    As a result, within today's college-sport landscape there are many 
who fail to comprehend the NCAA's institutional hegemony, others who 
unquestionably view their mission as maintaining and reinforcing a 
status quo that conforms to taken-for-granted institutional facts, and 
a dominant group that actively creates and wields the Collegiate Model 
as a linguistic and philosophical ``armor of coercion'' (Adamson, 1980) 
to deliberately form, control, and alter attitudes.
Conclusion
    Within this discursive setting, college athletes' choices are 
limited (Huma & Staurowsky, 2011). Not only do they often find it 
difficult, if not impossible, to conceptualize an alternative college-
sport institutional logic (Southall, Nagel, Amis, & Southall, 2008), 
but since the collegiate model marks the boundaries of any discourse (a 
discourse college athletes inherit but effectively play no role in 
shaping) it is necessarily difficult or sometimes impossible for 
college athletes to determine the source of their alienation within the 
collegiate model, let alone conceptualize ways to remedy their 
situation. In addition, for marginalized college athletes, who--most 
notably--in NCAA Division-I have ``no voice and no vote'' the threat of 
officially sanctioned force (in the form of a loss in eligibility) 
remains an implicit control mechanism. As a result, college athletes--
especially those revenue-sport athletes who migrate to Predominately 
White Institutions (PWIs) \5\ from geographically and culturally 
distant settings (Hawkins, 2010; Hawkins & Southall, 2012)--adopt a 
mental and emotional state that fluctuates between resistance and 
conformity, disagreement and apathy.
---------------------------------------------------------------------------
    \5\ The term Predominately White Institutions (PWIs) (Hawkins, 
2010) refers to the set of U.S. universities that are NCAA Division-I 
members competing in NCAA FBS football and/or NCAA D-I men's 
basketball.
---------------------------------------------------------------------------
    Nowhere is the NCAA national office's overriding imposition of its 
authority and jurisdiction over subordinates (specifically athletes), 
more clearly evidenced than in its manipulation of ``consent'' through 
the use of ``eligibility'' documents (i.e., Form 12-3a--Student-Athlete 
Statement--NCAA Division I) to obtain the right to monetize  (e.g., 
generate billions of dollars in revenue) profit-athletes' names, images 
and likenesses (NILs) (Follman, 2014; Schroeder, 2014). A recent 
lawsuit (O'Bannon v. NCAA)--with its discovery, testimonies, and 
depositions--offered a glimpse of the NCAA's faux commitment to 
amateurism.
    The NCAA has manufactured consent to the economic interests of its 
Collegiate Model of Athletics through simultaneously threatening 
athletes with loss of eligibility and fostering uniform agreement among 
member institutions and representative leadership who consent to these 
practices with little opposition (Hinnen, 2013; Singer, 2013).
    Achieving spontaneous consent among NCAA members allows for the 
proliferation of profit-seeking tendencies to move forward with little 
actual resistance. In concert with the national office, the NCAA' most 
powerful football playing institutions have carved out a new playoff 
system under the name of the College Football Playoff that is expected 
to yield a $500 million return on four end of season games leading to a 
``national'' champion (Schroeder, 2012). The NCAA national office, in 
turn, realizes nearly $800 million per year as a result of its 
multibillion-dollar contract promoting March Madness and men's 
basketball
    Through the ``steady drumbeat'' (NCAA, 2010d, para. 3) of 
sophisticated and subtle sociological propaganda techniques (Jowett & 
O'Donnell, 1992; Southall & Staurowsky, 2013), the NCAA has sought 
spontaneous consent to the NCAA mythology that big-time college sport 
is a moral endeavor that enhances ``. . . the educational experience of 
[quote-unquote] student-athletes'' (Renfro, 2012, p. 33).
    However, there is clear evidence the NCAA's Division I Collegiate 
Model of Athletics systematically exploits profit-athletes' by denying 
them access to the college-sport enterprise, due process, basic 
bargaining rights, standard forms of compensation, as well as equal 
access to a world-class university education.
References
    Adamson, W. L. (1980). Hegemony and revolution: A study of Antonio 
Gramsci's political and cultural theory. Berkeley: University of 
California Press.

    Adler, P. A., & Adler, P. (1991). Backboards and blackboards: 
College athletes and role engulfment. New York: Columbia University 
Press.

    Association of Governing Boards of Universities and Colleges. 
(2012). Trust, accountability, and integrity: Board responsibilities 
for intercollegiate athletics. Washington, D.C.: Author.

    Baker, M. (2010, January 28). Star search: Why the South is king. 
Tulsa World. Retrieved from http://www.tulsaworld.com/archives/star-
search-why-the-south-is-king/article_ac634bf7-f107-578a-93ca-
24acb1e075da.html

    Bishop, G. (2012, December 17). Ohio State's monitoring of 
athletes' expenditures raises concerns. The New York Times. Retrieved 
from http://www.nytimes.com/2012/12/18/sports/ncaafootball/ohio-states-
monitoring-of-athletes-spending-raises-privacy-
concerns.html?_r=0&gwh=2BFB5E07FA943C301760385202357E37

    Black, J. (2001). Semantics and ethics of propaganda. Journal of 
Mass Media Ethics: Exploring Questions of Media Morality, 16, 121-137.

    Brand, M. (2004, January 19). Brand address: Fortify bond between 
academics, athletics. NCAA News. Retrieved from http://fs.ncaa.org/
Docs/NCAANewsArchive/
2004/Associationwide/
brand%2baddress%2b%bfortify%2bbond%2bbetween%2bacade
mics%2bathletics%2b-%2b1-19-04.html

    Center for the Study of Traumatic Encephalopathy. (n.d.). What is 
CTE? Retrieved from http://www.bu.edu/cste/about/what-is-cte/

    Follman, J. (2014, April 18). It's time for the NCAA to let 
athletes monetize their image. SB Nation. Retrieved from http://
www.pacifictakes.com/2014/4/18/5626238/its-time-for-the-ncaa-to-let-
athletes-monetize-their-image

    Goffman, E. (1961). Asylums. Doubleday.

    Gramsci, A. (1971). Selections from the prison notebooks (Q. Hoare 
& G. N. Smith, Eds.). New York, NY: International Publishers.

    Gurney, G. S., & Southall, R. M. (2012, August 9). College sport's 
bait and witch. ESPN College Sports. Available at http://espn.go.com/
college-sports/story/_/id/8248046/college-sports-programs-find-
multitude-ways-game-ncaa-apr

    Gurney, G., & Southall, R. M. (2013, February 14). NCAA reform gone 
wrong. insidehighered.com. Available at http://www.insidehighered.com/
views/2013/02/14/ncaa-academic-reform-has-hurt-higher-eds-integrity-
essay

    Hawkins, B. J. (2010). The new plantation: black athletes, college 
sports, and predominantly white NCAA institutions. New York: Palgrave 
Macmillan.

    Hawkins, B. & Southall, R. M. (2012, November). The plantation, 
oscillating migrant labor camp, brothel, or company town? An 
examination of the efficacy of big-time college sport exploitation. 
Paper presented at the thirty-third annual North American Society for 
the Sociology of Sport conference, New Orleans, LA. Retrieved from 
http://www.nasss.org/wp-content/uploads/2012/11/2012-NASSS-Final-
program-and-abstracts.pdf

    Herman, E., & Chomsky, N. (2002). Manufacturing consent. The 
political economy of the mass media. New York, NY: Pantheon.

    Hinnen, J. (2013, April 26). E-mails released in O'Bannon suit show 
``real concern'' at NCAA. CBS College Sports. Retrieved from http://
www.cbssports.com/college
football/blog/eyeon-college-football/22144772/e-mails-released-in-
obannon-suit-show
-real-concern-atncaa

    Hockensmith, D. (2014, April 21). NCAA president Mark Emmert makes 
little progress in the case against paying college athletes: watch 
video. Retrieved from http://www.pennlive.com/sports/index.ssf/2014/04/
ncaa_president_mark_emme
rt_mak.html

    Hootman, J. M., Dick, R., & Agel, J. (2007). Epidemiology of 
collegiate injuries for 15 sports: Summary and recommendations for 
injury prevention initiatives. Journal of Athletic Training, 42(2), 
311.

    Hosick, M. B. (2013, February). Social networks pose monitoring 
challenges for NCAA schools. Resources: Latest News, NCAA.org. 
Retrieved from http://www
.ncaa.org/wps/wcm/connect/public/NCAA/Resources/Latest+News/2013/
February
/social+networks+pose+monitoring+challenge+for+ncaa+schools

    Huma, R., & Staurowsky, E. J. (2012). The $6 billion heist: Robbing 
college athletes under the guise of amateurism. A report 
collaboratively produced by the National College Players Association 
and Drexel University Sport Management. Available online at http://
www.ncpanow.org

    Jowett, G. S. & O'Donnell, V. (1992). Propaganda and persuasion 
(2nd ed.). Newbury Park, CA: Sage.

    Kuhn, D. (1991). The skills of argument. Cambridge, UK: Cambridge 
University Press.

    Makuhari Media Production (Producer). (2013). Schooled: The price 
of college sport. (DVD). Available from https://itunes.apple.com/movie/
schooled-price-college-sports/id733105020?v0=9988&ign-mpt=uo%3D1

    Martin, E. D. (1929). Our invisible masters. Forum, 81, 142-145.

    Miranda, M. A., & Paskus, T. S. (2013, February). Roles, 
responsibilities and perspectives of NCAA faculty athletics 
representatives. Indianapolis, IN. Retrieved from National Collegiate 
Athletics Association website: http://www.ncaa.org/wps/wcm/connect/
public/ncaa/pdfs/2013/far+survey

    National Collegiate Athletic Association. (1991, June). NCAA 
academic performance study: Report 91-01--A description of college 
graduation rates for 1984 and 1985 freshman student-athletes. Overland 
Park, KS: Author.

    National Collegiate Athletic Association. (2010a). Amateurism. NCAA 
president's briefing documents. \6\ Indianapolis, IN: Author. Retrieved 
from http://fs.ncaa.org/Docs/newmedia/2010/Emmert/Part5/amateurism.html
---------------------------------------------------------------------------
    \6\ After a link to the NCAA's President's Briefing Documents was 
published March 30, 2012 in The New York Times (Nocera, 2012), the NCAA 
deactivated all associated URLs. Currently, a ``404 Not Found'' message 
appears. The NCAA does not deny the existence of the documents.

    National Collegiate Athletic Association. (2010b). Branding and 
communications major NCAA challenges from group perspective. NCAA 
president briefing documents. Indianapolis, IN: Author. Retrieved from 
---------------------------------------------------------------------------
http://fs.ncaa.org/Docs/newmedia/2010/Emmert/Part3/BC/BC1.html

    National Collegiate Athletic Association. (2010c). Major NCAA 
challenges from group perspective. NCAA president briefing documents. 
Indianapolis, IN: Author. Retrieved from http://fs.ncaa.org/Docs/
newmedia/2010/Emmert/Part3/AMA/ama5
.html

    National Collegiate Athletic Association. (2010d). Protecting the 
collegiate model. NCAA president briefing documents. Indianapolis, IN: 
Author. Retrieved from http://fs.ncaa.org/Docs/newmedia/2010/Emmert/
Part5/protecting.html

    National Collegiate Athletic Association. (2014, May 14). Academic 
Progress Rate Q&A. Retrieved from http://www.ncaa.org/about/resources/
media-center/news/academic-progress-rate-qa

    National Collegiate Athletic Association. (n.d.). Graduation 
success rate. Retrieved from http://www.ncaa.org/about/resources/
research/graduation-success-rate

    Nocera, J. (2012, March 30). Orwell and March Madness. The New York 
Times. Retrieved from http://www.nytimes.com/2012/03/31/opinion/nocera-
orwell-and-march-madness.html

    Oregon, E. M. (2010). An examination of athletic identity and 
identity foreclosure among male collegiate student-athletes (Master's 
thesis, The University of North Carolina At Chapel Hill).

    Renfro, W. (2012, September 6). Amateurism, professionalism, 
commercial activity and intercollegiate athletics: Ambivalence about 
principles. Proceedings of the Santa Clara Sports Law Symposium, Santa 
Clara, CA (pp. 32-45).

    Reynolds, M. (2004, September 7). ESPN to launch ESPNU, ESPN2 HD. 
Multichannel News. Retrieved from http://www.multichannel.com/content/
espn-launch-espnu-espn2-hd

    Schroeder, G. (2012, December 11). College football playoff revenue 
distribution set. USA Today Sports. Retrieved from http://
www.usatoday.com/story/sports/ncaaf/bowls/2012/12/11/college-football-
bcs-playoff-revenue-money-distribution-pay
outs/1762709/

    Schroeder, G. (2014, June 20). O'Bannon trial: In defending NCAA, 
Jim Delany also helps plaintiffs. USA Today Sports. Retrieved from 
http://www.usatoday.com/story/sports/college/2014/06/20/ed-obannon-vs-
ncaa-antitrust-lawsuit-day-10-mark
-emmert-jim-delany/11063831/

    Singer, M. (2013, May 23). Report: EA Sports used Tim Tebow's name 
in 2010 video game. CBS Sports. Retrieved from http://
www.cbssports.com/general/blog/eye-on-sports/22290630/report-ea-sports-
used-tim-tebows-name-in-2010-video-game

    Southall, R. M. (2012, November). Taking the measure of graduation 
rates in big-time college sport. Phi Kappa Phi Forum, 92(3).

    Southall, R. M., & Staurowsky, E. J. (2013). Cheering on the 
collegiate model: Creating, disseminating, and imbedding the NCAA's 
redefinition of amateurism. Journal of Sport and Social Issues, 37(4), 
403-429.

    Southall, R. M., & Weiler, J. D. (2014). NCAA D-I athletic 
departments: 21st century company towns. Journal of Issues in 
Intercollegiate Athletics, 7, 161-186.

    Staurowsky, E. J. (2004). Piercing the veil of amateurism: 
Commercialisation, corruption, and U.S. college sport. In T. Slack 
(Ed.), The commercialisation of sport (pp. 143-163). New York, NY: 
Routledge.
Annotated Bibliography
    This bibliography provides additional material (much of it peer-
reviewed) that will be useful in examining college athletes' well being 
and academic success. Where available, hyperlinks to Internet locations 
of documents have been provided.
NCAA Support of Independent College Sport Research

  <bullet> The Lost NCAA Conference http://sports-law.blogspot.com/
        2007/04/lost-ncaa-conference.html

  <bullet> Scholarly Colloquium attracts research focus http://
        fs.ncaa.org/Docs/NCAA
        NewArchive/2007/Association-wide/
        scholarly+colloquium+attracts+research+fo
        cus+-+10-08-07+-+ncaa+news.html

  <bullet> NCAA's Tolerance for Dissenting Views at Its Academic Forum 
        Appears in Doubt http://onnidan1.com/forum/
        index.php?topic=70639.0;wap2

  <bullet> NCAA Withdraws Financial Support for Its Scholarly 
        Colloquium http://chronicle.com/blogs/players/ncaa-withdraws-
        financial-support-for-its-scholarly-colloq
        uium/32309

  <bullet> Lack of Support for Scholarly Colloquium a loss for NCAA 
        http://comm
        .psu.edu/news/article/lack-of-support-for-scholarly-colloquium-
        a-loss-for-ncaa
Clustering in College Sport

  <bullet> Benson, K. F. (2000, Mar.-Apr.). Constructing academic 
        inadequacy: African American athletes' stories of schooling. 
        The Journal of Higher Education: Special Issue: The Shape of 
        Diversity, 71(2), 223-246. Retrieved from http://www.jstor.org/
        stable/2649249 

  <bullet> Calhoun, V. A. (2012). Division I student athletes and the 
        experience of academic clustering. Education Doctoral Theses. 
        Paper 37. Retrieved from http://hdl.handle.net/2047/d20002761

  <bullet> Dent, M., Sanserino, M., & Werner, S. (2014, June 1). Do 
        colleges drop the ball with student-athletes? Academicians 
        worry that they are steered toward less-rigorous majors. 
        Pittsburgh Post-Gazette retrieved from http://www.post-ga
        zette.com/sports/college/2014/06/01/Do-colleges-drop-the-ball-
        with-student-ath
        letes/stories/201406010120

  <bullet> Fountain, J. J., & Finley, P. S. (2009). Academic majors of 
        upperclassmen football players in the Atlantic Coast 
        Conference: An analysis of academic clustering comparing white 
        and minority players. Journal of Issues in Intercollegiate 
        Athletics, 2(1), 1-13. Retrieved from http://www.csri-jiia.org/
        documents/
        publications/research_articles/2009/
        JIIA_2009_1_Fountain_Publish%20
        Copy_1.0.pdf 

  <bullet> Fountain, J. J., & Finley, P. S. (2011). Academic 
        clustering: A longitudinal analysis of a Division I football 
        program. Journal of Issues in Intercollegiate Athletics, 4, 24-
        41. Retrieved from http://csri-jiia.org/documents/puclications/
        research_articles/2011/
        JIIA_2011_4_2_24_41_Academic_Clustering.pdf 

  <bullet> McCormick, R. A., & McCormick, A. C. (2006). Myth of the 
        student-athlete: The college athlete as employee. Wash. L. 
        Rev., 81, 71. Retrieved from http://digitalcommons.law.msu.eduh

  <bullet> Otto, K. (2012). Demonstrating the importance of accuracy in 
        reporting results of academic clustering. Journal for the Study 
        of Sports and Athletes in Education, 6(3), 293-310.

  <bullet> Paule-Koba, A. (in press). Gaining equality in all the wrong 
        areas: An analysis of academic clustering in women's NCAA 
        Division I basketball.

  <bullet> Sanders, J. P., & Hildenbrand, K. (2010). Major concerns? A 
        longitudinal analysis of student-athletes' academic majors in 
        comparative perspective. Journal of Intercollegiate Sport, 
        3(2).

  <bullet> Steeg, J., Upton, J., Bohn, P., & Berkowitz, S. (2008). 
        College athletes' studies guided toward `major in eligibility'. 
        USA Today, 19. Retrieved from http://
        www.trainingcampforlife.com/nashville/pdfs/
        usa_article_ineligibility.pdf
Graduation Rates

  <bullet> Beamon, K. K. (2008). '' Used Goods'': Former African 
        American College Student-Athletes' Perception of Exploitation 
        by Division I Universities. The Journal of Negro Education, 
        352-364. Retrieved from http://www.jstor.org/discover/
        10.2307/
        25608704?uid=3739776&uid=2&uid=4&uid=3739256&sid=2110392627
        5891

  <bullet> Eckard, E. W. (2010). NCAA athlete graduation rates: Less 
        than meets the eye. Journal of Sport Management, 24(1), 45-58.

  <bullet> Ferris, E., Finster, M., & McDonald, D. (2004). Academic fit 
        of student-athletes: An analysis of NCAA division IA graduation 
        rates. Research in Higher Education, 45(6), 555-575. Retrieved 
        from http://link.springer.com/article/10.1023
        /B:RIHE.0000040263.39209.84

  <bullet> LaForge, L., & Hodge, J. (2011). NCAA academic performance 
        metrics: Implications for institutional policy and practice. 
        The Journal of Higher Education, 82(2), 217-235. Retrieved from 
        http://muse.jhu.edu/login?auth=0&type=sum
        mary&url=/journals/journal_of_higher_education/v082/
        82.2.laforge.html

  <bullet> Le Crom, C. L., Warren, B. J., Clark, H. T., Marolla, J., & 
        Gerber, P. (2009). Factors contributing to student-athlete 
        retention. Journal of issues in Intercollegiate Athletics, 
        2(1), 14-24. Retrieved from http://csri-jiia.org/documents/
        puclications/research_articles/2009/
        JIIA_2009_2_Crom_Publish%20Copy
        _1.0.pdf

  <bullet> Rishe, P. J. (2003). A reexamination of how athletic success 
        impacts graduation rates: Comparing student-athletes to all 
        other undergraduates. American Journal of Economics and 
        Sociology, 62(2), 407-427.

  <bullet> Southall, R. M. (2012). Taking the measure of graduation 
        rates in big-time college sports. In Phi Kappa Phi Forum, 
        92(3), pp. 18-20.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., & Randall, M. 
        H. (2014). Athletic success and NCAA profit-athletes' adjusted 
        graduation gaps. Manuscript submitted for publication.
Adjusted Graduation Gap (AGG) Research Reports--Available from http://
        csri-sc.org/research/

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S. (2014, May 13). 
        2014 adjusted graduation gap report: NCAA D-I baseball and 
        softball. College Sport Research Institute (CSRI). Columbia, 
        SC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., Keith, E., & 
        Blake, C. (2014, March 12). 2013-14 adjusted graduation gap 
        report: NCAA Division-I basketball. College Sport Research 
        Institute (CSRI). Columbia, SC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., Blake, C. & 
        Keith, E. (2013, September 25). 2013 adjusted graduation gap 
        report: NCAA Division-I football. College Sport Research 
        Institute (CSRI). Columbia, SC.

  <bullet> Southall, R. M., Nagel, M. S., Exton, C. S., Eckard, E. W., 
        & Blake, C. (2013, April 17). 2013 adjusted graduation gap: 
        NCAA Division-I baseball and softball. College Sport Research 
        Institute (CSRI). Chapel Hill, NC.

  <bullet> Southall, R. M., Nagel, M. S., Exton, C. S., Eckard, E. W., 
        & Blake, C. (2013, January 10). Adjusted graduation gap: NCAA 
        Division-I men's and women's basketball. College Sport Research 
        Institute (CSRI). Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., & Hale, J. M. 
        (2012, September 25). 2012 adjusted graduation gap report: NCAA 
        Division-I football. College Sport Research Institute (CSRI). 
        Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S. (2012, April 
        19). 2012 adjusted graduation gap report: NCAA Division-I 
        baseball and softball. College Sport Research Institute (CSRI). 
        Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., & Huffman, L. 
        (2011, December 7). Adjusted graduation gap: NCAA Division-I 
        men's and women's basketball. College Sport Research Institute 
        (CSRI). Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., & Huffman, L. 
        (2011, September 1). 2011 adjusted graduation gap report: NCAA 
        Division-I football. College Sport Research Institute (CSRI). 
        Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S. (2011, April 
        18). Adjusted graduation gap: NCAA Division-I baseball and 
        softball. College Sport Research Institute (CSRI). College 
        Sport Research Institute (CSRI). Chapel Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S. (2010, November 
        16). Adjusted graduation gap: NCAA Division-I men's and women's 
        basketball. College Sport Research Institute (CSRI). Chapel 
        Hill, NC.

  <bullet> Southall, R. M., Eckard, E. W., Nagel, M. S., Lewinter, G., 
        & Tomalski, J. (2010, August 26). Adjusted graduation gap: NCAA 
        D-I football. College Sport Research Institute (CSRI). Chapel 
        Hill, NC.
Graduation Success Rate (GSR)

  <bullet> National Collegiate Athletic Association. (n.d.). What is 
        the Graduation Success Rate? Indianapolis, IN: Author. 
        Retrieved from http://grfx.cstv.com/photos/schools/sdsu/genrel/
        auto_pdf/what-is-grad-success-rate.pdf

  <bullet> National Collegiate Athletic Association. (2013, October). 
        Trends in Graduation Success Rates and Federal Graduation Rates 
        at NCAA Division I Institutions. Indianapolis, IN: Author. 
        Retrieved from http://www.ncaa.org/sites/default/files/
        GSR%2Band%2BFed%2BTrends%2B2013_Final_0.pdf
Big-time College Sport

  <bullet> Hawkins, B. J. (2010). The new plantation: black athletes, 
        college sports, and predominantly white NCAA institutions. New 
        York: Palgrave Macmillan.

  <bullet> Southall, R. M., & Weiler, J. D. (2014). NCAA D-I athletic 
        departments: 21st century company towns. Journal of Issues in 
        Intercollegiate Athletics, 7, 161-186.

  <bullet> Southall, R. M., & Staurowsky, E. J. (2013). Cheering on the 
        collegiate model: Creating, disseminating, and imbedding the 
        NCAA's redefinition of amateurism. Journal of Sport and Social 
        Issues, 37(4), 403-429.

  <bullet> Southall, R. M., Hancock, K. L., Cooper, C. G., & Nagel, M. 
        S. (2012). College World Series broadcasts: ``They are what 
        they are.'' Journal of Sports Media, 7(2), 41-60.

  <bullet> Southall, R. M., & Nagel, M. S. (2011). NCAA v. The 
        Associated Press: Open records ruling may impact future 
        athletic department activities. Sport Marketing Quarterly, 
        20(3), 112-114.

  <bullet> Southall, R. M., Southall, C., & Dwyer, B. (2009). 2009 Bowl 
        Championship Series telecasts: Expressions of big-time college-
        sport's commercial institutional logic. Journal of Issues in 
        Intercollegiate Athletics, 2, 150-176.

  <bullet> Southall, R. M., Nagel, M. S., Amis, J., & Southall, C. 
        (2008). A method to March Madness: Institutional logics and the 
        2006 National Collegiate Athletic Association Division I men's 
        basketball tournament. Journal of Sport Management, 22(6), 677-
        700.

  <bullet> Southall, R. M., & Nagel, M. S. (2008). A case-study 
        analysis of NCAA Division I women's basketball tournament 
        broadcasts: Educational or commercial activity? International 
        Journal of Sport Communication, 1(4), 516-533.

  <bullet> Ridpath, B. D., Nagel, M. S., & Southall, R. M. (2008). New 
        rules for a new ballgame: Legislative and judicial rationales 
        for revamping the NCAA's enforcement process. Entertainment and 
        Sports Law Journal, 6(1), 1-15.
Appendix: Graduation Rate Data+

      Table 1. 1995-2003 FGRs for D-I Football and Men's Basketball
------------------------------------------------------------------------
         Cohort                FGR       FGR MBB (D-I)     FGR FB (D-I)
------------------------------------------------------------------------
1989                             1995              43%              53%
1990                             1996              44%              54%
1991                             1997              45%              56%
1992                             1998              44%              54%
1993                             1999              47%              54%
1994                             2000              46%              55%
1995                             2001              49%              54%
1996                             2002              51%              56%
1997                             2003              47%              55%
------------------------------------------------------------------------
Avg. *COM001*1995-2003                             46%              55%
 (FGRs)
------------------------------------------------------------------------


 Table 2. 2004-05 to 2012-13 FGRs for D-I Football and Men's Basketball
------------------------------------------------------------------------
   Cohort      Report     FGR MBB D-I     (N)*      FGR FBS FB     (N)*
------------------------------------------------------------------------
1998          2004-05            44.0%     300            54.1%     112
1999          2005-06            44.6%     313            54.9%     111
2000          2006-07            45.3%     314            55.0%     112
2001          2007-08            46.0%     317            54.5%     116
2002          2008-09            47.3%     320            54.5%     116
2003          2009-10            47.1%     323            55.0%     116
2004          2010-11            47.2%     326            55.6%     116
2005          2011-12            46.8%     329            56.7%     115
2006          2012-13            46.3%     335            57.7%     117
------------------------------------------------------------------------
Avg.                             46.1%     320            55.3%     115
------------------------------------------------------------------------
* N = NCAA D-I and/or FBS universities for report period.
+ Source: NCAA Student-Athlete Experiences Data Archive (n.d.).
  Retrieved from http://www.icpsr.umich.edu/icpsrweb/NCAA/studies/
  30022#datasetsSection


            Table 3. Comparisons of Graduation Rate Metrics.
------------------------------------------------------------------------
                    Cohort                       FGR*     GSR     AGG**
------------------------------------------------------------------------
Male Students                                       61      N/A      N/A
------------------------------------------------------------------------
    FBS Football                                    58       70      -18
------------------------------------------------------------------------
    D-I Men's BB                                    46       70      -32
------------------------------------------------------------------------
    Baseball                                        48       74      -31
------------------------------------------------------------------------
Female Students                                     65      N/A      N/A
------------------------------------------------------------------------
    D-I Women's BB                                  64       85      -14
------------------------------------------------------------------------
Notes:
* FGRs are 2012-13 4-Class Averages. GSRs are 2012-13 figures. Retrieved
  from http://web1.ncaa.org/app_data/GSR/qaahad13/1_0.pdf
** AGG Reports available at http://csri-sc.org/research/


    The Chairman. Thank you for your excellent testimony.
    And, finally, Dr. Mark Emmert who is--well, you all know 
who he is.
    [Laughter.]

          STATEMENT OF DR. MARK A. EMMERT, PRESIDENT, 
            NATIONAL COLLEGIATE ATHLETIC ASSOCIATION

    Dr. Emmert. Thank you, Senator.
    And good afternoon to you and to Senator Thune and----
    Senator Booker. Is your microphone on?
    Dr. Emmert. Thank you. I appreciate that.
    Is it working now? Can you hear me fine?
    The Chairman. I notice no difference.
    Dr. Emmert. OK.
    [Laughter.]
    Dr. Emmert. As a recovering university president, I've 
learned to project. So thank you very much.
    Good afternoon to all of you on the panel. I'm Mark Emmert. 
I've served now as the President of the NCAA since October 2010 
following 30 years as a professor, a university administrator 
and a university president. I certainly appreciate the 
opportunity to appear before all of you today and discuss what 
I agree are very important issues. And I particularly want to 
thank you, Mr. Chairman, for working with us on the timing of 
this hearing. It's good that we are able to be here.
    The NCAA's core purpose, as has already been pointed out, 
is to promote the well-being and the success of more than 
460,000 student-athletes as they enjoy both world-class 
athletic experiences and receive access to topnotch educations. 
That's why I've been working diligently with the Division I 
Board of Directors, our member universities and all the 
stakeholders to drive policy changes that support student-
athlete success and, indeed, address many of the issues that 
have already been raised here today.
    During my tenure, we've enacted more than a dozen key 
reforms. Two notable examples are raising academic standards 
and adding the opportunity for a multiple-year scholarships.
    As we discuss how to improve college sports today, it's 
important to understand that the NCAA is a democratically 
governed, membership-led association of nearly 1,100 colleges 
and universities. As such, neither I nor any member of my staff 
have a vote on association policy or infractions decisions. 
It's important to note that, appropriately, in my opinion, 
university presidents themselves, are the ultimate 
decisionmakers within the association.
    Members make rules through a representative process much as 
you do in Congress. It is challenging, obviously, to bring 
together coaches, athletic administrators, faculty members, 
student-athletes and university presidents to achieve consensus 
on much of anything, let alone college sports. And while the 
pace of change is not what I or many others would like, the 
Division I member schools are working very diligently, even as 
we speak, to create a new decisionmaking structure that will 
yield practical and, I hope, timely results on all of these 
issues.
    Before we discuss the challenges at hand, let me be clear: 
college sports, in my opinion, works extremely well for the 
vast majority of our 460,000 student-athletes. And while it can 
and should be modified, the collegiate model should in fact be 
preserved because of all of the good it provides for so many. 
Nonetheless, I agree there are very important changes that need 
to be made and many university presidents happen to agree with 
me.
    Let me describe the most important ones. First, student-
athletes, in my opinion, should be given a scholarship for life 
so they may complete a Bachelor's degree even if their 
education is delayed for any reason unrelated to a lack of 
academic progress or serious misconduct.
    Second, scholarships should cover the full and actual cost 
of attendance, not simply tuition, room and board, books, and 
supplies.
    Third, NCAA schools must always lead in the area of health 
and safety. For example, the NCAA, along with a variety of 
medical experts, released recently, new guidelines that address 
the diagnosis, the management and the prevention of sports-
related concussions.
    Fourth, the NCAA must work assertively with all of our 
universities on sexual assault prevention and support for 
victims. This is a national crisis and we can all do better.
    Fifth, while all student-athletes today are covered by 
insurance for injuries, and the NCAA covers catastrophic 
injuries, any gaps in coverage must be closed.
    Sixth, the academic success of student-athletes must remain 
our ultimate priority. This means providing them with the time 
as well as the resources they need to take advantage of the 
opportunities at college campuses, as our two former college 
athletes have testified today.
    Finally, all changes that are made, these and others, must 
maintain support for Title IX and cannot come at the cost of 
student-athletes in women's and non-revenue generating sports.
    The NCAA provides countless opportunities to men and women, 
including opportunities for many from low-income families, many 
who would not otherwise be able to attend college. In fact, 
some 82,000 current student-athletes are first generation 
college students. And at the risk of correcting Mr. Bradshaw, 
it is now $2.7 billion in athletic scholarships that are 
provided to students that make that a reality.
    Further, NCAA revenues are reinvested in our mission. 
Specifically, last year's revenue allowed us to conduct 89 
national championships in 23 different sports with nearly 
50,000 student-athletes participating in these championships 
across the entire country. Those revenues allowed us to provide 
$700 million directly to colleges and universities in all three 
divisions, $100 million of which was used to cover extra 
expenses and emergency expenses for Division I student-
athletes. Further, those revenues allowed us to cover the $14 
million insurance premium for catastrophic insurance policies 
for our student-athletes.
    College sports are serving student-athletes very, very well 
for the most part. Yes, there are changes to both policy and 
the culture that are needed, and they require frank 
conversations like the one we're having here and serious 
actions.
    I'm committed to working with you and our member schools to 
ensure that student-athletes have all the opportunities for 
success that they deserve. And I want to thank you for the 
invitation, Mr. Chairman, to appear today. I look forward to 
taking your questions and working with you in the future.
    [The prepared statement of Dr. Emmert follows:]

         Prepared Statement of Dr. Mark A. Emmert, President, 
                National Collegiate Athletic Association
    Good afternoon Chairman Rockefeller, Ranking Member Thune and 
distinguished members of the Committee. I appreciate the opportunity to 
discuss the role of the NCAA in promoting the well-being and academic 
success of student-athletes. Let me say at the outset that I 
personally, along with the entire leadership of the NCAA, share many of 
the concerns outlined by the members of this Committee. I am pleased to 
be here today to talk to you about those issues, and I commit and look 
forward to working with you and your staffs to address them directly 
and constructively.
    Our mission is multidimensional, but first and foremost it is to 
promote student-athlete success in the classroom and on the field to 
ultimately enable them to succeed throughout life. And while we strive 
every day to do just that, I strongly believe improvements need to be 
made and more work must be done. Every day the membership, NCAA staff 
and I work single-mindedly to accomplish our goal.
    I have spent most of my 40-year career in higher education as a 
university professor, provost or president. In my many years on campus 
at schools of different sizes and missions, I witnessed first-hand and 
came to believe deeply in the valuable role of sports in education. 
This belief, and my desire to address the changing needs of 21st 
century student-athletes, led me to my role as NCAA President.
    Since assuming the presidency of the NCAA in 2010, I have actively 
worked with the Division I Board of Directors, NCAA Executive 
Committee, member colleges and universities, and varied stakeholders to 
drive much-needed reform and address many of the concerns that surround 
intercollegiate athletics. Indeed, in August 2011, Division I leaders 
convened to launch the current reform efforts. Division I has a large 
and diverse membership with an equally large and diverse range of 
viewpoints. Unfortunately, this can at times slow the pace of reform in 
our democratically-governed association. We have made significant 
strides in some areas and continue to work through others. No one is 
more impatient than I am. We will continue to push to meet the needs 
and challenges of the times.
    Before I address the challenges, I want to begin by highlighting a 
core truth of intercollegiate athletics. For the vast majority of those 
who participate in NCAA sports--more than 460,000 young men and women 
each year at 1,084 institutions across three divisions and in 23 
different sports--the experience is exactly what it is intended to be: 
a meaningful extension of the educational process that provides the 
opportunity for students to compete fairly against other students, in 
an educational environment. While NCAA member schools spend roughly 
$13.8 billion per year on athletics--including $2.7 billion on direct 
scholarship support--athletic spending represents a very small 
proportion of total institutional spending: approximately 3.8 percent. 
Further, those same schools generate far less revenue from athletics 
than they spend: the deficit of operating expense over generated 
revenue is greater than $6 billion per year collectively. These NCAA 
institutions make this imbalanced investment because they are not 
pursuing intercollegiate athletics as a vehicle for maximizing revenue 
or minimizing expenses; rather, they believe that athletics, like many 
other extracurricular activities, plays an integral role in the overall 
educational experience. Our data demonstrate that 13 years after 
college enrollment, 86 percent of former Division I student-athletes 
favorably report that they count their athletics experience as an 
important part of their overall college experience.
    Moreover, research conducted by Nobel Prize winning labor economist 
Professor James Heckman of the University of Chicago, which he based on 
the National Education Longitudinal Survey (NELS), shows that 
participants in athletics are more likely to go to college, to stay and 
graduate from college, to secure a good job after college, and earn 
more money within a few years after college and for a lifetime. These 
results hold for football and men's basketball players, within Division 
I and across all divisions, and are accurate across many peer 
comparisons, including those from diverse racial and ethnic backgrounds 
as well as disadvantaged or difficult family circumstances, controlling 
for standardized testing variables and non-cognitive traits. College is 
a powerful force for social advancement and building human capital, and 
research shows that athletics has a positive relationship with that 
force. Participation in intercollegiate sports has been a significant 
means to realizing the benefits of college for hundreds of thousands of 
young people for decades.
    For the millions of other students, alumni and fans who follow 
their school teams, sports provide a rallying point and a source of 
pride and unity that weaves together diverse communities. This is a 
uniquely American phenomenon. There is no model elsewhere in the world 
where athletics are tied so directly to colleges and universities as an 
extension of the educational process. Some countries, in fact, have 
indicated a desire to emulate our model and have visited with us to 
study it. They do so because of the teamwork and leadership cultivated 
by intercollegiate sports, as well as the sense of community and common 
purpose they create. Student-athletes receive training and education on 
subjects spanning from how to keep themselves physically fit and 
healthy for a lifetime to how to deal with the challenges of stress, 
loss and adversity, how to manage multiple responsibilities, and how to 
properly manage time. For all of these reasons, intercollegiate 
athletics is appropriately situated as part of the educational 
experience within higher education.
    Our research shows most Americans view intercollegiate athletics in 
a positive light. That said, my hope--both in our discussions today and 
in my role as NCAA president--is to address concerns about the well-
being of all student-athletes. I do so with the understanding that the 
most visible athletics programs in college sports reside within 
Division I FBS football and Division I men's basketball, and those 
programs disproportionately shape public opinion about the NCAA and the 
experience of student-athletes. The students in these sports are a 
critical part of the collegiate model of athletics, and we must ensure 
that their experiences reflect the fact that they are students first.
    No system is perfect, and the same holds true for intercollegiate 
athletics. Over the history of the NCAA, we have witnessed some issues 
and challenges in every sport in every division. Yet the sports of 
football and men's basketball at 123 well-known institutions in the 
larger conferences attract the most attention, make the most news and 
are the subject of the most criticism. The student-athletes who 
participate in these sports at this level represent only 3.5 percent of 
all NCAA student-athletes. Yet these are the sports and institutions 
that prompt many questions relating to multi-year scholarships, 
transfer rules and behaviors, health care for student-athletes and the 
costs of college sports. These are areas of concern to me and to the 
Division I Board of Directors, a representative body of 18 university 
presidents who are appointed by the membership from all of Division I. 
And, these issues have been the subject of robust debate among member 
schools in Division I over the last several years.
    Yet it is not only those programs that need our attention as we 
strive to make our system better. The college and university members 
and I also are concerned about issues around the academic preparation, 
health and safety and overall success of all student-athletes. These 
include issues such as time demands on student-athletes; the impact of 
participation on the health of student-athletes now and in the future, 
especially in the area of traumatic brain injury; the full cost of 
attending college; and how the 346 institutions in Division I as a 
whole should be structured and governed. We must depend on good data to 
inform values-based decision-making and then follow through according 
to those values. We must uphold our commitment to the academic and 
athletic success of all 460,000 student-athletes.
    More often than not, the tension has been around how institutions 
of vastly different resources and missions will compete against one 
another. The drive to compete--the very thing that makes sports such a 
vital feature of American culture--often complicates attempts to bring 
serious change or rapid reform to intercollegiate athletics. The 
diversity of Division I creates both its appeal (Cinderella stories as 
well as traditional rivalries) and its challenges.
    Before I address on an issue-by-issue basis some of the concerns 
expressed about college sports, I want to highlight three key points 
about intercollegiate athletics that often go unnoticed or unmentioned.

  <bullet> First, NCAA sports have provided and continue to provide an 
        enormous number of men and women access to higher education. 
        Over the last several decades, this number has included many 
        whose financial situation would have otherwise prevented them 
        from attending college. In fact, just shy of 20 percent of all 
        student-athletes are first-generation college students, and a 
        similar number report that they would not have attended college 
        at all if not for athletics. Division III and the Ivy League do 
        not permit athletically related financial aid, but they do 
        provide other types of financial aid to student-athletes. And, 
        in Divisions I and II, more than $2.7 billion annually in 
        direct financial aid helps make all this possible. Of that 
        amount, $2.1 billion is spent on athletic scholarships in 
        Division I alone.

  <bullet> Second, the NCAA has made substantial progress in supporting 
        the academic success of student-athletes. Improving student-
        athlete academic success has been a concentrated effort by the 
        Division I membership for more than two decades. Division I, 
        led by its Board of Directors, has steadily increased the 
        academic requirements for initial eligibility, which has helped 
        motivate many high school students to enroll in college 
        preparatory courses they otherwise might not have taken. 
        Moreover, the Board also has approved membership initiatives 
        that require student-athletes make continuous progress toward a 
        specific degree in order to maintain eligibility once in 
        college. The NCAA has developed two metrics to get a better 
        picture of how well student-athletes are performing from 
        semester to semester, and ultimately graduate. The first metric 
        is the Academic Progress Rate (APR), which examines how well a 
        team is doing in the classroom every semester. The APR is a 
        strong predictor of eventual student-athlete graduation rates. 
        It also serves as the basis for penalties if certain threshold 
        rates are not achieved and sets the standard that teams must 
        meet to compete in the post-season. The second metric is the 
        Graduation Success Rate (GSR), which uses the same six-year 
        window as the Federal graduation rate but requires institutions 
        to account for student-athletes who transfer in and those who 
        transfer out in good academic standing. Because it accounts for 
        transfers-in and transfers-out, it is a much more appropriate 
        rate than the current Federal formulation that ignores 
        transfers-in and counts transfers-out as academic failures. It 
        is also superior to proposed alternatives, such as the Adjusted 
        Graduation Gap (AGG), which makes a number of faulty 
        assumptions about student-athlete academic pathways and results 
        in a ``hypothetical'' graduation gap rather than a real 
        counting of actual graduates.

    In 2013, the GSR for all student-athletes in Division I was 82 
        percent, one point higher than a year ago and eight points 
        higher than in 1995. More than 11,000 student-athletes have 
        graduated over the last decade who may not have graduated had 
        the GSR remained at 1995 levels. And in the two sports I have 
        specifically raised in this testimony, student-athletes 
        competing in football at Division I FBS schools are graduating 
        at a rate of 71 percent, and members of Division I men's 
        basketball teams are graduating at a rate of 73 percent. Since 
        1995, the rate of graduation for men's basketball has increased 
        17 percentage points, with a 22 percentage-point increase for 
        African-American male student-athletes. For FBS football in the 
        same timeframe, the graduation rate has increased eight 
        percentage points, with an 11-point increase for African-
        American football student-athletes. This is remarkable 
        progress, resulting from significant research into the academic 
        behaviors of students and the determination of university 
        presidents to raise the standards. And these numbers are 
        projected to continue to rise.

    Also worth noting, our Study of College Outcomes and Recent 
        Experiences (SCORE) research indicates that between 25 and 30 
        percent of former student-athletes report earning a graduate 
        degree by age 30. U.S. Census research continues to show those 
        with a college degree earn $1 million more over a lifetime than 
        those without a degree. Those with doctorates earn an 
        additional $500,000. Higher self-esteem, better physical health 
        and reduced rate of smoking are other observed outcomes of 
        attending college. The benefits to earning a degree are real by 
        any measure.

  <bullet> Third, a valuable untold story about the contribution of 
        intercollegiate athletics is that college sports helped shape 
        many leaders and great citizens of America. Indeed, five 
        members of this Committee were student-athletes. Six of the 
        last 11 presidents of the United States were student-athletes. 
        Supreme Court justices, countless Cabinet officials, 
        ambassadors, military leaders, astronauts and other senior 
        government personnel, as well as captains of business, competed 
        in intercollegiate athletics.

    These individuals and innumerable others learned much about 
        leadership and life from their days on the field or court. They 
        learned about the pursuit of excellence and how to work as a 
        team from coaches who were teachers of persistence and 
        resilience, self-discipline and self-sacrifice. In our surveys, 
        more than 90 percent of former student-athletes report that 
        participation in college athletics enhanced their leadership, 
        work ethic, teamwork and time management skills. I'm sure the 
        five of you on this Committee could speak volumes about the 
        experiences and opportunities intercollegiate athletics 
        presented you.

    To summarize these three points: Intercollegiate athletics provides 
more financial aid to more student-athletes than ever before; more 
student-athletes are graduating than ever before; and student-athletes 
enter college better prepared and leave college better conditioned to 
take on leadership roles throughout our society. These are the central 
facts about the experience of intercollegiate athletics for the vast 
majority of student-athletes.
    As I discuss specific areas of interest and concern, it may be 
helpful to reiterate that the NCAA is a membership-driven association. 
Nearly 1,100 NCAA member colleges and universities work together to 
create rules for fair and safe competition and to protect the 
collegiate model of athletics. Those rules are administered by NCAA 
national office staff, which also organizes 89 national championships 
in 23 sports and provides other resources to support student-athletes 
and the schools they attend. The NCAA president is hired by the NCAA 
Executive Committee, which comprises college and university presidents 
from all three divisions. The Executive Committee also sets policy on 
Association-wide issues and approves the NCAA budget. I work at their 
pleasure to help schools implement the rules set by NCAA membership and 
to oversee the daily operations of the Association's national office in 
Indianapolis. For that reason, my role should not be equated with a 
league commissioner, as I do not have those powers. Neither I nor any 
NCAA national office staff member has a vote on Association policy or 
infractions decisions.
    To enact reform, members must make rules through committees, much 
like Congress does. These committees include student-athletes, coaches, 
athletics administrators, faculty members and university presidents. 
For Division I, the Board of Directors is the decision-maker on most 
important issues. The 346 universities that comprise Division I can; 
however, overturn decisions of the Board and the committees below it 
with a 62.5 percent majority vote. This scenario happened in 2012, 
after the Board twice approved a miscellaneous expense allowance to 
cover additional costs of college attendance for student-athletes. In 
short, the member universities make the rules and, like Congress, they 
do not always agree.
    Given the diversity of the Division I membership and the tens of 
thousands of individual cases, the membership also has created a broad 
range of waivers, exemptions and exceptions to assist student-athletes 
in unique circumstances. These requests are granted either by NCAA 
staff or a membership committee in the vast majority of cases. There is 
even a process by which membership policy can be set aside to avoid 
certain unanticipated or unintended consequences. All these processes 
are often slow, sometimes cumbersome and, by the time of passage, can 
be anti-climactic. This, of course, is the common complaint of any 
democratic process in which there is more than one opinion of what the 
outcome should be. As I will discuss next, we are working to normalize 
and rationalize our governance process to achieve more common-sense, 
practical and timely results.
Specific Issues of Interest
Multiyear Grants
    There has been considerable focus on the length of grants-in-aid, 
commonly referred to as athletic scholarships, awarded to student-
athletes. I, along with many in the membership, have supported the 
multiyear grant and believe it is a critical component of the ongoing 
reform efforts to expand benefits to student-athletes. It is worth 
noting that since athletically related financial aid was first awarded 
in the 1950s, most grants have been renewed for multiple years (even 
when the original award was for one year). Indeed, in most cases it is 
renewed for the full five years in which student-athletes have four 
years of eligibility. Further, under NCAA bylaw 15.3.2, whether a grant 
is for one year and renewable or for multiple years, an institution may 
not revoke the aid for any reason--including injury--unless the student 
has been afforded an opportunity to challenge the decision through an 
institutional review board consisting of faculty and non-athletics 
administrators. Nonetheless, many in the Division I membership and I 
support permitting institutions the option of awarding multiyear 
scholarships, and many have committed to do so on a regular basis. We 
have recently seen some institutions, such as Indiana University and 
the University of Southern California, make announcements of their 
commitment, while many schools across the Association, such as 
Northwestern, have been providing such grants since it was permitted.
    In 2011, the Board of Directors approved the option to award 
guaranteed multiyear grants at the time of enrollment. As it turned 
out, a majority of member institutions disagreed with that decision and 
mounted an effort to override the Board's decision. The effort to 
override failed by the slimmest of margins. A 62.5 percent majority is 
required for override, and 62.12 percent supported the override in a 
roll-call vote. This issue is a good example of the challenges of 
implementing reform in a membership association.
Transfer Rules
    There is also considerable concern regarding student-athletes 
transferring. The National Student Clearinghouse reported in 2012 that 
more than a third of all college students in America transfer at some 
point before earning a degree. In intercollegiate athletics, only 11.7 
percent of all student-athletes competing in Division I during the 
2011-12 academic year were transfers; one of the highest percentages of 
transfers, nearly 28 percent, was in men's basketball. Despite the fact 
that transferring is a common occurrence among students, there is 
academic risk in doing so. Any student-athlete may transfer to any 
school at any time, similar to all college students. There is no NCAA 
rule that prohibits transfer. In order to foster academic success, 
however, transferring student-athletes in certain sports must sit out 
from competition the first year after their transfer unless he or she 
meets certain exceptions or a waiver is granted. Research shows 
student-athletes who transfer are less likely to earn a degree than 
those who remain at their original school, and the APR for transfers 
from four-year institutions is 21 points lower. Most student-athletes 
who are not eligible to compete immediately benefit from a year to 
adjust to their new school and focus on their classes. Student-athletes 
who must sit out a year of competition at their new school in most 
cases may still receive athletics-related financial aid and practice 
with their new team.
    NCAA members decided in April 2014 that student-athletes 
transferring due to difficult life circumstances will be granted a 
sixth year to complete their eligibility. However, there is no longer a 
waiver option to get permission to compete immediately. This change 
becomes effective with the 2015-16 academic year. The altered policy 
allows transfer student-athletes facing challenging personal issues the 
opportunity to focus on what is important and adjust to a new academic 
environment before facing the pressures of competition without limiting 
their overall eligibility.
National Letter of Intent (NLI)
    The NLI program was originated by conference commissioners in both 
Divisions I and II and is administered by the NCAA on behalf of the 
conferences. The terms of the program commit a scholarship student-
athlete to a specific institution for one year. If the student-athlete 
does not fulfill the obligation, he or she must sit out from 
competition for one year and lose one of his or her four seasons of 
competition. There is also a process for release from the NLI, and a 
prospective student-athlete can sign an athletics aid agreement which 
has no binding effect on him or her to attend the institution. The 
process is entirely voluntary, and there are upsides and downsides to 
participating. On the one hand, signing a letter of intent effectively 
ends the recruiting process, and the prospective student-athlete is 
free to focus on finishing high school without the attention and 
disruption of the recruiting process. On the other hand, a 17- or 18-
year old may not fully consider all the options and may want to change 
his or her mind after the letter is signed. It should be noted that 
parents are also involved in the NLI process and are required to sign 
in addition to the prospective student-athlete if they are under the 
age of 21. Over the last five years, fewer than 2.5 percent of 
prospective student-athletes have requested a release, and 95 percent 
of those requests were granted.
Health and Accident Care Coverage
    As I am certain you understand, health insurance is different from 
accident or injury insurance. The NCAA has focused its rules on 
ensuring student-athletes are covered for injuries or accidents that 
occur as a result of athletics participation. Currently, Division I 
members may provide unlimited health care for student-athletes. In 
addition, NCAA members have enacted rules that require all members to 
ensure a student-athlete has insurance coverage in place that covers 
athletically related injuries before they can practice or play. The 
NCAA also provides full coverage for all student-athletes competing in 
one of our championship events. As I have previously stated, not every 
NCAA school has the same resources available. Thus, NCAA rules permit 
schools to provide the type and scope of coverage that meets their 
unique campus circumstances. Where a school cannot provide the 
coverage, it must be in place through a policy purchased individually 
or through the student-athlete's parents or guardians. Division I 
members spend more than $135 million each year on medical care and 
insurance premiums for their student-athletes. In addition, the NCAA 
pays 100 percent of the $13.6 million premium for the catastrophic 
injury insurance program--a safety-net program that picks up medical 
costs above $90,000 after other institutional or individual policies 
have been exhausted. The program provides $20 million in lifetime 
benefits to student-athletes who are catastrophically injured while 
playing or practicing. The program covers all 460,000 student-athletes 
at active member schools in all divisions. It is the country's most 
comprehensive program of its kind in terms of lifetime limits and 
benefits. Certainly, health care of our student-athletes is a priority 
for the Association, and any gaps in medical insurance coverage should 
be identified and closed.
Rising Costs of College Sports
    Notwithstanding increases in revenue from some sports, in my view, 
the rising costs at America's universities are among the biggest issues 
facing higher education generally and intercollegiate athletics 
specifically, and they are among the most difficult to address. I am 
especially concerned that these financial challenges can make it 
difficult to sustain athletics programs for women and other student-
athletes who compete in sports that do not generate revenue or a lot of 
publicity, but provide the same educational benefits as the highest-
profile sports. This is particularly true in light of the great 
progress that has been made with respect to Title IX over the last four 
decades. Rising costs create significant issues for individual 
institutions and are the source of significant tension among 
institutions within a division, subdivision or even a conference. As I 
noted earlier, the widening gap between educational institutions with 
greater resources and those struggling to keep up often plays out in 
uncompromising positions on national policy on many issues and 
especially with regard to benefits for student-athletes. This widening 
gap in resources arguably has roots in the U.S. Supreme Court's 
application of the antitrust laws to the NCAA in NCAA v. Board of 
Regents of University of Okla., 468 U.S. 85 (1985), wherein the NCAA's 
efforts to contain costs and commercialism were stuck down by the 
court. As recently as within the last two years, further efforts to 
confront these rising costs and find solutions along even the periphery 
of the issue have demonstrated how polarizing and entrenched these 
divergent views can be. Additionally, efforts by forces external to the 
membership could further erode the NCAA's ability to take practical 
steps to resolve financial and policy issues.
    Many have argued for greater transparency of individual 
institutional costs among member schools. I agree with this recommended 
reform, and we have made some progress toward greater disclosure. But 
while public institutions are accustomed to making their financial 
information public, private universities have no such obligation. 
Accordingly, no consensus has been reached to provide financial data 
other than in aggregated formats. Frankly, it is difficult to envision 
an immediate resolution. The members of this Committee represent states 
with 133 Division I member schools, and I suspect you understand from 
your regular engagement with them how widely varied, and deeply held, 
the beliefs can be.
Student-Athlete Misconduct and Discipline
    As a lifelong educator committed to a safe environment in which to 
learn, I am deeply troubled by misconduct, unfortunately some criminal, 
by students on campus. I share the concern raised by other educators, 
administrators, the public and Members of this Committee regarding 
allegations of possible crimes perpetuated by or against student-
athletes. Some of those allegations have proven true and are truly 
heinous and tragic. If you had asked me during my tenure as president 
of two large universities what kept me awake at night, I would have 
told you one of my greatest concerns was the potential for crime 
against our students, faculty or the broader campus community. We must 
do our part to ensure an academic environment free of harassment or 
abuse. Of course, we must be careful not to cast all students or 
student-athletes as criminals or villains because of the behavior of a 
few. The overwhelming majority of the 460,000 student-athletes who 
participate in college sports annually are good campus and community 
citizens. They follow the rules of the campus and the laws in the 
community. And as concerned as I am about campus violence, it also is 
true that violations of criminal law do not fall under the purview of 
the NCAA. Local law enforcement or, when appropriate, state and Federal 
law enforcement officials have jurisdiction for alleged criminal 
activity and violations of law. Decisions about eligibility to 
participate in athletics also are retained locally by campus 
authorities in the first instance, and rightly so. Opinions differ with 
regard to how and at what point eligibility to participate is impacted. 
Some campus officials believe student-athletes must be held to a higher 
standard than other students, and the earliest stages of investigation 
by law enforcement should result in suspension of the privilege to play 
sports. Others hold that the judicial imperative that all citizens are 
innocent until proven guilty must pertain to student-athletes as well. 
But in either case, the membership has made it clear that these are 
local decisions and, as a result, our role as a national body is 
limited. Nonetheless, recognizing drug and alcohol abuse has been 
linked to some of the violent behavior and misconduct, the NCAA has 
invested time and resources in programs that address drug and alcohol 
abuse prevention. Indeed, the NCAA national office, together with its 
member institutions, has engaged in a number of ongoing educational and 
training programs on both the local and national levels to provide 
assistance to campuses. A few examples include:

  <bullet> The NCAA is working with a consortium of nationally 
        recognized advisers to develop a Violence Prevention Handbook, 
        which is scheduled to be released this summer. The handbook 
        will define the issues, identify Federal regulations through 
        Title IX and the Campus SaVE Act, include education on 
        prevention and response, best practices for coaches and 
        student-athletes, and present models of collaboration between 
        athletics and campus professionals with expertise in prevention 
        and response. The consortium and follow-up efforts stem from 
        the 2011 NCAA national summit on sexual assault/interpersonal 
        violence prevention.

  <bullet> For 23 years, the NCAA has supported the annual APPLE 
        Conference Promoting Student-Athlete Wellness and Substance 
        Abuse Prevention, designed as a strategic planning conference 
        conducted by the University of Virginia Gordie Center. 
        Participation in the conference facilitates athletics programs 
        assessing their needs, developing action plans and implementing 
        solutions to address substance abuse and consequences. 
        Annually, more than 70 institutions attend, and more than 50 
        percent of NCAA member schools have attended at least once.

  <bullet> Through a competitive grant program called NCAA CHOICES, the 
        NCAA awards individual colleges and universities $30,000, a 
        total of $450,000 annually, to fund institution-driven projects 
        that engage athletics with campus efforts to reduce alcohol 
        abuse and negative consequences, with ongoing evaluation and 
        consultation from the George Mason Center for the Advancement 
        of Public Health. More than 270 NCAA institutions have received 
        NCAA CHOICES Alcohol Education Grants.

  <bullet> The NCAA helps support the Step UP! Bystander Intervention 
        Program developed by the University of Arizona. This program 
        trains student-athletes to safely and effectively intervene 
        when a teammate or friend is in distress, in danger or heading 
        for trouble. Bystander intervention training has been 
        identified as an effective approach in violence prevention and 
        response. The NCAA Sport Science Institute recently sponsored 
        the second facilitator training on Step UP!, which included 
        participation from two-person teams from 40 NCAA members 
        institutions.

  <bullet> The NCAA sponsors National Hazing Prevention week, provides 
        a Hazing Prevention Handbook to its member institutions and 
        consults on the National Hazing Study. NCAA staff partners with 
        other stakeholders--namely Greek Affairs--to effectively 
        address hazing prevention on member campuses.

  <bullet> In partnership with Student Affairs Administrators in Higher 
        Education (NASPA), the NCAA piloted the 360 Proof alcohol 
        education program at 36 Division III schools this year. This 
        free, web-based program provides student affairs and athletics 
        administrators an assessment tool to see how much information 
        they already have about alcohol use on campus, inventory 
        existing alcohol prevention activities and fill gaps based on 
        the National Institutes on Alcohol Abuse and Alcoholism 
        Recommended Strategies. It also includes a personalized 
        feedback intervention, or PFI tool, to help students assess 
        their own use and risk. Studies show that PFIs reduce the 
        frequency and number of alcoholic beverages consumed, as well 
        as effectively dispel myths about drinking. Following a 
        successful pilot, the program will expand to include banned 
        substances and street drugs in 2017.

  <bullet> The NCAA provides online Title IX compliance and best 
        practices materials and video classes. Topics include sexual 
        harassment and violence prevention and guidance from the U.S. 
        Department of Education Office for Civil Rights.

  <bullet> The NCAA Sport Science Institute has identified mental 
        health promotion and intervention as a critical initiative, 
        holding a meeting of health care experts in November 2013 to 
        fully review the issue. This meeting has resulted in the 
        development of an anthology of issues impacting mental health 
        and best practices for member institutions to assure early 
        identification and treatment for those student-athletes in 
        need.

    I believe these educational initiatives are very helpful in 
combatting the serious issue of campus violence and student-athlete 
misconduct, yet the NCAA may continue to draw criticism for not 
inserting itself directly into specific instances of alleged student-
athlete misconduct or criminal behavior. While we certainly will 
cooperate with any law enforcement activity, I remain convinced that to 
insert the NCAA directly into the issues described above would 
undermine local efforts to manage the conduct of student-athletes 
similarly to that of other students, even when the result may not be 
consistent from one campus to another. Nonetheless, I believe this 
issue is important and requires more dialogue, and I will encourage 
NCAA leadership and membership to continue to explore additional areas 
of engagement.
Academic Preparation and Success
    As I have described in this testimony, the academic success of 
student-athletes has been a major area of emphasis for the NCAA, and 
since the mid-1980s the Association has seen dramatic results. When the 
NCAA first began collecting graduation data more than 25 years ago, 
student-athletes were lagging behind the rest of the student body. Two 
years into those reform efforts, student-athlete graduation rates had 
drawn even with the general student population; later, they pulled 
ahead. That upward trajectory has continued for more than two decades. 
Today, student-athletes consistently graduate at higher rates than 
their counterparts in the general student population. More than 80 
percent of all student-athletes graduate, as measured by the GSR metric 
noted earlier, and white males are the only demographic group who 
remain below their counterparts.
    But this work is never done. For example, while the graduation 
rates of African-American student-athletes in Division I are 
considerably ahead of their counterparts in the student body, they lag 
behind those of white student-athletes, and that is not acceptable. We 
see steady improvement, but we must not accept this discrepancy as 
simply ``the way it is.'' The NCAA continues to study research data 
that predicts how well students are likely to do in completing 
requirements for specific degrees and then setting standards that will 
spur even greater success.
    One of the most frequent criticisms is that these results are aided 
by courses that are alleged to lack serious content and majors that 
lack rigor. As required by our bylaws, on NCAA campuses the majors and 
courses available to student-athletes are the same ones available to 
the entire student body, and the standards for instruction and approval 
of majors is the responsibility of the faculty and not the athletics 
department. The data from our Growth, Opportunities, Aspirations, and 
Learning of Students in College study, known as GOALS, show that 87 
percent of student-athletes would have chosen their current majors 
again even if they were not student-athletes and that personal interest 
and career fit played the greatest role in the selection of a major. 
The requirements for a degree in bio-medical engineering may well be 
more rigorous than those for political science (my undergraduate 
major), or business, or English, or any number of other degrees. But 
these courses and majors are not without serious or useful content. Of 
course, human behavior is such that there will be isolated instances of 
academic misconduct and the abuse of policies. The college and 
university members take these issues on their campuses very seriously 
and have largely retained authority and responsibility to handle 
matters when they arise. However, the membership has empowered the 
national office to investigate and act where it appears that student-
athletes may be receiving disparate academic treatment from the general 
student body. All in all, I am very pleased with the commitment to and 
results from academic reform over the last two decades.
    However, as I have discussed, the college and university members 
have given the NCAA the responsibility to explore potential NCAA 
violations. When these possible violations also involve issues around 
academic misconduct, the NCAA does not second-guess academic decisions 
of the institution or look into matters that may or may not violate 
other policies or authorities. The NCAA members and staff take 
allegations of academic misconduct seriously, and generally the NCAA 
staff conducts full and thorough investigations collaboratively with 
the institution. In fact, recently, the NCAA issued a Notice of Inquiry 
to the University of North Carolina, Chapel Hill, in connection with 
the information first examined in its 2011 investigation. As in any 
case, the enforcement staff makes clear at the time of an investigation 
that it may revisit a matter if new information becomes available. In 
this instance, the NCAA has determined that individuals previously 
unwilling to cooperate with the initial investigation may now agree to 
speak with the NCAA enforcement staff and, therefore, has decided to 
reopen its investigation. Further, the institution instructed its 
outside investigator to share relevant information from his 
investigation confidentially with the NCAA enforcement staff.
Impact of Participation on Student-Athlete Health
    The NCAA national office and its member colleges and universities 
have been committed to the study and promulgation of sports health and 
science issues for decades. Indeed, the NCAA was established in part to 
provide safety rules governing college football. Much of the study in 
the past has taken place on our campuses and has engaged medical and 
sports science experts from throughout the country, and the results of 
that research have been publicly available. Moreover, a membership 
committee comprising physicians, athletic trainers, strength and 
conditioning coaches, nutritionists, drug abuse prevention 
professionals and other athletics administrators--the Competitive 
Safeguards and Medical Aspects of Sports, or CSMAS--has provided 
oversight of health and safety for more than 30 years. CSMAS has also 
provided the Sports Medicine Handbook as expert guidance to the 
membership on best practices to protect student-athlete health and 
safety. I wanted to bolster expert oversight and support for the 
membership, especially as we have entered into new areas of medical 
concerns surrounding participation. Fifteen months ago, I created the 
position of chief medical officer of the NCAA and hired a renowned 
neurologist as the first such CMO. With his leadership, we have created 
the NCAA Sport Science Institute, through which we have already 
convened task forces on concussion and mental health and begun 
substantive conversations with other medical, athletics and government 
groups to drive policy and action. In May, we launched a $30 million 
joint initiative with the U.S. Department of Defense to fund the most 
comprehensive study of concussions ever conducted and issue an 
educational challenge to change the culture of concussion reporting and 
management. Just this week, we released guidelines on concussion 
diagnosis and management, the correct model to provide medical staff 
independence from the athletics department in treating student-
athletes, and football practice guidelines designed to reduce 
concussions and other injuries. They represent the consensus of more 
than 10 medical and athletic trainer associations, as well as coaches 
and conferences. This degree of collaboration and buy-in means real 
changes and benefits to student-athletes, starting immediately.
    We must be ever-vigilant to the impact of athletics participation 
on students. Safety measures to better protect students who play 
football student-athletes have been a primary concern since the NCAA's 
founding in 1906, and the NCAA takes seriously its safety commitment to 
all the sports it sponsors. The issue has been a significant gap in 
sport science and medical research compared to changes in competitive 
expectations. We have followed closely and are working to address many 
concerns beyond concussions, specifically knee injuries and the impact 
of over-specialization in youth sports. By late summer, we hope to have 
completed work with the members to develop a new mental health 
resource. The protection of student-athlete health and safety is a job 
that is never complete; there is no guarantee of safety whenever anyone 
steps out to practice or competes in a sports activity. However, the 
NCAA and its members will continue to be true to our health and safety 
mission and will carefully consider when changes in the health and 
safety space are appropriate.
Time Demands on Student-Athletes
    In 1991, the membership set national policy that limited, for the 
first time, the supervised time student-athletes were allowed to commit 
to their sports to 20 hours per week. It was a bold move at the time 
and was disparaged by student-athletes who did not believe 20 hours a 
week was sufficient time to develop their full athletics potential, as 
well as by most coaches, who wanted their student-athletes committing 
more and more time to preparing for competition. Their reaction was and 
still is an especially true sentiment for student-athletes who 
participated in high school and grass-roots athletic experiences that 
involved intensive training and travel. The details of the legislation 
left ample room for interpretation and recognized that voluntary 
individual or group workouts likely could not be curbed. In the NCAA 
GOALS study, students who participate in Division I football report 
they spend 40 to 45 hours per week on football and about 40 hours on 
their academic efforts. What we have today is a rule that appears to be 
inadequate in limiting time spent on sports to the intended 20 hours. 
The big question is: What can be done about it? Athletes are by nature 
competitive and disciplined. With or without influences to the 
contrary, athletes will push themselves and their teammates to pursue 
excellence in preparation for competition. In fact, our data show that 
student-athletes participating in Division III football report spending 
an average of 33 hours per week on their sport. It would be difficult 
to find a group at any level that reports spending fewer than 25 hours 
per week on the sport. In the end, for all student-athletes, athletics 
is a time-consuming endeavor, but one they choose to pursue to the 
fullest. The Division I Board and I are searching for solutions to 
ensure that student-athletes maintain a better balance between 
academics and athletics with an emphasis on dedicating additional time 
to academic pursuits to promote their success once their playing days 
are over. I pledge to continue working to achieve exactly that, but I 
hope my testimony has informed the Committee of the difficulties of 
affecting such culture changes.
Student-Athlete Benefits
    For decades, there have been some who claim that Division I 
student-athletes in football and men's basketball are not receiving the 
benefits they deserve and would be better served if they were treated 
as employees and paid for services. As a person with more than four 
decades in higher education, I disagree with the notion that the 
student-athlete relationship with an institution is at all akin to an 
employment relationship. While not a party to the Northwestern v. 
National Labor Relations Board matter, last week the NCAA filed an 
amicus brief in support of Northwestern's appeal. It is our position in 
that brief that scholarship student-athletes are not employees. Indeed, 
we argue they are not just primarily students, they are exclusively 
students. They are exclusively students because both of their major 
activities of being a student and being an athlete are interrelated in 
their overall educational pursuit.
    This concern around payment for services has risen in direct 
proportion to: the rising commercial television exposure of the two 
sports through television; the mounting media fees networks are willing 
to pay to broadcast the inventory of regular-and post-season; the 
expansion of athletics facilities; and the heights to which coaching 
and other salaries have grown. Again, because of the way the U.S. 
Supreme Court applied the antitrust laws to the NCAA in Board of 
Regents and in Law v. NCAA, and because the NCAA does not have an 
antitrust exemption like professional sports leagues, the NCAA has no 
authority to limit coaches' compensation, prevent conference 
realignment or otherwise control expenditures. These behaviors have led 
some to argue that with so much money in the system, student-athletes 
are not fairly compensated for the revenue some believe they generate. 
I firmly believe that argument is unsound.
    One differentiating component of the American collegiate model of 
athletics as compared to other models is that those who participate 
generally do not do so for the value of tangible benefits they receive. 
Rather, they are in fact students and treated as such.
    The value of the benefits student-athletes in Division I FBS 
football and Division I men's basketball receive on an annual basis, if 
monetized, could easily be between $120,000 and $180,000 or more. These 
benefits are not compensation, and such educational support doesn't 
make them any less a student-athlete in the collegiate model than one 
in Division III who does not receive athletic-based financial aid. If 
both are students and are treated as students first who are competing 
against other students, they are part of the collegiate model.
    I believe that schools should be allowed the opportunity to provide 
student-athletes with resources to cover the full cost of attendance--
and I have advocated for such additional aid. It has been difficult to 
find a workable compromise within the Division I membership on this 
matter, even though it has been discussed for more than a decade and 
twice advanced by the Board of Directors. Such a proposal finds favor 
with institutions that have sufficient resources, while institutions 
that struggle to make the financial ends meet find it a threat to their 
competitiveness. Structural and governance changes may be necessary 
before progress can be made. But I can say that the Board of Directors 
and I will continue to look for solutions. And with every solution 
proposed, we make certain that our actions will not damage or undermine 
efforts to advance the principles of Title IX.
    The most important thing for young people in college is to focus on 
education and earn their degrees. Attempts to label student-athletes as 
employees rather than students due to their participation in a 
voluntary athletic activity that establishes no expectation of 
compensation when they enroll can only blur and, in fact, undermine the 
focus on education. These attempts are ultimately not in the best 
interest of the student-athlete or the college environment.
Financial Underpinning of Intercollegiate Athletics
    In the world of higher education, we must rely on cross-
subsidization--maximizing revenue from the areas that can generate more 
than their costs and reallocating the additional revenue to those areas 
that can never cover their costs. For example, we rely on large 
freshman survey courses such as history, English and psychology with 
one lecturer and a few graduate assistants for a few hundred students 
to generate sufficient revenue to help support disciplines such as 
nursing, music or economics that have smaller instructor-to-student 
ratios. If not for this cross-subsidization, we simply would not have 
comprehensive universities. And we have applied the same approach in 
athletics. Few football and men's basketball programs can generate 
revenues sufficient to cover the costs of those programs and the costs 
of another dozen or so sports for both men and women. The balance comes 
from the institution's general operating budget or student fees. If 
colleges and universities did not use this cross-subsidization 
approach, they would not have comprehensive athletics programs. So, 
while it is true that some male student-athletes in Division I football 
and basketball participate in events that generate revenue used to 
support other sports, it is also true that the tuition for students in 
freshman history helps pay to train nurses.
How NCAA Revenues are Used
    As an Association, almost all revenues that accrue to the NCAA are 
passed along, as I will describe, either as direct distributions to the 
membership or for services that benefit student-athletes.
    Last year, NCAA revenues totaled a little more than $900 million. 
Of that, more than 90 percent was directly distributed to the 
membership or provided direct membership services, such as sponsoring 
89 championships. Three-quarters of that revenue was generated through 
a 14-year multimedia agreement with CBS and Turner Broadcasting System, 
providing the rights to broadcast the Division I Men's Basketball 
Championship. The vast majority of the other 25 percent of NCAA revenue 
comes from NCAA championship ticket sales, an ESPN media contract for 
all other championships, and investment earnings. Each year the NCAA 
Executive Committee, composed of 19 presidents from member schools, 
approves the NCAA budget, including revenues, expenses and any 
allocation of reserves.
    Approximately 60 percent, or $527 million, of NCAA revenue is 
distributed directly to the Division I membership each year. These 
funds are distributed for various purposes: supporting student-
athletes, including leadership programs and grants promoting student-
athlete well-being; enhancement of academic opportunities; and direct 
benefits to student-athletes with emergent or essential financial 
needs.
    The next-largest expenditure, representing approximately 18 percent 
of NCAA revenues, allows the Association to conduct 89 championships in 
23 sports across all three divisions. In addition to conducting 
championships, approximately 17 percent of the budget is set aside to 
allow for other fundamental services required by the membership, such 
as the facilitation of governance, legislation, promotion of student-
athlete well-being and conducting enforcement. The smallest portion of 
expenditures is administration costs, which represents less than 5 
percent of NCAA annual revenues.
    It is important to note that the NCAA is not a recipient of any 
revenues generated by member schools or conferences during the regular 
season or from the FBS postseason bowl games.
Division I Structure and Governance
    The issue of how Division I is structured and governed is so 
``inside baseball'' that, at first, it might seem irrelevant to this 
hearing. But as I have noted throughout this testimony, it is critical 
to how and which decisions are made. The range of institutions in 
Division I extends from flagship state universities with $3 billion to 
$4 billion institutional budgets and athletics budgets exceeding $150 
million to small universities with budgets of less than $100 million 
and athletics operating budgets of $5 million. And while most small 
universities find it impossible to compete with large state 
universities for research grants, faculty and even students, they have 
an interest in competing athletically and depend on NCAA membership-
adopted rules to find some level of fair competition. It is a big-tent 
approach that exists only for these institutions in the realm of 
athletics. The question facing the Division I membership and its 
leaders is twofold: If the right governance structure is in place, how 
will it facilitate consensus on keeping the tent open for all while 
allowing radically different segments to govern themselves based on 
their characteristics? Inside baseball or not, this issue is enormously 
important to the 133 institutions in the states represented on this 
committee and all those in Division I. And although we cannot wait for 
the resolution of this issue before addressing the others I've noted in 
this testimony, some of those issues may not be fully addressed until 
the structure and governance concern is worked out.
    Central to the Division I governance reform expected in August 2014 
are plans to ensure that all 346 Division I members continue to compete 
together in the same division. One element of this design is for the 65 
institutions in the Atlantic Coast, Big Ten, Big 12, Pac-12 and 
Southeastern conferences to act as an autonomous unit that can modify 
certain NCAA rules. Some examples of autonomy might, for example, 
permit the grant in aid to cover all education-related cost for their 
student-athletes or otherwise provide additional athletics-related 
benefits. An example of the latter could be legislation allowing 
institutions within these conferences to cover the full cost of 
attendance, as reported to the U.S. Department of Education, as part of 
student-athletes' scholarships. After the five conferences have acted 
on legislation as an autonomous unit, the intent is that remaining 
schools in the division would be free to follow suit at each school's 
discretion.
Concluding Thoughts
    I recently testified in a U.S. District Court in the Northern 
District of California antitrust lawsuit brought by former UCLA student 
athlete Ed O'Bannon. My testimony made clear the vital need for the 
continuation of a collegiate model of amateur athletics in America and 
an equal need to reform our rules to make the experience even better 
for the student-athletes and our fans. As I did in that trial, I have 
tried here in my comments to provide as full a vetting as possible to 
the issues confronting intercollegiate athletics. Most of these issues 
are complex and challenging. Some view the NCAA solely through the lens 
of these remaining challenges and suggest that now is the time to 
separate sports from higher education once and for all. In truth, 
intercollegiate athletics is serving most student-athletes very well, 
and the integration of academics and athletics is essential to the 
collegiate model of sport.
    Yes, changes are needed, and they require frank and open 
conversation. Both the Division I Board of Directors and I are often 
frustrated at the lack of consensus and the slow speed at which 
progress is made. Even when we have pressed for an accelerated 
decision-making approach for only a handful of issues, as we did three 
years ago with broad support from presidents of member colleges and 
universities, some very good recommendations failed to gain support 
because of the speed at which they were pushed. But too many 
educational opportunities exist for nearly a half-million student-
athletes each year to stop searching for solutions.
    I believe the model that has served this country and our young 
people can and should evolve to meet their needs into the future. And I 
remain committed to work with each of you to make sure we can do so.
    Thank you for the opportunity to appear before you today. I look 
forward to taking your questions.

    The Chairman. Thank you very much, Mr. Emmert.
    I will start, Senator Thune will follow, and then Senator 
Coats. And then, we'll proceed from there.
    According to your website, and I'm just sort of going back 
to some basic stuff, ``student-athlete health, safety, and 
well-being remain our top priorities.'' Yet, in court papers 
filed for a lawsuit in which a family has sued the NCAA after 
their son died from a brain injury suffered in a pre-season 
football practice, the NCAA asserted that ``The NCAA denies 
that it has a legal duty to protect student-athletes.''
    I find that extraordinary. Now, I know what your answer is 
going to be and that's going to upset me. But, the question is 
how do you reconcile your website's publicly stated priorities 
of promoting health and safety with your private legal 
arguments which you will declare somehow are different; that 
the NCAA doesn't have a legal duty to protect student-athletes? 
You either do or you don't.
    Dr. Emmert. I will not quibble about the language. I think 
that was, at the very least, a terrible choice of words created 
by legal counsel to make a legal argument. I am not a lawyer. I 
am not going to defend or deny what a lawyer wrote in a 
lawsuit. I will unequivocally state we have a clear, moral 
obligation to make sure that we do everything we can to support 
and protect student-athletes.
    The Chairman. See, what I perceive is a web of convenient 
protection to all parties. You suggested that there are a 
number of universities. See, what I really want to see is a 
panel of subpoenaed university presidents from land-grant, 
publicly funded universities up here. And I think it'll come to 
that because I think it's going to have to. I don't know how 
we're going to work anything out without it.
    But you say that was bad language by a lawyer who got 
confused or, put later, didn't have a good night's rest, or 
whatever it was. And so, you sort of slosh over that.
    Earlier, you said that there are a number of universities 
that want to make a certain number of changes, which you then 
enumerated three or four of them. But then, you've also said, 
frequently in answers to questions in other fora, that you 
don't have the authority to do anything. You don't have a vote, 
which you said here. Everything is in the hands of the 
universities.
    My cynical self says that universities like things exactly 
the way they are, because they're making a ton of money. In 
fact, they are making so much money and they have more money 
than they ever had before--not all, but some. There have been 
about 120 that make most of it--120 universities. I don't know 
how change is possible.
    How do you make the case for saying that you can be a 
participant in this process of bringing about change when you 
say that they don't have to listen to anything you say?
    Dr. Emmert. Well, I can tell you, Senator, what is going on 
right now. In less than a month now, the Division I Board will 
vote on a completely changed decisionmaking structure. They 
will put all of the subjects that we're describing and 
discussing here today in the hands of the 65 universities that 
have the largest revenue. The schools that are within the 
five----
    The Chairman. I'm sorry. I've got to interrupt.
    Why would you pick the 65 schools that make the most money? 
Because, to me, they would be the ones who would be the least 
likely to want to make any changes at all.
    Dr. Emmert. Because, quite the contrary, they're the ones 
that precisely want to make changes; often changes that have 
price tags associated with them. And they want to make those 
changes and are often blocked from doing so by institutions 
that have less revenue. So if, for example, you want to move 
toward a scholarship model that covers full cost of attendance, 
something that the Division I Board, in my first year on the 
job, twice passed. It was overridden by the membership of the 
350 schools in Division I, predominantly with the support of 
the 65 major schools saying this is something we really need 
and they were blocked from doing so by the other institutions.
    So those schools are, indeed, the schools whose interests 
are the points that I just enumerated. Indeed, I was 
practically quoting from a letter signed by all the presidents 
of the Pac-12 and all the presidents of the Big 10, all of whom 
have said ``These are the changes we must make in 
intercollegiate athletics and we need authority to make those 
kinds of changes.''
    The Chairman. Now, is this the 65 largest universities or 
are these also the smaller ones who you say block progress 
because it's----
    Dr. Emmert. Yes, sir.
    The Chairman.--expensive?
    Dr. Emmert. These are the 65 schools that are members of 
the five largest revenue conferences: the SEC, the Big 12, the 
Big 10, the Pac-12 and the ACC.
    The Chairman. Would you agree with me, in my final first 
round question, that college sports has long forgotten the word 
``amateurism''? And I'm talking particularly about the 120 
major--but you know there's a lot more than that. That it's 
just a business and the more money you could make--I mean, West 
Virginia University signed onto the Big 12, which guarantees 
one thing and one thing only. And that means that most of the 
people of West Virginia who are not high income, or even 
moderate income, cannot go to any games out in the Southwest. 
Though, West Virginia University sure makes a ton of money from 
them.
    How do you respond to that? Is that right? Is that fair? Is 
that progressive?
    Dr. Emmert. If I may, Senator, there are two questions that 
are being asked there. The first is do I believe that the 120 
or so dominant schools, the FBS schools, perhaps to whom you're 
referring, have abandoned the concept of amateurism? And I 
would say that, no, they have not.
    I certainly agree with you that the topline revenue, the 
expenditures that are going on right now, in college athletics 
have unequivocally moved up very sharply in the past two 
decades. The fact that schools are investing those dollars back 
into their athletic programs makes quite clear that the 
universities, themselves, are not doing this to ``turn a 
profit.'' Indeed, last year, out of the 1,100 participating 
schools, about 23 in all of America had positive cash-flow. In 
other words, they invested all of the money that they had in 
college sports and had some left over. Everyone else in the 
country put resources into college sports instead of taking 
them out.
    In terms of the changes that occurred in the construction 
of the conferences over the past handful of years, I probably 
agree with you. I was very disappointed in the changes that 
conferences sought to make progress in. They created some 
significant travel challenges, I believe, not just for the fans 
but also for the student athletes. When you have to go across 
the country for a football game, it's one thing because that 
only occurs occasionally. But when it's your volleyball team, 
your basketball team, or your soccer team, it means student-
athletes are traveling a great deal at great expense both in 
time and energy and commitment. So I was quite disappointed in 
not all but many of those changes that occurred.
    The Chairman. I thank you and I turn to Ranking Member 
Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Emmert, under your presidency, you indicated that 
you've taken the initiative to form some of these Division I 
subcommittees to address needed changes. And I'm wondering if 
you could discuss what you hope to accomplish with that 
initiative?
    Mr. Emmert. Thank you, Senator.
    First of all, as I mentioned, within a month we'll see, I 
hope, the Board pass a completely new decision making structure 
because of the challenges of the past 24 months of making 
decisions around a very aggressive reform agenda. The 
leadership of the 65 leading universities have said, ``We 
simply have to find a better way to make progress.''
    They have identified, as their agenda, many of the items 
that I just addressed and a handful of others. So there is a 
very keen interest in finding, first of all, ways to provide 
greater support for student-athletes. We passed, twice over the 
past 36 months, a proposal to allow universities to give 
student-athletes, as a bare minimum, an additional $2,000 in 
their scholarship to cover all their miscellaneous expenses. I 
believe that the universities, this fall, and no later than 
January, will approve a proposal to do something just like that 
yet again. And, I hope, an even more robust model to cover the 
real legitimate costs of being a student-athlete.
    We were able to pass changes that allowed, but didn't 
require, multi-year scholarships for a student-athletes prior 
to 3 years ago. The universities were literally forbidden by 
NCAA rules from providing multi-year scholarships. We were able 
to get a change in the rules to allow them and I think we're 
well on our way toward mandating that they be, in fact, 
multiple-year commitments so that student-athletes don't have 
to worry about whether or not they're going to be able to 
finish their degree on time. I think that is extremely likely 
to happen.
    As I mentioned also, there's a very strong interest in this 
same group of leading universities that cover fully the cost of 
insurance programs. The vast majority of universities cover all 
of those costs today but it shouldn't be a question. It should 
be quite clear that no student-athlete will ever have to cover 
costs of insurance or injuries they sustained when they are 
student-athletes.
    And I think, finally, we've got to address this issue of 
time. The demands that are placed on student-athletes right now 
are, in my eyes, and I think in the eyes of many, including, I 
suspect, Mr. Bradshaw, the demands that are being placed on 
young men and women; both in terms of what's required of them 
for regular coaching, what's required from informal coaching, 
what's required simply to be competitive these days, is far too 
great a time, a demand, and we need to find better ways--I 
completely agree with Mr. Ramsay, for example.
    We need to find ways that young men and women can take 
advantage of internships, of study abroad opportunities, of all 
the things that we know help prepare them for life because a 
very, very tiny fraction of them are ever going to play a 
professional sport. For virtually all of college players, their 
last game is their last game in college. That's not going to be 
their profession. Their professional life and their life in 
general is going to be changed by having a meaningful degree 
and meaningful experiences that go along with that. That means 
we've got to create opportunities for them to do the many 
things that are available on campuses.
    Senator Thune. Thanks.
    Mr. Bradshaw, you bring a unique perspective as a former 
athletic director, on the role of member institutions in taking 
care of the well-being of student-athletes. I'm told that it 
was your practice, while at Temple, to conduct exit interviews 
of student athletes in order to understand their individual 
experiences and to direct suggestions on how the program could 
be improved. Are those examples from those interviews that you 
can share with us that led to direct improvements in the way 
that Temple addressed the needs of student-athletes?
    Mr. Bradshaw. We gathered our best information from our 
student-athletes about how they were being treated. As many of 
you might know, student-athletes aren't the most shy people in 
the world. They--absolutely. They're like my teenagers. They 
let you know when they're hungry, they let you know when you 
need things. So the exit interviews were invaluable because 
seniors were leaving the institution.
    We'd also follow up. We had questionnaires that we sent the 
seniors a month before they left and then went over those 
questionnaires with the student-athletes, talked about every 
facet of their experience at the university. That was helpful.
    We also had a captain's council, which was an aggregate of 
all the captains from every team that got together without the 
coaches, just myself and some administrators, to hear 
everything they had to say about their experience so that we 
could use that in recruiting and help to do a lot better job.
    We also have team meetings with each of the teams before 
their seasons to welcome the freshman and also to gather input 
from those freshmen about it. And we were able to gather very 
valuable things. Like, we had one team who their practice 
facility was maybe about 25 minutes from campus and when they 
got back in the evening, they weren't able to get the kind of 
quality dinner because a lot of the students had already been 
in there and things were picked over. And we were able to 
extend that time for their meals for an hour so that those 
student-athletes could eat.
    We also had football players who were practicing in the 
afternoon, some of them in pre-med. And some of the courses 
they were taking were right up against their practice. We were 
able to get that football coach to take those practices in the 
morning when 97 percent of the classes that the kids were 
taking were there. So that was very valuable input right from 
the center of our universe, the student-athletes.
    Senator Thune. My time has expired, Mr. Chairman, but from 
the athletic director's standpoint, what role do you see the AD 
and the universities playing? Some of these things you can go 
above and beyond what the NCAA requires; correct?
    Mr. Bradshaw. Yes.
    Senator Thune. There is a lot of flexibility that's allowed 
at the member institutions to make decisions that are in the 
best interests of their student-athletes.
    Mr. Bradshaw. And we should.
    We have the responsibility and its institutional control. 
It's not only the Chairman of the Board or Trustees but the 
President and Athletic Director should all be onboard and have 
similar philosophies and missions and principles about how that 
works. And in concert with all those people because sometimes 
you need funds to do the things that you need to do and you 
need support from the Board and the President.
    So it's very important that all of us work together to do 
that because we're out recruiting other student-athletes and 
that's a brand we call ``Athletics, the front porch of the 
university.'' It might not be the most important thing you see 
when you drive by but it's the most visible messenger of the 
brand of the university.
    Senator Thune. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Thune.
    Senator Coats.

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Mr. Chairman, thank you.
    Dr. Emmert, thank you for being willing to testify here. I 
know you didn't have to do this and I think it's been very 
constructive to hear the reforms that you have initiated and 
those that you hope to initiate. And it sounds like there are 
some real positive things that are happening relative to the 
issues that, as you have acknowledged, are challenges for the 
NCAA, and challenges for the universities and challenges for 
our Committee.
    Mr. Chairman, I want to thank you for following through on 
your commitment to me and to others that, you know, we're going 
to have a good, solid, non-theatrical investigation and 
committee process here. Because, I think we're all on the same 
page in terms of how can we best preserve the student-athlete 
and best provide for them. How do we address some of the 
challenges that we're facing today with the revenues and so 
forth. And I think this is a very constructive effort that 
we're undertaking here. And I thank you for pulling all that 
together.
    Here's what I'm hearing and I'm leading to a question here. 
But, I'm hearing from our witnesses that there are many 
positive things happening and many positive results coming from 
being a student-athlete. Opportunities are available to many 
athletes that otherwise would not have been able to get a 
college experience and a college degree in the education 
process.
    The list of reforms that Dr. Emmert has basically said 
these are his proposals, and I think it goes right to what we 
are trying to accomplish here: Scholarship for life; the full 
and actual cost of attendance payment; leading and taking the 
lead in areas of health and safety; addressing the sexual 
assault issue which goes across all aspects of the college 
experience, it's not limited to just athletics; medical 
insurance, dealing with those questions; academic priorities, 
we talked about the time issue; and support for Title IX.
    I mean, it has been remarkable what has happened under 
Title IX in terms of the number of women that are able to 
participate in athletics, games, scholarships. Many of those 
also would not have perhaps had a chance with scholarship help 
and support. The vast majority of schools that, whether 
Division II or Division III or not in the top 65, and that 
offer all these opportunities. It's something we want to 
preserve, it's something we want to improve.
    I think we have a President of the NCAA who is a reformer, 
who is known for that. That's why he was hired. He has taken 
steps already, and willing to take significant steps forward.
    Now, obviously, it goes to this question, Dr. Emmert, of 
the 65 largest schools. I was encouraged about your response to 
the Chairman's question relative to their interest in 
addressing these issues. Now, it's one thing to say that they 
are willing to do it, it's another thing to do it. So we wish 
you success but we understand that it's--you're the proposer. 
You're the initiator but they're the decision makers.
    And so, I hope, Mr. Chairman, that over some period of 
time, hopefully relatively soon, we can get a positive result 
from that effort. Because, I think that's really where these 
major issues fall.
    But Dr. Emmert, would you just give us one more shot at the 
ability to address what I think goes to the root of the 
problem, but also to the root of the solution. And that is that 
the top 65 schools, which are the revenue generators, we don't 
want to jeopardize the other 1,000 or so that aren't, and put 
them in a situation where they won't be able to fulfill Title 
IX or they won't be able to fulfill the level of sports that 
get so many young people the opportunities to participate and 
get a college education at the same time.
    Dr. Emmert. Yes, Mr. Chairman and Senator Coats. I think 
you're asking one of the, well, two of the most important 
questions.
    And first, is a recognition that 100 years ago when the 
NCAA was created it was, as Mr. Branch pointed out, created 
with some impetus from the White House and Congress because of 
all the challenges in college sports. And at that time, it was 
determined that college sports should be appropriately self-
governed; that the universities themselves were capable of 
providing the right kind of structure and governance and 
oversight to make college sports work effectively for young men 
and young women. And we're at a point now where we're going to 
see, yet again, whether or not that self-governance system 
still works. I have confidence because I know most of these 
presidents as colleagues and I know their interests and their 
considerations and concerns and that provides a mood of 
confidence that they want to move forward on the agendas that I 
described, plus more, in the coming weeks and months.
    Now, I think, Mr. Chairman, this hearing is a useful cattle 
prod, if you will, to make sure that everyone understands that 
the world is watching. The U.S. Senate is watching and everyone 
is paying attention to what universities are going to do to 
address these very real and significant issues. I think all of 
those things, combined, give me some very positive belief that 
we're going to wind up in the right place in a matter of 
months. Now, if we're not, then we have another conversation, 
I'm sure. And I have no doubt, sir, that you or your successors 
will make sure that we have that conversation. But I have no 
concerns about this body or any other trying to hold 
universities accountable for the things that they need to, and 
should be, doing.
    Senator Coats. Thank you, Mr. Chairman. My time has 
expired.
    Senator Klobuchar. Mr. Chairman, I wanted to note for the 
record that Senator Coats, out in the hallway, found out he 
just had his tenth grandchild.
    [Laughter.]
    Senator Klobuchar. Just for the record.
    Senator McCaskill. And I heard he cried----
    [Laughter.]
    Senator Klobuchar. Oh, I didn't tell her that.
    [Laughter.]
    Senator Coats. I had to leave. I cried----
    Senator McCaskill. We love that.
    Senator Coats. It's as meaningful as number one.
    The Chairman. You don't get to meet, you know, some kind of 
a----
    Senator McCaskill. A guy who cries over his grandchildren 
is very cool.
    Senator Klobchar. We like that.
    Senator Coats. That's a good thing.
    Senator Klobuchar. Thank you.
    Senator Coats. I agree.
    The Chairman. It's another form of cartel.
    [Laughter.]
    The Chairman. Senator Heller, to be followed by----

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Mr. Chairman. I hope this 
doesn't get you in trouble also, calling on me next. But I have 
a couple things for the record.
    First, I'd like to submit an opening statement. Your staff 
has that.
    The Chairman. So ordered.
    [The opening statement follows:]

    Prepared Statement of Hon. Dean Heller, U.S. Senator from Nevada
    Thank you, Chairman Rockefeller.
    I appreciate the hearing today on the welfare of student athletes. 
It is important to have a better understanding of the academic and 
athletic benefits that are acceptable and unacceptable for schools to 
offer to student athletes and whether the NCAA can handle the 
responsibility entrusted to it by the Presidents of the participating 
Universities to fairly enforce that standard.
    I am a sports fan. Have been my whole life. I have always enjoyed 
college sports because it was about the school on the front of the 
jersey and not the name on the back.
    I strongly believe that for many student athletes, the 
accessibility and affordability of a world class education at a 4 year 
University that a scholarship offers is life changing.
    In fact, on the whole, I believe many student athletes would say 
they have had a good experience.
    Most people see their sports careers end at high school, these 
talented students get to continue to compete on next level in many 
sports that actually cost the University to compete.
    So there is no doubt that the opportunity to gain access to a World 
Class University because of your athletic talent is a ticket to a 
better future and as we discuss this issue today, I want the Committee 
to remember that.
    Now, with that being said;
    Billions of dollars are coming in from television contracts for 
college football and basketball. College sports fans are more invested 
than ever in the outcome of their alma mater or adopted team. Millions 
of dollars from merchandise, tickets, and even video games have turned 
an amateur sports performance into a lucrative money making machine for 
some Universities.
    These developments have ignited a debate amongst many sports fans 
watching in their homes, at a friend's house, or in person. With so 
much money coming in to the Universities' coffers, should more be 
allowable for the student-athletes, some of whom are the reason money 
is flooding in, in the first place?
    Can this be done while still ensuring amateur competition is a fair 
playing field. If one school was allowed to offer lucrative packages 
for student athletes or their parents such as, money or a vacation or a 
home, I think it would be unfair to the schools that could not or would 
not offer that.
    Schools offering more incentives would attract more talent and 
would theoretically, win more often. Those wins would translate into 
more money for that University. Either from a larger fan following, 
larger payouts from big games or higher numbers of applicants who want 
to study at a school with a winning sports program and larger exposure.
    Given that logic the University Presidents (who run the NCAA) 
should espouse a belief that there must be some level of fairness, that 
college athletics is not professional sports and there must be 
restrictions on what every student athlete can receive from the school 
they attend and from the community they live in.
    But that is not to say there are not additional benefits both in 
academic and athletic support. For example, athletes at many 
Universities have access to tutors who will provide individual time 
with an athlete that many in the general student body do not have 
access to. Athletes also have access to weight rooms, world-class 
athletic facilities that can be incredibly state of the art, and 
outfitted with training staff.
    These benefits help the student athlete in the classroom.
    But, many of these benefits also enhance a student athlete's 
performance so they can be best prepared to represent their school on 
the playing field, so that they can better perform for the University 
to generate additional revenue.
    So we aren't debating whether student athletes get additional 
benefits. They do.
    But what we are seeing is that in the case of some athletes, the 
NCAA raises the bar of what is ok and lowers the bar in others. 
Sometimes the NCAA completely misses the mark.
    Colgate freshman Nathan Harries was denied a year of eligibility 
for playing three games in an unsanctioned church league. Harries spent 
two years on a Mormon mission in Raleigh, NC. Upon his return home, he 
played three games in a league at Dunwoody Baptist Church. Apparently, 
that violated an NCAA rule that stipulates that athletes who do not 
enroll immediately after graduating from high school will be penalized 
one year of eligibility for every academic year they participate in 
organized competition (which includes an official score and referees). 
Colgate asked for a waiver, which was denied, and appealed the 
decision.
    Steven Rhodes served his country for 5 years as a United States 
Marine. Post-service, the 24-year-old enrolled at Middle Tennessee 
University and joined the football team as a walk-on. The NCAA decided 
that Steven wasn't eligible to play the 2013 season because he 
participated in a military-only recreational league in 2012. Even 
though it was a loosely-run league that sometimes went six weeks 
between games, the NCAA said that because the teams kept score and 
there were uniforms and referees, the league counts as ``organized 
competition.''
    On April 7 of this year, Shabazz Napier went on national television 
and declared that some nights he goes hungry because he is not able to 
eat. He was the star of March Madness which CBS paid 681 million to 
broadcast.
    Every one of these situations were later revisited and fixed in one 
way or another.
    In November 2013, a subcommittee was scheduled to hear the appeal 
from Colgate, but an NCAA official contacted the school Thursday after 
various media reports detailing Harries' case. The NCAA conducted a 
brief interview with Harries and immediately called back with news it 
had reversed its decision.
    In August 2013, the NCAA reversed its decision on Steven Rhodes, 
immediately granting permission to Rhodes to play and maintaining his 
eligibility for 5 years.
    On April 15, in response to Mr. Napier, the NCAA announced athletes 
can now get unlimited meals from their universities.
    I am happy these issues were resolved but I hope it is understood 
that when you get it wrong so often you lose credibility.
    When the NCAA losses credibility, student athletes are at risk and 
if these athletes are at risk, why keep the NCAA around at all.
    This leads me to my point, the University Presidents run the NCAA. 
The NCAA cannot do much without their approval. Why not push this back 
onto the individual Presidents of each University? Why can't they 
ensure that a student athlete is getting the education they were 
promised and the integrity of the game they are playing is be preserved 
so that all schools have a fair shot at competing.
    Mr. Emmert, go to your board and demand change.
    Tell them that the inability to adapt to the challenges of billion 
dollar TV contracts, academic fraud charges and additional publicity on 
every sanction decision the NCAA makes is why you find yourself before 
us today asking you whether the NCAA can do its job of protecting the 
welfare of the student-athlete.
    Thank you, Mr. Chairman.

    Senator Heller. And second, also for the record, as a USC 
alum who spoke with Pat Haden just before this hearing, I'm 
pretty sure that we usually watch the Trojans beat Notre Dame 
on NBC or ABC and not on ESPN.
    Sorry, Mr. Branch.
    [Laughter.]
    Senator Heller. No, that's Stanford. I wish I could say 
that.
    Having said that to you, Dr. Emmert, I have a couple 
questions. The points that you brought up on what you are 
trying to achieve I think are more weaknesses today than they 
are strengths. If you have to talk about students having 
scholarships for life, today you don't have them, and I think 
that's a weakness. If you have to talk about men and women, 
having full and actual coverage of their costs while they're in 
college, it's a weakness because it's something that you don't 
have today. If you're talking about leading in the area of 
safety, you're not doing it today. If the NCAA is talking about 
taking the lead in sexual assault, then they are not doing it 
today. If you're talking about gaps in insurance coverage, it 
means it's not happening today. We can go on and on. Managing 
time and demands on these men and women that are in school, 
means it is not happening today.
    And I'll share with you, every once in a while the Chairman 
and I agree on something. I call that lightening in a bottle.
    The Chairman. Careful.
    Senator Heller. Maybe the stars are aligning. I'm not sure 
on this one. Needless to say, I agree with him. And that is 
that we do have jurisdiction here, in this Congress, over the 
NCAA.
    So, my question to you is this: if tomorrow there was a 
bill in front of the U.S. Senate that would disband the NCAA, 
for all their discussions in hearings and witnesses that spoke 
today, give me reasons why I shouldn't vote for that bill.
    Dr. Emmert. Well, I am happy to.
    The fact is that, first of all, we've been focused already 
in this brief period of time on the things that aren't 
happening. But the reality also is that an enormous amount of 
very, very good things are happening----
    Senator Heller. Good. I want hear those.
    Dr. Emmert.--that we have talked about. So when we focus on 
the issues of college sports, the vast majority of them, as 
many of you have noted, the vast majority of those issues are 
really focused on men's basketball and football as it's played 
in the top handful of institutions. If you look at BCS football 
and men's basketball, you are looking at less than 5 percent of 
all of intercollegiate athletics. You're missing 95 percent of 
intercollegiate athletics. For that other 95 percent, there are 
very few of those challenges or problems that are occurring. 
Indeed, it is serving.
    I'm not very good at math in my head, but if it's 95 
percent of 460,000 students, let's just say it's 450,000 
students or 425,000 students for whom this is working amazingly 
well. They are graduating at a higher rate than the rest of the 
student body on their campuses, they're graduating at a higher 
rate than the rest of the students in the United States. Yes, 
we can in fact have a very good learning discussion about how 
we measure graduation rates. But if you use the Federal 
graduation rate, student-athletes in Division I graduated 1 
percent higher than non-athletes on all of our campuses across 
America.
    If you look at men's and women's basketball, if you look at 
football, the graduation rates, as Mr. Bradshaw pointed out, 
have been steadily growing for more than 15 years now; each and 
every year. If you look at African-American men, the African-
American men on any given campus, have a 9 percent higher 
probability of graduating if they happen to be an athlete than 
if they're not an athlete.
    The fact is student-athletes make very good students. Yes, 
there are many issues, and our two former athletes here, I 
think, have pointed out very nicely the issues that need to be 
addressed. But, for the vast majority of students, being an 
athlete also goes along with being a better student and more 
likely to graduate. And also, we believe, though the data is 
not well done, and I just learned from Dr. Southall that he's 
working on a study that I think will be very useful, we believe 
that there's good reason to believe that they are more 
successful in life as well, overall.
    So one of the things that we all need to work on together 
is to make sure that we don't throw the baby out with the 
bathwater here. Intercollegiate athletics, as you pointed out, 
Mr. Rockefeller, is a wonderful part of our society and 
provides extraordinary opportunities for the vast majority of 
student-athletes. I focused my comments on the things that I'd 
like to see fixed. You just elaborated on them. That should not 
be interpreted as everything is wrong in college sports. 
Indeed, even if you look at scholarships, in fact, no one is 
giving a guaranteed four, no one. Most schools are not giving 
guaranteed 4-year commitments. But, USC has just committed to 
do that. University of Indiana has just committed to do that. A 
handful of others are looking at it right now----
    Senator Heller. But wasn't that----
    Dr. Emmert.--but the reality is is that almost no student 
ever loses his or her scholarship.
    Senator Heller. But wasn't that prohibited by the NCAA?
    Dr. Emmert. It was.
    Senator Heller. When did that change?
    Dr. Emmert. That's one of the things that I think will 
occur in the coming months.
    Senator Heller. In other words, schools did offer four-year 
scholarships until the NCAA prohibited it.
    Dr. Emmert. They did and I have no idea why that was put 
into the rules. I have my own notions, but I have no idea--I 
don't even know when that occurred but a number of years ago.
    Bill, do you know when that occurred?
    Mr. Southall. 1974.
    Dr. Emmert. 1974
    Mr. Bradshaw. 1973.
    Dr. Emmert. 1973.
    Senator Heller. And no reason as to why?
    Dr. Emmert. Bill, do you know why?
    Mr. Bradshaw. I really don't know, really don't know.
    Dr. Emmert. None of us was in the room.
    Mr. Bradshaw. In recruiting, it's not a very good idea not 
to give multi-year scholarships.
    Senator Booker. I trust the historian. I'd love to hear 
what Taylor Branch----
    Senator Heller. I would. I'd like to hear this, yes.
    Mr. Branch. The historical record on that was that it was 
driven by the coaches at the biggest universities, precisely 
the 65 biggest schools, because they wanted more control over 
their athletes; they're driven to win. You have a better chance 
of winning if you control the athlete and what time he gets up 
and how much time he spends in the weight room, and so on and 
so forth. And if you can yank their scholarship, then you got 
more control over them.
    Senator Coats. But you can't do that anymore; right?
    Senator McCaskill. Yes, you can.
    Mr. Branch. Yes, you can.
    Senator Coats. You can't control the time----
    Mr. Branch. The NCAA, in 1973, at the behest of the big 
school athletic departments and coaches put in a rule that you 
could not offer more than a 1-year scholarship. In other words, 
guaranteeing the coaches that control over the athletes. And 
that survived for 40 years. Now, what they're trying to do is 
to repeal that law so that you could, at your option, offer 
more.
    Dr. Emmert. Excuse me, for interrupting. It has, in fact, 
been repealed. It's one of the first things that I insisted on.
    Mr. Branch. But it lasted for 40 years at the behest of the 
same 65 schools that are now proposing to do these reforms that 
you're talking about. And I think they're good, but it's 
because they can afford them and because the gap between the 
level of money involved and the needs of these athletes has 
gone so obscene that they want to do it on their own and they 
can afford to do it.
    Senator Booker. If Senator Heller would allow me because 
this is such an important point. It has not changed. A coach, 
at any time, can revoke a student-athlete's scholarship so that 
that student is no longer able to stay at a university.
    Dr. Emmert, that's true right now; right?
    Dr. Emmert. It's variable.
    So, starting last year, schools--two years ago. Pardon me. 
Schools were provided the option. In other words, the 
prohibition was repealed so that a school today can offer a 
multi-year scholarship, and many do.
    As I just mentioned, the University of Southern California 
and Indiana, for example, have recently announced that that is 
precisely what they are going to do is offer full 4-year 
scholarships. Many schools in the Big 10 have been doing so 
since this prohibition was lifted. I don't know the extent to 
which it----
    Senator Booker. But it is not uniform?
    Dr. Emmert. But it is most certainly not uniform----
    Senator Booker. And it's not even the majority of schools.
    Dr. Emmert. I believe that it's not----
    The Chairman. Senator Booker----
    Dr. Emmert.--not close to the majority.
    The Chairman.--your turn will come.
    [Laughter.]
    Senator McCaskill. Do we need to remind him that he is 
junior on this committee?
    [Laughter.]
    Senator McCaskill. I think somehow he forgot about this 
thing.
    The Chairman. And now we're calling on Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you.
    I would like to offer into the record the roll call of the 
institutions who voted to reestablish the one-year rule. After 
it was voted in, in 2011, that you could have the option of 
giving a four-year scholarship, the very next meeting there was 
an attempt to overrule that decision. They needed a two-thirds 
vote to overrule the decision to go back to the one-year 
requirement. I think it would be very interesting for the 
members of this committee to look at the institutions that 
voted to go back to a one-year requirement in 2012. They need 
62 and a half percent. They got 62.12 to go back to the one-
year. And I think you'll be surprised. It's counterintuitive. 
Some of the institutions that voted to go back to the one-year, 
like Harvard voted to go back to one-year; Yale was strong, 
they abstained. We had institutions like Texas, all wanted to 
go back to one-year, but then there were smaller schools that 
wanted to go back to one year.
    Senator Thune. What did Missouri do?
    Senator McCaskill. One Missouri school did, but the 
University of Missouri did not. And I was willing to offer this 
into the record and I was nervous when I got this because I was 
afraid that my university might have voted to go back to one-
year. But it's very telling that in 2012--Now I guess my 
question to you, Dr. Emmert, is why wasn't this made public at 
the time? Because, I think most of these universities would be 
embarrassed if they were publicly called out that they were 
unwilling to give a four-year scholarship to an athlete. So why 
did it take a request from Congress for this roll call for this 
to ever reach the light of day? And I would ask this list to 
made part of the public record.
    The Chairman. So ordered.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  

    Dr. Emmert. Well, the data was made available to all of the 
memberships. So----
    Senator McCaskill. I'm talking about to the public. Why 
didn't you put it on your website?
    Dr. Emmert. I'm not debating the fact. I just don't simply 
know whether it was not put on the website. The debate was very 
public. It was, obviously, a very disputed case. It's a very 
interesting debate. I was quite stunned by some of the 
argumentation.
    So we have the--and one of the things I didn't mention are 
about changes that I anticipate in the coming weeks. Mr. Branch 
pointed out something that's part of the Olympic movement, 
Olympic tradition now, that, in the United States, Olympic 
athletes have to have a substantial vote and voice in all of 
the deliberations of the Olympic bodies. I certainly advocate 
for a model much like that and, indeed, the proposal that's 
going to be voted on later, in August, will include a full 
representation of students as voting members alongside the 
presidents and athletic directors on all of the legislative 
bodies.
    But, we currently do have student-athlete advisory 
committees that we turn to on all of these issues----
    Senator McCaskill. Dr. Emmert, that's all great.
    Dr. Emmert. No, but if I might, ma'am. The student-athlete 
advisory committee advised against putting in multi-year 
scholarships because they happened to agree with coaches that 
it was a good incentive for their colleagues to remain engaged. 
So some universities voted to overturn this because their very 
own student-athlete advisory committee said, ``No, no, no, no, 
don't give multi-year scholarships. We like 1-year 
scholarships.''
    My point is simply, ma'am, it was quite counterintuitive on 
many levels. And I was quite appalled by----
    Senator McCaskill. OK. Fair enough.
    I would like to talk to those students because I think they 
probably felt pressure from coaches if they were all student-
athletes. I have a hard time imagining that any student thinks 
it's in their best interest to get a 1-year scholarship rather 
than a 4-year scholarship.
    I'd like to get to handling rape accusations.
    Dr. Emmert. Yes, ma'am.
    Senator McCaskill. In one of the responses to one of the 
letters I sent you, you indicated that you provide an online 
Title IX legal and best practices material and video classes.
    My question is: In that material, do you make the 
recommendation to your institutions that they not be allowed to 
handle the adjudication of Title IX complaints involving sexual 
assault against student-athletes?
    Dr. Emmert. I don't know the answer to that.
    Senator McCaskill. Well, we've done a survey and the 
results came out today. And I was shocked to find out 30 
percent of the Division I, II, and III schools allow their 
athletic departments to handle the allegations against their 
athletes. Now, we have a big problem with victims being willing 
to come forward.
    And I assume you've read the long cover story about the 
investigation that did not occur with Mr. Winston at Florida 
State?
    Dr. Emmert. I have.
    Senator McCaskill. That there was no investigation of that 
allegation. We will never know whether he was guilty or not 
because nobody ever investigated it because of who he was.
    If you're a victim and you know your allegation is going to 
be handled by the athletic department as opposed to any other 
student on campus who is handled in a different system, why in 
the world would you think the process was going to be fair?
    Dr. Emmert. I read your data this morning and I was equally 
surprised and dismayed by that fact.
    I think the concern you're raising is spot on. I think it 
creates, first of all, an enormous amount of conflicts of 
interest. I think it creates the kind of enormous apprehension 
you're describing right now on the part of a victim. As 
somebody who has spent most of his life on campus and, in 
several jobs, had responsibilities for campus safety. Whenever 
I was a president, I had to deal with victims and family 
members of victims and people who had suffered egregious harm. 
And I always found it the most difficult problem that I'd ever 
wrestled with. I think this is something that needs to be 
addressed. I think your data is shining a very important light 
on a phenomenon that I think most of the members are going to 
be very surprised to know exists.
    Senator McCaskill. Well, I think that, my sense, and I have 
a lot of questions about transparency of money and about 
whether or not things are made public. I feel for you, because 
part of me thinks you're captured by those that you're supposed 
to regulate but then you're supposed to regulate those that 
you're captured by. And I can't tell whether you're in charge 
or whether you're a minion to them.
    The notion that you can't forcefully state ``I will go 
after this and I will make sure that no university allows their 
athletic department to handle a sexual allegation against one 
of their team members,'' you know, I don't sense that you feel 
like you have any control over this situation. And if you have 
no control, if you're literally a monetary pass-through, why 
should you even exist?
    Dr. Emmert. Well, I think the reality is that the issue 
we're talking about here, I don't have a vote on and I don't 
get to set those policies. I can certainly set the tone on it 
and I can certainly be someone who voices a very loud opinion 
and say, ``This is not right. This is inappropriate. These are 
the conflicts that exist when you have a policy and a practice 
like this on your campus.''
    When I first took this job, the very first summit I held in 
Indianapolis was a summit on sexual violence. It was a summit 
that led to the creation of a working group of experts and not 
college athletic folks but of experts from across the country 
to create a working group and a think tank. We're going to be 
issuing the results of their work this summer as a workbook and 
a guide to best practices.
    I'm now, thanks to your work, going to go in and make sure 
that this issue is addressed in that handbook. And I'm going to 
talk to the leadership at our very next meeting in August, 
about the fact that this is really inappropriate and we need to 
find ways to make sure that athletic departments are not the 
ones who are responsible for adjudication of these issues 
because of all the obvious concerns that you raise.
    Senator McCaskill. Thank you.
    Dr. Emmert. I couldn't agree more.
    Senator McCaskill. Thank you. I'm over my time and I'll try 
to come back. I hope somebody else covers the questions about 
young people from families that can't afford to even travel to 
see their children play in the games.
    Dr. Emmert. Yes.
    Senator McCaskill. Because, meanwhile, the universities are 
making gazillion dollars off their children but their parents 
can't even get a stipend to attend the game to watch their 
child play. There's something wrong with that scenario. And 
it's going on on college campuses across this country every 
single week.
    Dr. Emmert. I agree with you.
    The Chairman. Thank you.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. I thank you very much, Mr. Chairman.
    And I just want to start with one of my favorite stories of 
the year; was the coach, the coach, is the coach for the 
University of Minnesota football team, Coach Kill, who has 
epilepsy. And, as you know, Dr. Emmert, he had a number of 
seizures during games, during stressful moments in games. And 
the University of Minnesota president decided we're not going 
to get rid of him, we're keeping him on. Our record has been a 
little rocky, the Gophers. But they kept Coach Kill on. He had 
to coach from a box. He couldn't coach on the field because of 
his condition. And during the entire season, he coached from a 
box. And I was there when we beat Nebraska with him in a box. 
It was a great moment.
    And it was a great story, but it does make me think, as I 
hear all of this, that that kind of compassion, what was so 
captivating about that story, was that it kind of defied what 
had become of so many of these big sports games and the kind of 
cutthroat competition and how people were treated.
    And so, I think what you're hearing up here today is the 
hope that these are deliverables. These are things that can 
happen. When you talk about changing the sexual assault policy, 
making sure the players have the healthcare insurance, making 
sure that they have the time to do these internships; these 
aren't like crazy hard things to do. I think they're possible 
things to do.
    And so, what I want more than anything, as I listen to all 
this, is that we commit. And I know the Chairman will be 
retired, but he will be here, I'm sure, for this. That we have 
another hearing whether it's 6 months from now or a year from 
now to check up on what's happening with these things. Because, 
these are things that we don't have to pass a law to change, 
when I listen to some of these commitments and the 
possibilities.
    And I wanted to go with one of the things, and that is what 
we haven't talked about as much. And that is the issue of the 
concussions. We've had several players, whether they are at the 
high school level or at the college level. And I know Senator 
Tom Udall, I've cosponsored his bill and we've had hearings on 
this specific topic already. But I understand that there is 
some work being done here. I know there's a lawsuit that's 
going on but I wondered if you could comment, Dr. Emmert, and 
then I'll ask you, Mr. Rolle, with your medical focus here; 
just your opinion of it. But if you could talk about what's 
being done with this issue because I think it's a very 
important issue for all levels of sports.
    Dr. Emmert. I think it's a critical issue and it's most 
heavily identified with football, of course, but it's also the 
leading cause of concussions for young women in soccer, for 
example. And it occurs in virtually every sport.
    There are a number of things going on. I'll be as quick as 
I can. First of all, as I mentioned in my opening comments, 
when I first came into the office, I was a bit surprised to 
find there wasn't a chief medical officer position in the NCAA. 
So I created that job and we went out and we hired a wonderful 
doctor, Brian Hainline, who is a neurologist. He has been 
working unbelievably hard to pull together, first of all, a 
best science.
    One of the big problems is we don't have good science on 
concussions. It is not as well understood as we all might 
think. And so, once they've done that, just this past handful 
of days, they released the first ever consensus among all the 
medical community on the treatment and the prevention of 
concussions, especially around football, and new football 
practice guidelines around contact and a variety of other 
things. We also signed with the Department of Defense, about 2 
months ago, an agreement to do a $30 million project. We're 
putting up $15 million, DOD is putting up $15 million, first of 
its kind ever to track longitudinally, young men and women and 
try and get a legitimate history of the occurrence of and a 
treatment of concussions so that we understand it better. We're 
working with all of the youth sports organizations to try and 
get better practice guidelines, working with the NFL on their 
Heads UP program to try and get coaches, especially in 
football, coaches trying to teach young men and boys how to 
tackle properly.
    But we have the same issue with soccer. So there are some 
soccer coaches, girls' soccer coaches, that are saying now we 
need to ban any heading until girls and boys are at least 12 
years of age. And so, we're looking at trying to lend our 
support to those kind of efforts. We're making, pardon the pun, 
headway but the facts are we need a lot better understanding of 
this disorder and how we can prevent it. I'm pleased with where 
we are and I'm proud.
    Senator Klobuchar. Mr. Rolle?
    Mr. Rolle. Well, part of the reason, actually, why I 
stopped playing in the NFL to pursue medicine and go into a 
particular specialty of neurosurgery was because a lot of my 
teammates having early onset dementia or traumatic brain injury 
or some of these chronic traumatic encephalopathies, things 
that you often associate with several concussive episodes. I 
saw it in the NFL, I saw it in college. And now, as an aspiring 
neurosurgeon, I would love to add expertise to that discussion.
    But I think at the collegiate level, one thing that I 
noticed in the locker rooms were a lot of my teammates, a lot 
of fellow athletes of mine, you know, we want to be fast; 
right? We want to be quick. We want to be nimble. We want to be 
agile. And so, the protective equipment that we wear, a lot of 
the guys choose and select equipment that's lighter and maybe 
not as protective. And so, that might lead to more concussive 
episodes.
    I think education, as Dr. Emmert said, is incredible 
important. We do have some athletic trainers and doctors that 
come and speak to us as collegiate athletes and talk to us 
about the dangers of concussion, but if you are concussed as a 
player, sometimes you feel pressured and forced to get back on 
the field as quickly as possible. And then, if you have a risk 
of getting a second concussion, you're likelihood of getting a 
third and a fourth, a fifth, goes up exponentially actually.
    And so, the pressures and stresses of trying to be on the 
field, trying to compete, not losing your position all at the 
same time, as Devon said earlier, if you're not on the field 
and if the coaches can't see you, you're not exposed, then you 
perhaps lose your opportunity of getting drafted high and 
getting to your next level. And so, there are a lot of 
different issues that go on.
    I think one way to address this issue along with education 
is just to, perhaps, change the culture, change the focus, of 
big collision, high velocity hits in the sport of football, and 
the idea that that is a part of the game. It is not a part of 
the game, actually. If you look at the rulebook, it's just to 
take a player to the ground, similar to how a rugby is 
performed, but you see all the highlights and all the exposure 
on these big, high velocity hits where guys are spearing into 
another player and that's what gets highlighted, that's what 
gets celebrated. And I think that's a wrong path.
    And so, as I said, hopefully in a few years or so, I can 
add more knowledge to this discussion. But, from my anecdotal 
knowledge, it is an issue that's not only in the NFL but also 
in college and even before that; high school and primary 
football, as well.
    Senator Klobuchar. OK. Well, thank you.
    And I'll ask the questions on the record about the 
internships of you, Mr. Ramsay, because I just thought that was 
really fascinating when you look at the numbers that Dr. Emmert 
gave us on what a small proportion of the student-athletes end 
up going into pro-sports. That's most likely not going to be 
their career. And they have to have that ability to pursue. And 
if it's supposed to be 20 hours than we have to find some way 
to measure that and enforce it so that it's across-the-board. 
And that's one of the things I'm very interested in hearing the 
follow-up in a year. And I thank you for bringing that to our 
attention.
    Thank you.
    And it also says to go down, as we discussed, Dr. Emmert, 
yesterday, to the high school level and so that we put some of 
this in perspective. And I do think there are ways to change 
cultures. We've changed cultures in this country before and 
still have great sports games.
    Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Nelson, I want to say something about you.
    To me, this hearing so far has been a lot of talk about a 
lot of things which have been around for an awfully long time, 
which we all think should be solved. But they're not solved, 
and I think there are very clear reasons for it and that 
decisionmaking reason is very flawed, fragile and useless.
    Florida, which has--everybody recruits from Florida. They 
have a law which you would know, Senator Blumenthal, that 
transparency, how money is spent, has to be made public because 
they have a law. And so, you know, when the contributions and 
the NCAA comes in and only a small portion goes to education 
and all kinds of things go to the stadium, that's all available 
to the public.
    And so, I commend them for coming from a state like that. 
And I just think that's the path for so many answers which we 
just otherwise seem to be unwilling to deal with. Excuse me.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, thank you Mr. Chairman.
    I think a lot has come out of this committee hearing that 
should enable and help Dr. Emmert to continue with the reforms 
that he's trying. Now, so much has been said about so many of 
these issues. Let me just highlight a couple.
    I happen to know because I was mesmerized with Mr. Rolle as 
a player at Florida State. And for him to do his interview for 
the Rhodes Scholarship, which was in the South on a Saturday, 
his president, T.K. Wetherell, had to get special dispensation 
so that they could get someone to donate a private jet for him 
that could fly him somewhere in the Northeast when Florida 
State was playing up here. And, even so, he made it only in the 
second half. But, the emphasis, you know, that's something 
that's so common sense that you would want a player to 
interview for the Rhodes, and yet it was a big deal. And it 
shouldn't have been.
    The fact of so many of these players are coming from 
families that are dirt poor, and they don't have the 
opportunities that others do. It seems to me it's common sense. 
We ought to have stipends or scholarships, whatever you want to 
call it, so it equalizes the playing field of the financial 
ability if those student-athletes are contributing to the 
financial well-being of that university.
    So, too, with health insurance. That ought to be common 
sense. If a player is hurt and that's a career-ending injury, 
the best of medical care ought to be given to that player. And 
for it to last for some period of time in the future. And, of 
course, concussions just to add another whole dimension to this 
thing. I thought it was very interesting, in another committee 
that I have the privilege of chairing, we did a hearing on 
concussions including professional athletes, went down the line 
on the table and they would not recommend to their children 
that they play football.
    So times are changing. And the NCAA has got to get with the 
times and so, whatever this committee hearing has done to 
enable you, as a reformer, to get those schools to give you the 
votes that you need to do a lot of these things that we're 
talking about; the family travel. Why should they have to sneak 
around in the shadows in order to get money to be able to buy a 
ticket to come to the game and where to stay in a hotel and so 
forth? I mean, it just defies common sense.
    Mr. Rolle, do you want to make any final comment?
    Mr. Rolle. Sure.
    One thing that I'd like to say is that when you think about 
the four-year scholarship discussion and the one-year 
renewable, a lot of players that I was on teams with, it kind 
of felt like it was us versus them. You know, it wasn't a team. 
We didn't kind of feel like the NCAA was protecting our best 
interesting; was looking out for us wanting, to see us succeed 
and thrive and flourish--it was almost as if we had to do 
everything we could to promote ourself and to better ourself 
against this big machine that was dictating and ordering the 
steps that we took. And maybe that's not true. Maybe there's 
some miscommunication. Maybe the information was getting 
disseminated to the student-athletes on the field well enough. 
But that's kind of how we felt.
    And I think another thing is quite bothersome today, going 
back to the economic issue and economic struggles, a lot of my 
teammates, as you know Senator Nelson, I mean, come from poor 
areas in Florida and they come to Florida State as the first 
person in their family to be a college student. And they don't 
have a lot of money to lean back on from their families. So 
that leaves them open and susceptible to some unsavory things.
    I mean, there are agents, NFL runners, who would come to 
our dorms and knock on our doors and say, ``Hey, I can take you 
out to a night club; I can buy you a meal; I can give you a 
suit to wear; I can take you and your girlfriend out to eat.'' 
And then, these players accept it because they don't have much 
else and then they become ineligible. Then they don't have any 
opportunity for financial gain in the future by going to the 
NFL because now, they have a black mark or they just don't play 
anymore. So then, they end up back in Liberty City, Miami or 
Polk County, Florida, and that typical perpetuity continues. 
And it's frustrating and discouraging and I saw it often.
    Senator Nelson. That is the exact example that we need to 
use.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Isn't it not Senator Cory Booker in attendance today? It's 
his turn to ask a question.
    [Laughter.]
    The Chairman. Finally. I apologize.
    Senator Booker. No, sir. I----
    The Chairman. Look, you could have run for the Senate ten 
years ago.
    [Laughter.]
    Senator Booker. I don't want to be disrespectful to Senator 
Blumenthal who I think was here before me, earlier.
    Would you like to--no?
    Senator Blumenthal. I will ask my questions now only 
because I have to preside, and if you would yield for five 
minutes, I would really appreciate it.
    Senator Booker. I've already been put in my place once. 
You're more senior than me. I will yield, sir.
    Senator Blumenthal. Yes, but you're bigger than I am. So--
--
    [Laughter.]

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Let me thank you, Mr. Chairman, for 
having this hearing, which very sincerely is, I think, a very 
important one, very significant, for the future of academic 
institutions. I want to thank all of the folks who have come to 
enlighten us and thank you to Senator Nelson, by the way, for 
having that hearing on concussions which was very enlightening.
    And I want to begin by saying, for what it's worth, I think 
the law here is heading in a very unfortunate direction, as Dr. 
Emmert and I have discussed. I think the law is heading in the 
direction of regarding athletes at universities more and more 
as employees. And that is because of the growing asymmetry and 
inequality of bargaining positions, financial benefit, energy, 
time, sweat, blood, and injury that is involved. That is 
classically the reason why labor law protections have applied 
to individuals who potentially are victims of exploitations, 
whether it's in garment factories or construction sites or 
universities.
    And so, I think the challenge here is to diminish that 
asymmetry to reduce the inequality and to return truly to the 
model of student-athletes, which I think many of us want to be 
the prevailing model but increasingly is not so, and therefore 
the laws will move to protect them as the NRB ruling reflects. 
And I say that with regret because I, too, as Dr. Emmert has 
articulated well, valued that student-athlete model rather than 
the employee/employer model. But the more the reality is that 
athletes in effect function as employees, the more the law will 
recognize that fact. And my opinion is worth what you're paying 
for it, I'm just a country lawyer from Connecticut. But I 
sincerely believe that that's the direction of the law.
    I want to first ask you, Dr. Emmert, I was absolutely 
astonished and deeply troubled by the revelation that athletic 
departments, on many campuses, investigate campus sexual 
assaults. I'd like your commitment that you will work to change 
that practice as soon as possible and as effectively as 
possible.
    Dr. Emmert. You have my commitment.
    I obviously want to understand the data more. I simply read 
a summary. I'm not sure what the facts are on those campuses 
but, as I said earlier, the data that Senator McCaskill's staff 
brought forward was shocking to me.
    Senator Blumenthal. Well, I am shocked and outraged by the 
apparent practice on many campuses of, in effect, re-
victimizing survivors who may be, in effect, victims.
    I want to focus for the moment on health insurance. You 
know, individual colleges and the NCAA make billions of dollars 
on the talents of these young men and women. And I want ask 
you: Couldn't the NCAA offer health insurance for athletes for 
a certain amount of time after they leave college? That seems 
eminently fair and in effect making them better athletes and 
better students while they're there.
    So I would ask for your commitment that you will work 
towards providing for health insurance for these needs and 
injuries that may extend beyond their playing years on campus 
or even in professional settings. And I'd like to know what 
more, assuming you are committed to that cause, what more your 
organization can do to encourage schools to provide this kind 
of coverage for its student-athletes?
    Dr. Emmert. Yes, sir.
    Well, today, the coverage that exists is provided either by 
the campus itself or by the student athlete's family. Depending 
upon university policies that at most of the high resource 
schools, they provide the insurance so that the student doesn't 
have to. We need to do several things.
    One, we need to make sure, in my opinion, that there aren't 
co-payment requirements. If a young man or woman, especially 
from a low-income family, has an injury and all of a sudden 
they have a $2,000 or a $5,000 co-payment that seems grossly 
inappropriate since it was a sports-related injury. Why should 
they be on the hook for that? So we need to make sure that we 
don't have many of those circumstances out there.
    We have right now, at the NCAA level, catastrophic 
insurance so that if there are long-term disability issues, if 
there are injuries that require treatment over a course of a 
lifetime, there is a policy in place. We have some individuals 
that have been on that insurance policy for 20 or more years, 
and we've taken a number of steps to make sure that that is as 
strong as it could possibly be. That policy, though, doesn't 
kick in until you have $90,000 worth of bills. We need to make 
sure that, to your point--I'm saying yes, I guess, Senator. You 
have my commitment.
    Senator Blumenthal. I'm glad to hear the yes.
    Dr. Emmert. There are complexities in all this we need to 
work our way through. But I agree with you that----
    Senator Blumenthal. Thank you.
    Dr. Emmert.--no one should have to pay for an injury that 
they suffered as a student-athlete.
    Senator Blumenthal. I welcome and accept your yes to both 
the sexual assault and the insurance questions. And I would ask 
further for your commitment that you work with us on sensible 
legislation that will impose a higher level of responsibility 
in both areas.
    Thank you.
    Dr. Emmert. Certainly.
    Senator Blumenthal. Thank you, Mr. Chairman.
    The Chairman. Go ahead.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Mr. Chairman.
    First of all, I'm grateful. You know, you and I talked 
about this in my first days as United States Senator; that this 
was an issue that you wanted to cover and you saw my excitement 
for doing that. And a lot of that excitement stemmed from the 
fact that I was, back in the 1990s, an NCAA Division I football 
player.
    And I want to first say, it's very important for me to say, 
that I probably wouldn't be here right now if it wasn't for 
that experience. And I am deeply grateful. I joke all the time 
that I got into Stanford University because of a 4.0 and 1,600; 
4.0 yards per carry, 1,600 receiving yards in my high school 
years, and had lifetime experiences frankly that I could never, 
ever replace. And it opened up extraordinary doors for me.
    And so, we could have a hearing that could go on for hours 
if not days about all the good things that are happening with 
the NCAA and athletes. And so, please forgive me if I'm not 
giving that appropriate light.
    But what concerns me, and what you and I have talked about, 
Chairperson, for quite some time are the egregious challenges 
we have.
    Now, I want to just publicly thank Dr. Emmert, because he 
was gracious not only to come here, which he did not have to 
do, but he actually took special time to come see me as a 
former NCAA athlete to sit down with me and hear my concerns. 
And I was taken aback actually that you agreed with me across-
the-board. And let me reiterate those, for the record, and make 
sure that we are in agreement.
    So, number one, you agreed it's a big problem that athletes 
don't get scholarships to get a B.A.?
    Dr. Emmert. Yes.
    Senator Booker. That is a big problem. We have athletes 
that pour their lives 40, 50 hours a week and end up having 
gone through their eligibility but don't have a B.A. That's a 
problem?
    Dr. Emmert. Yes.
    Senator Booker. You agree it's a problem that we have 
athletes, who are often very poor, coming onto college campuses 
and who are restricted from working? They can't shovel 
driveways for some extra spending money, can't meet the needs 
of travel, can't buy toiletries, or clothing. If they're 
restricted from working, banned from working, that's a problem 
we have to address, right?
    Dr. Emmert. But a minor correction. They're not banned from 
working. They can, in fact, work and in many cases do. But the 
biggest challenge is they simply haven't the time.
    Senator Booker. So, in other words, they can't work because 
of whatever reason. You know that's a problem; that 
scholarships do not cover the full costs----
    Dr. Emmert. Yes.
    Senator Booker.--at the same time they're being expected, 
whether by law or not, to work 40, 50, 60 hours a week?
    Dr. Emmert. Completely agree.
    Senator Booker. That's a problem, right?
    You agree that it's a problem that health coverage is 
inadequate and that we have people, many of whom I know and you 
know, who have blown-out knees and, even though they've 
graduated now, they're having to go in their pockets for co-
pays and the like to deal with medical injuries that were 
incurred, really, the root of those injuries stemming from the 
challenges they had when they were an athlete?
    Dr. Emmert. Yes, I agree that the insurance today is much 
better than most people think, but there are certainly areas 
that need to be closed----
    Senator Booker. It's inadequate and it is costing some 
athletes thousands of dollars into their lifetimes.
    Dr. Emmert. Yes.
    Senator Booker. You agree that there's a real problem, 
still, with time? That, as the two athletes at the end of the 
table, I know they're not much different than me, but it's not 
just the practice time.
    Guys, how many hours would you show up before practice and 
get your ankles taped, get treatments? An hour, two hours?
    Mr. Rolle. Yes, sir.
    Senator Booker. Sometimes 3 hours depending on how bad your 
injury, your strain is? We have athletes now putting in upwards 
of 60, 70 hours a week. That's a problem.
    Dr. Emmert. Huge problem.
    Senator Booker. OK.
    And you agree that there is, at least, an issue that has to 
be dealt with to improve the issue of sexual assault; that has 
to be improved in terms of the way we investigate?
    Dr. Emmert. Yes.
    I think the way we educate young men and young women, and 
the way we educate people on campuses to handle the issues.
    Senator Booker. Right.
    And this, we didn't cover so it might not be a simple yes 
or no but, in terms of the due process, when a young man like 
Mr. Ramsay not even knowing he could get a lawyer, not even 
getting help, that there are breakdowns in process that are not 
clear. Would you say that that process could be improved?
    Dr. Emmert. It certainly could, especially on most 
campuses. Yes.
    Senator Booker. So I guess I just say to you, Mr. Chairman, 
not having the time to go through more rounds and deeper 
questioning, to just say, clearly, this is my problem. This was 
a challenge for me when I was an athlete, some 20 years ago. 
And athletes after athletes are going through and facing what I 
consider the exploitation of athletes.
    Let me be very clear. It is exploitation when you have an 
athlete working 60, 70 hours a week, but yet still not able to 
afford the basic necessities, not just having your parents fly 
back and forth but being put in horrible situations where they 
see their jersey with their name on it being sold making 
thousands and thousands of dollars, but they can't even afford 
to get the basic necessities of life. And if they try to sell 
their jersey for $50, they then get penalized and lose their--
that's exploitation of an athlete.
    To me, it's exploitation when you give your body--gentlemen 
on the end, how many linemen today that played with you that 
have gone through four, five and six surgeries for their knees?
    Mr. Rolle. Many.
    Senator Booker. A lot.
    Mr. Ramsay. Yes.
    Mr. Ramsay. Me.
    Senator Booker. And if they're going into their own pocket, 
after giving up their knees to make millions of dollars for the 
university and then the universities aren't even compensating 
them appropriately, that's an exploitation of a college 
athlete. That has to be addressed.
    If we have guys, like was testified by the two gentlemen on 
the end, who--I know this because we spent hours. We did the 
math, my teams, because so many players feel an assault on your 
dignity; that you're putting 70, 80 hours a week. You're giving 
up internships. You know more about your playbook. I can still 
tell you: Stonebreaker, Todd Lyght, Chris Zorich. I can tell 
you more about them because that's what I was studying at 
night--that you spend all of that effort and then your 
university is not in any way insuring that you get a degree at 
the end in something like engineering or political science. But 
they're not honoring the fact that sometimes, hey, when you're 
working full time you can't finish your degree in four or five 
years. In fact, when they can lord over you, the removal of 
your scholarship, because that does still happen. Athletes are 
still exploited. They blow out their knee. If they somehow 
don't meet the mandates of a coach, they lose their 
scholarships. They don't get their degrees.
    And so, to me this is plainly and simply the dark side of 
the NCAA where athletes are being exploited. This is why I love 
that Taylor Branch is here. Because, occasionally, and you used 
these words, Dr. Emmert, you used ``this may work as a cattle 
prod to get us moving.'' This hearing may be a cattle prod. I 
wrote that word down because I have seen the NCAA move quickly 
when there is money and reputation on the table.
    For example, you mentioned his name, Shabazz Napier. He 
said on the highest exultation of victory, he said on TV what 
we know athletes, what coaches know, is a truth. That some guys 
don't even have the money to buy shaving cream; to eat at 
night. But he said it on national TV and within 7 days, because 
of the shame and embarrassment, within 7 days, if I'm correct, 
the rules changed and guys could actually eat.
    Dr. Emmert. Yes, though I'd like to----
    Senator Booker. So hold on, because I'm already over my 
time, sir.
    Dr. Emmert. OK.
    [Laughter.]
    Senator Booker. Let me give you another example. Cam Newton 
was going through the same problems you were at the same time. 
His eligibility was being challenged, Mr. Ramsay. Cam Newton, a 
guy that brings millions of dollars into a university and his 
adjudication happened quickly. Yours did not. You're not a name 
athlete. Your name isn't on jerseys and the like, and so it 
didn't.
    So what I want to say in conclusion, Mr. Chairperson, and 
really why I love that Taylor Branch is here because he wrote 
one of the more seminal books of my life about the Civil Rights 
movement, that when there's a class of individuals who are 
being exploited and there is millions and millions of dollars 
being brought in and guys can't even afford healthcare, can't 
afford to finish they degrees, than we have a problem. And I 
respect Dr. Emmert in saying: We are going to try and address 
that but where is the urgency that this has been going on 
decades in America? And so, I don't trust, like the Supreme 
Court when they said we're going to integrate schools. They 
said do it with what? All, what kind of speed?
    Mr. Branch. Deliberate.
    Senator Booker. All deliberate speed.
    And it took them a long time to get around to doing the 
right thing by people.
    Well these aren't just people, these are young people in 
the United States of America. And we can't afford to wait for 
all deliberate speed. There has got to be some level of 
accountability for fast action on things that the head of the 
NCAA says is a problem. Next season, when football season 
starts, there are going to be kids suffering from the same list 
of unfair things that somehow, someday will be addressed. So I 
think we need another hearing with the real rulemakers, with 
college presidents lined up here, to ask them how fast they are 
going to address the exploitation of college athletes.
    Mr. Chairman, thank you.
    Senator Coats. Well, Mr. Chairman, could Dr. Emmert respond 
to that?
    The Chairman. No, I have a sacred obligation to Senator 
Ayotte. She is next.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman. I appreciate it.
    Let me just say up front on this issue of athletic 
departments investigating sexual assault allegations--it is 
ridiculous. You've got to get up and fix that right away.
    I am a proud graduate of the Penn State University, and it 
was so troubling and disappointing to see what happened at my 
own university. I love the university, but the athletic 
department is not where you handle these kinds of allegations, 
so you've got to fix that, Dr. Emmert. Walk out this door and 
fix this.
    I'm troubled when I hear some of the testimony today. 
Senator Blumenthal asked about the change to an employer/
employee model. We've talked about compensation potentially for 
athletes today. I don't want to see any athletes mistreated. I 
want them to be able to have a quality of life that's important 
as they serve and get the education and be able to be an 
athlete; the student-athlete model.
    But, as I think about what, for example, the NLRB did in 
its ruling, I know it applies to private universities allowing 
unionization at Northwestern, and I think about this 
compensation model, the employer/employee model. What does this 
do in terms of the schools where we're not talking about the 
top athletes that may go on, that are the non-revenue 
generating sports? And what will that do to women's athletics?
    If we start down the road of a compensation model, what 
will happen in our schools in terms of the schools or the 
sports that aren't at the top. You can sell the jerseys, you 
can make money, but they are still very important to student 
life. And when I think about Title IX and women and the 
opportunities women have gotten because of Title IX, if you're 
on campus and this suddenly becomes an employer/employee-type 
model, what does that do for the women's sports if they're not 
revenue-generating? And how do we sustain them if this model 
changes?
    So it's a big question but I would like you all to comment 
on it because I want to make sure that our athletes are treated 
well.
    And certainly, Mr. Rolle, what you've done, it's really 
inspiring.
    And thank you, Mr. Ramsay, as well for your inspiration in 
being here. But there's a whole category of athletes that 
weren't quite at your level but are participating in college 
sports. And it has been an opportunity for them to get an 
education. And for women, as well, that are at your level but 
don't generate the same amount of revenue. And I want to make 
sure that women continue to have the same opportunity that 
they've had because of Title IX. So if you could comment on 
that, I'd appreciate it.
    Dr. Southall. I would love to comment on that. I think it's 
not a zero sum game. If some athletes are profit-athletes who 
have a higher market value than the cost of their grant and 
aid, then we should treat them differently than athletes who 
are not profit athletes. It's not either/or or they must be. If 
they're employees, as the NLRB found, then we should treat them 
as employees. That does not mean that college athletics or 
athletes in the other sports, women, or anything, it doesn't--
--
    It's not an either/or.
    Senator Ayotte. Can I tell you, Doctor, my university said 
that if the unionization rule were applied, the University of 
New Hampshire, they feel like this is actually going to 
diminish the athletic program. It would diminish it for women, 
and it will diminish it for non-revenue generating sports. So I 
understand what you're saying but that's sort of not what I'm 
hearing from some other universities.
    Dr. Southall. Well, I would say that probably a university 
president, by the name of Chicken Little, might have been the 
first one to say that because the sky will not, in fact, fall.
    By denying profit-athletes just compensation in the market, 
does not preclude colleges and universities from supporting 
intercollegiate athletics as an educational opportunity. If 
they're employees, then they should have all the rights of 
employees. Title IX does not apply in an employee setting.
    Senator Ayotte. Well, I would like to see what Mr. Bradshaw 
has to say about what I just said as well. Thank you.
    Mr. Bradshaw. We probably don't have time, but I certainly 
like to hear that model that works. I believe it's going to be 
devastating to all those student-athletes including women who 
don't produce revenue; who aren't seen as athletes or students 
who create that revenue. I really would like to see that model 
work because, as we all know, that's going to mean those who 
can afford to pay for that will and those who can't won't.
    Senator Ayotte. Thank you.
    Dr. Southall. Again, if I can reiterate, and I appreciate 
the question. I'm trying to articulate as clearly as I can. If 
the athletes are, in fact, employees then we have a moral 
obligation and an obligation under the law to treat them as 
such. If they're not, does not preclude them from 
participating. Title IX does not have to be held hostage by 
this because we're only talking about 5 percent of the 
athletes.
    Senator Ayotte. So, I know my time is up and I know others 
have to ask questions but--so we're just going to have a 
distinction. So some will be employees and some will be 
student-athletes?
    Dr. Southall. They already are employees.
    Senator Ayotte. I don't know how that works.
    Dr. Southall. They already are employees.
    So by being open and honest about what we are using and 
exploiting these athletes for, honesty is a very good thing.
    Senator Ayotte. So as a woman athlete, if I'm not a revenue 
generating athlete, then I'm not going to be eligible for this 
employee/employer relationship. And so, then there's sort of a 
second category of athletes on campus.
    Dr. Southall. They already have that.
    Senator Ayotte. That bothers me.
    Dr. Southall. We refer to them as revenue-athletes right 
now in revenue sports and Olympic sports. And that's fine. It 
does not mean that if we compensate athletes according to the 
market that everyone else has to go away. That is not what has 
to occur at all.
    Senator Scott. Mr. Chairman?
    Dr. Southall. So if the universities find that that 
opportunity is very important, they will support it. They will 
support it. I see no way that women's athletics or Olympic 
athletics is going to go away. It's not going to happen. It 
just isn't.
    Senator Scott. Mr. Chairman?
    The Chairman. Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you.
    Dr. Emmert, as I listen to Kelly's questions about the cost 
structure and the likely impact of creating unions, ultimately 
the cost structure itself would have impact in universities and 
have impact in athletic programs. I just wonder how significant 
that impact would be.
    And let me say this before you answer the question, you 
think about your answer.
    To Mr. Southall, it's good to have you here from Columbia, 
South Carolina. I would be remiss if I didn't point out that at 
least you're a Gamecocks fan. I like that a lot, being a South 
Carolina fan myself.
    I will tell you that my story is very different than Cory's 
story, and you've got these Rhodes Scholars on the end who have 
done very well academically. And I'm very proud to see their 
success off the field as well as on the field. I will say that 
my story, I think, really shows a little more about my 
perspective and why I am asking the questions I'm asking about 
the cost structure.
    I'm a kid that grew up in a single-parent household. Had it 
not been for football I would not have been able to afford to 
go to college at all. I played football for just a year in 
college and earned a Christian Leadership Scholarship which 
took me to a different school. And I realized the 
responsibilities and the burden of practice before and after 
classes and the challenges that I faced, and made a decision to 
go to a different route.
    But the fact of the matter is, had it not been for that 
scholarship opportunity, I would not be sitting here today 
because I would not have had the opportunity to finish, or even 
start, my education. So when I think about--now I went to a 
small school, Presbyterian College--NAIA--back in the day. So 
when I think about the impact of this conversation on athletes 
that are not in those top tier schools, there is a significant 
unintended consequence that I think we are looking at that 
Kelly really brought to the surface that is hard to deny and 
perhaps even harder to figure out how to fix.
    Dr. Emmert. Well, I happen to agree with you.
    I think that the implications of converting a student-
athlete model to an employee/employer model would utterly 
transform college sports into something that doesn't begin to 
look like what it looks like today. With all due respect, I 
completely agree with Dr. Southall's interpretation of all of 
this.
    If you simply look at the definition of an employee, as has 
been provided by one NLRB administrator, if a student is 
receiving a scholarship and additional benefits, it amounts to 
compensation. If they are working more as a student-athlete 
than they are in their academic work, then they're working. If 
they are subject to the oversight of a coach, then they have a 
boss. I'm not a labor lawyer but that's, in summary, the 
definition of a student-athlete. That would apply to virtually 
every student-athlete that has a scholarship; man, woman, 
doesn't matter.
    You know, a woman soccer player--the difference between a 
women's basketball player and a men's basketball player isn't 
that the men's basketball player works harder. It isn't that 
they're more or less talented. The only difference is a single 
difference and that is there are more people in the stands. 
That's it in terms of their time commitment, their 
competitiveness, everything. The difference is one plays in 
front of a lot of people and one doesn't. The difference 
between a volleyball player and a soccer player is exactly the 
same. The only difference is whether they're playing on TV or 
whether they aren't.
    Senator Scott. Yes, sir. And I want----
    Dr. Emmert. So that completely----
    Senator Scott. You're going to have to wrap it up a little 
bit.
    Dr. Emmert.--changes the relationship. As Dr. Southall 
pointed out, Title IX has nothing to do with employee/employer 
relationships. So Title IX would have nothing to do with any 
student-athlete who is no longer a student-athlete, who is now 
an employee, including a women's basketball player. It would be 
an irrelevancy for college sports.
    Senator Scott. Quick question for Mr. Bradshaw.
    I know that you played sports a couple of years ago. I 
think it's five or seven years ago, I think it was.
    Mr. Bradshaw. Thank you very much.
    Senator Scott. Yes, sir. I can't read my notes but I think 
it says four or five years ago.
    Mr. Bradshaw. There you go.
    Senator Scott. Not 45.
    But my question is, as you've had a lot of experience and 
you've looked at this opportunity as well as the challenges 
that come with the opportunity from multiple angles, what kind 
of progress have you seen over the last three decades or so? As 
we wrestle with some of the challenges that are going to be 
future challenges, and certainly are present challenges, 
sometimes we miss the progress that we've made along the way.
    Mr. Bradshaw. And certainly, all of us think we can do 
better. There's no question about it, and we spend most of our 
time----
    Senator Scott. And we should. And we should.
    Mr. Bradshaw.--talking about how we can be better and not 
patting ourselves on the back. But I would just say, as a 
former assistant coach back in the day and head coach and 
student-athlete, that it's night and day; the changes, the 
quality of physicians, trainers. I mean, we didn't know what a 
dietician was as student-athletes or head coach. I mean, the 
changes are enormous. They're compelling.
    And I think one of the things I would recommend that you 
get some student-athletes to talk to, that there's a balance. 
Obviously, there are outliers. There are some horrible stories 
that have happened and none of us, none of those is too many 
whether it's assault or date rape or whatever it might be. But 
I would love to see a panel of student-athletes come in and 
talk about everything; a balanced panel of that. It has been 
significant and are across the line.
    And I'm retired now. I can talk about it very objectively 
and not be concerned about a college president or a faculty or 
a board of trustees. It is really just an incredible profession 
that we're in, the changes that the NCAA are trying to make. 
And again, Mark has got to deal with votes, he's got to deal 
with the institutions, the college presidents, the board of 
trustees who pressure the college presidents. I think you've 
got something when you want to bring the presidents in here. I 
think that would be a good move and something that could help 
everyone. But the changes that have happened, they are just, 
you know, by leaps and bounds particularly even in the last 
decade.
    Senator Scott. Final question, Mr. Chairman? Do I have time 
for a final question?
    The Chairman. Sure.
    Senator Scott. To my Gamecock fan, Dr. Southall. As you 
look at the opportunity for collective bargaining and its 
impact on the academic environment, realizing that most 
institutions' primary objective really is to cultivate an 
environment that is conducive for academic achievement. What do 
you see as the potential impact of the collective bargaining 
opportunity, though I have grave concerns with it personally, 
on college campuses and its impact on that academic 
environment? Or, do you see one?
    Dr. Southall. I don't see that it would have any effect.
    Senator Scott. Good enough. Good enough.
    Dr. Southall. No.
    Senator Scott. All right. Thank you, sir.
    The Chairman. OK.
    Senator Scott. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coats, I know the question you want to ask and Mr. 
Emmert has answered most of those questions. And I know you 
feel a duty to ask the question but there isn't going to be a 
second round. I'm going to make a closing statement, and then 
at 5:15 we will be through this very long hearing.
    I want to say this: I have two impressions. One of them is 
superficial and the other, I think, is worrisome, of this 
hearing. And I want each of you to either agree or not agree 
with me as kind of your closing statement. That on one level, 
this has been an open conversation. We've brought up all kinds 
of issues and those issues have been discussed to a small 
degree or a large degree. But my real feeling from this hearing 
is that we haven't accomplished much, and that people have laid 
down their, sort of, protective--I'm not talking about you two 
gentlemen. But that there has been, sort of, a self-protection 
mode either for oneself or on behalf of others.
    Your point about getting the board of trustees in, that 
would be kind of interesting because they do have a big 
influence over college presidents.
    But all I know is, coming out of this hearing, that I don't 
think I've learned anything particularly new except some 
anecdotes that I haven't been hearing for 50 years, which is 
how long I've been in this business. And that the answers, you 
know, of course there's progress. Of course there's progress on 
concussions and of course there's progress in other things, but 
is it in any way concomitant in an effective progress to what 
we should have been doing--all of us including this committee 
and this Congress--by exercising our oversight rights?
    The head of the NCAA at one point said, well, one of the 
things I did was to make sure that--and I forget what the 
example was but it was the statement I got something done. I 
don't believe that. I don't believe that.
    I think that the system is rigged so that you are separated 
from the possibilities of getting something done except as you 
testify or, you know, you probably couldn't write articles. 
You'd probably get blowback on that. But I don't think you have 
the power and I think it's constructed for that purpose. I'm 
cynical. I'm cynical about it.
    It's too easy to have to complain in Senate hearings about, 
or any other kinds of fora, what progress has been made. Of 
course there's always progress that has been made but does it 
keep up with what needs to be done? And the answer is 
absolutely not.
    And this country is now so soaked in the culture of ESPN, 
plus I guess a couple of other stations, and watching football, 
baseball, world's soccer, all the rest of it. I mean, my own 
view is it's undermining our values. I'll tell you one thing 
for sure, I think it's undermining our commitment to education.
    And Dr. Southall, I think that you're talking about the 
different ways of jiggering the students, who are athletes, 
actually doing a better job academically than those who aren't. 
It was said by the head of the NCAA that that was true. And it 
was also in his testimony. I don't believe that. I just don't 
believe it. Now I may be wrong, but this and then the different 
formulas you use--it's very interesting to me and something I'd 
like to know more about.
    But to me it has been, in essence, an important hearing but 
not one which points to progress, because I think everybody is 
going to leave this hearing and they're going to go right back. 
I'm not. I don't think Senator Booker is, and I don't think a 
bunch of others are--go back to doing what they do. But we got 
that one out of the way. No harm there. Nobody did themselves 
any great damage. Congress doesn't usually follow through. 
Congress doesn't get that much done. That happens to be true 
for the last three or four years.
    And then, there's always the question of getting people 
from, you know, either trustees or heads of colleges and 
universities from states, and then members here co-related to 
that might not want to have that happen. I mean, the world 
works in ways that protects itself, but this is a particular 
ugly one.
    The question of rape and having--I mean, I voted not to 
allow the Department of Defense to settle rape questions. I 
think that's ridiculous. It passed. What I didn't want to pass, 
passed by a margin but it was not a great margin. So yes, 
that's progress. But what we want to do is get there, and I 
don't have a feeling that we're on that path.
    I think this hearing symbolizes that we might be, but the 
substance is that we probably won't be. React to that, anybody 
who wants to then I'm going to close the hearing.
    Mr. Branch, I think you had something.
    Mr. Branch. Well, Senator, I think that some differences 
have been, I mean, there are big differences here between 
talking about the way things work and how to reform and the 
whole underlying structure. Frankly, I think some differences 
have been diminished.
    I agree whole-heartedly with one thing Dr. Emmert said, 
which is that a lot of these economic restrictions in the NCAA 
rules, if they were vacated, as Senator Heller's--or abolished 
or somehow vacated for athletes as they were for coaches, it 
wouldn't make a particle of difference for 90 percent of 
athletes. A small athlete, recruited at a small Division III 
school, would be able to ask for better health coverage or a 
salary and the university, the little school, would be free to 
laugh at them and say we don't do it. You know, go somewhere 
else. Just like if the piccolo player said, ``I want to be paid 
to march in the band.''
    The schools are free to bargain that way but it wouldn't 
make an enormous difference in precisely these 65 schools that 
we're talking about where there is gigantic money if an athlete 
can bargain at recruiting for better healthcare coverage for 
more time to study or for a longer scholarship. It would change 
things because right now the model is that the schools do that 
solely at their dispensation.
    I mean, the coaches in these big schools even want to give 
money out of their own pocket to players, like a tip, because 
they know that they don't have enough money to eat. So a model 
that recognizes that these athletes are trying to manage two 
very demanding careers at once that are in separate spheres, it 
is a step forward.
    But right now, to me, the least hopeful thing I heard today 
is that we are looking to these same 65 schools that are the 
most commercialized as the engine of reform in the NCAA. I 
really don't see that. They may give higher compensation, they 
may give more tips, but they're the ones that created most of 
these problems in the first place. And I don't think that the 
big schools are going to do anything other than be driven more 
and more by the market in athletics and, quite frankly, those 
schools exploit their athletes both as players and as students. 
Because I go around all of these big schools and the athletes. 
They're pushed into certain majors that are easy. They are not 
allowed to take certain courses. So the sad thing to me is, I 
think, that some differences are outlined and may be 
diminished, but I don't see the big 65 schools as an engine for 
much reform in the future because their record doesn't show 
that.
    The Chairman. Any other comments?
    Senator Coats. Mr. Chairman, I had asked before----
    The Chairman. I know. You want to have Mr. Emmert be able 
to reply to everything that Cory Booker said.
    Senator Coats. No. Well, I just think he deserves the 
opportunity to do that when someone takes an extra five 
minutes, and Senator Booker had every right. And he's most 
passionate about what he said, but he leveled some accusations 
at the NCAA. I think they at least deserve to be able to 
respond to that.
    The Chairman. And he'll have ample chance to do that. I 
have bent over backwards, annoyed some of my members, to give 
you a particular break because you come from Indiana where NCAA 
is headquartered. And I've done that.
    Senator Coats. Well, I don't think you gave me a particular 
break. I was the first one here and that's the normal procedure 
and I had my 5 minutes----
    The Chairman. If you hadn't been, you made it very clear to 
me on the floor that you wanted to be able to be the first one 
to ask the questions, and I said, ``That's OK. Clear it with 
Senator Thune.''
    Senator Coats. But then I said I'll be the first so that 
you don't----
    The Chairman. Yes, but you also--so I'm not going to bend 
on that. This is the closing statement. And Mr. Emmert is free 
to answer in any form that he wants. He can write every member 
of the Commerce Committee a letter.
    Anybody else want to say anything?
    Dr. Southall. I've spent the last 15 years of my 
professional career examining intercollegiate athletics. And 
after this hearing today, I, like yourself, am very 
disheartened because I'm not sure that we collectively are 
willing to take a cold, hard, objective look, informed by 
research and informed by data at the collegiate model of 
athletics.
    The Chairman. All right.
    That being said, I want to thank everybody for this. This 
has been a long and interesting hearing. Everything is a first 
step, as Neil Armstrong said. We got a lot of steps to make, 
and as others have pointed out, the world is changing.
    You know, it's like that Jackie Robinson, 42, movie. And 
the player comes in and he says ``I want to be traded.'' And 
then, a couple weeks later he comes back and says ``I don't 
want to be traded.''
    ``Well, you willing to play with Robinson?''
    He said, ``Well, look. The world is changing and I can 
change too.''
    Now I think there's an element of that in all of this 
progress; it has its own varieties, its own sort of beauties. 
And I think there has been progress.
    My question is that, for my entire adult life, I've been 
hearing about this and there are still so many problems that I 
think calls into question the way the decisions are made and 
carried through within the upper ranks of the football and 
basketball community. And that's on my mind, and I'm Chairman, 
so I'm going to say that. And I'm also going to say that is the 
last thing I'll say and this hearing is adjourned.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

                   National Collegiate Athletic Association
                                   Indianapolis, IN, August 4, 2014
Hon. John Thune,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
254 Russell Senate Office Building,
Washington, DC.

Dear Senator Thune:

    Thank you for the opportunity to testify before the Senate Commerce 
Committee during the July 9, 2014 hearing, ``Promoting the Well-Being 
and Academic Success of College Athletes.''
    I have provided below some supplemental information following up 
from the hearing and would greatly appreciate having it submitted for 
the record.
Academics

  1.  Graduating from college is as important an achievement as winning 
        on the field. The NCAA embraces its role in providing student-
        athletes the skills for what comes next in life. The NCAA's 
        commitment--and responsibility--is to give young people 
        opportunities to learn, play and succeed.

  2.  More than eight out of 10 student-athletes will earn bachelor's 
        degrees. More than 35 percent of Division I student-athletes 
        will earn postgraduate degrees.

  3.  The NCAA and its member institutions accomplish this in part by 
        setting standards to make sure incoming student-athletes are 
        prepared for college coursework and by tracking their progress-
        toward-degree once they are on campus.

  4.  Each year, the NCAA releases report cards for each Division I 
        team every year called the Academic Progress Rate (APR). If 
        half or more of the student-athletes are not on track to 
        graduate, that team is ineligible to participate in postseason 
        play. That is how seriously the NCAA and its member school take 
        their commitment to academics. Teams can also face penalties 
        for low academic performance.

  5.  Now in its 10th year, the Academic Progress Rate has redefined 
        the student-athlete experience, from when prospects are 
        recruited in high school to their progress semester by semester 
        on campus. Because they have a near real time academic measure, 
        coaches and administrators now know when teams might be 
        struggling academically and can take immediate steps to address 
        the situation.

  6.  Approximately 13,000 student-athletes have returned to school to 
        finish their degrees since APR was formed.

  7.  The NCAA also calculates and releases the Division I Graduation 
        Success Rate (GSR) and the similar Division II Academic Success 
        Rate (ASR) each year.

  8.  The NCAA graduation rates are more accurate than the Federal 
        graduation rate because they account for transfer students and 
        those student-athletes who leave in good academic standing, 
        such as those who leave college to play professional sports.

  9.  Even when using the Federal graduation rate, NCAA student-
        athletes graduate at higher rates than their peers in the 
        general student body.
Health Insurance for Student-Athletes

  1.  Member institutions are required to certify that all student-
        athletes have insurance for athletically related injuries. That 
        insurance must have limits equaling the NCAA Catastrophic 
        Program deductible, at a minimum. Insurance coverage must be in 
        place before a student-athlete can practice or compete.

  2.  The NCAA's catastrophic insurance plan covers medical costs over 
        $90,000 to ensure injured student-athletes have access to the 
        care they need. During championships, the NCAA provides 
        insurance coverage for all injuries.
Division I Reforms
Past Reform Efforts
    In the past three years, including in recent weeks, Division I 
members have made a number of other changes benefiting student-
athletes, some of which are clarifications of practices that have been 
in place, some new policies and others that will be effective soon:

  1.  Schools may provide student-athletes with multi-year scholarships 
        and may provide institutional financial aid to a former 
        student-athlete for any term in which he or she is enrolled.

  2.  Schools may provide meals and snacks to all student-athletes 
        (scholarship and non scholarship) at their discretion as a 
        benefit to participation in intercollegiate athletics. The 
        meals proposal was developed by the Rules Working Group over an 
        8-month period beginning in December 2012. The proposal was 
        sponsored by the Division I Legislative Counsel in October 2013 
        for consideration by the membership during the 2013-14 
        legislative cycle. The proposal was sent out for Division I 
        membership comment in January 2014 and was adopted by the 
        Division I Legislative Council in April 2014. The meals 
        proposal takes effect on August 1, 2014.

  3.  Qualifying student-athletes who cannot transfer and play 
        immediately without a waiver are allowed a sixth year to 
        complete their four years of eligibility.

  4.  Clarity that student-athletes and college-bound student-athletes 
        may work at camps and clinics for compensation without concerns 
        about impermissible benefits.

  5.  In addition to mandatory general academic counseling, tutoring 
        services and a life skills program, schools may provide their 
        student-athletes academic support, career counseling and 
        personal development services that support the students' 
        success as supplements to classroom and athletics activities.
Current Reform Efforts

  1.  The Division I Board of Directors is considering a new governance 
        structure to allow the division to be more streamlined and 
        responsive to membership needs throughout the division, 
        particularly those of student-athletes. Student-athlete voice 
        and vote will be emphasized in the new governance model, a 
        concept universally supported by membership comment and 
        discussions. A comprehensive review of the structure was 
        launched in January 2013.

  2.  Coaches, student-athletes, faculty athletics representatives, 
        athletics directors, compliance professionals, and presidents 
        and chancellors all have a voice in the Division I reform 
        dialogue. This underscores that everyone involved in college 
        sports needs to help improve it.

  3.  There have been challenges in governing under the current 
        structure since there is such great diversity (resources, 
        mission, size, student body make-up) among the 346 schools and 
        32 conferences in Division I.

  4.  Following the Division I Governance Dialogue, attended by more 
        than 800 members at the annual NCAA Convention in January 2014, 
        the presidents and chancellors on the Division I Steering 
        Committee on Governance began narrowing choices for a new 
        structure.

  5.  The proposed governance model was presented and endorsed by the 
        Division I Board of Directors in late April and has been sent 
        out to membership for feedback, bringing the Board closer to 
        approving a new governance system in August. Key areas of the 
        proposed model include:

    a.  Division I would continue to be led by a Board of Directors, 
            composed primarily of university presidents but adding a 
            student-athlete, a senior woman administrator, an athletics 
            director and a faculty athletics representative. These 
            additional individuals all would be voting members of the 
            Board.

    b.  The Board of Directors' top responsibilities would be oversight 
            and strategic issues, including guiding the overall 
            direction of the division and ensuring that rules continue 
            to adhere to the mission and principles of the organization 
            and support student-athlete well-being.

    c.  A 38-member council would be created (composed of athletics 
            directors, other campus and athletics administrators, two 
            voting student-athletes and four voting conference 
            commissioners), which would oversee much of the Division I 
            day-to day policy and legislative responsibilities. This 
            group would make the final decision on specific rule 
            changes. For example, the recent change allowing schools to 
            provide meals and snacks to all student-athletes 
            (scholarship and non scholarship) at their discretion as a 
            benefit to participation in intercollegiate athletics would 
            go to this council in the future.

    d.  The restructured governance model would provide the five 
            conferences (Atlantic Coast Conference, Big Ten, Big 12, 
            Pac-12, Southeastern Conference) autonomy to make rules on 
            specific student-athlete well-being matters. Division I 
            members not in these conferences will have the opportunity 
            to take similar action.
Division I Rulebook Changes

    Some of the most significant recent reforms to the Division I 
rulebook include:

  1.  Student-athletes may receive competition-related expenses from 
        qualified sponsors.

  2.  New rules allow for open communication between a school and a 
        student once the student has committed, promoting stronger 
        relationships between coaches and students.

  3.  Student-athletes and college-bound student-athletes may work at 
        camps and clinics for compensation.

  4.  Schools, conferences, and other groups may pay travel expenses 
        for a student-athlete to receive awards not affiliated with the 
        school.

  5.  Schools may provide reasonable entertainment and pay expenses for 
        student-athletes representing the school in practice, 
        competition and noncompetitive events. Schools may also pay 
        expenses for student-athletes involved in national team 
        tryouts, practices and competitions.

  6.  Scouting rules are simplified by prohibiting live scouting of 
        opponents, except in limited circumstances.
NCAA Revenue Distributions

1. Sports Sponsorships and Grant in Aid Funds--$l88.3M

    a.  This fund assists Division I schools with the continuation of 
            the sports they sponsor at the varsity level and 
            scholarships for student-athletes.

2.  Basketball Fund--$188.3M

    a.  The basketball fund payments are made to conference offices and 
            independent schools based upon a rolling six-year average 
            of performance in the Division I men's basketball 
            tournament.

3.  Division I Championships--$97.4M

    a.  The resources allocated to Division I championships include 
            support for team travel, food and lodging for the student-
            athletes participating, and ancillary events at 
            championships.

4.  Student Assistance Fund--$73.5M

    a.  This money is intended to help Division I student-athletes with 
            essential needs that arise during their time in college. 
            These funds are available to pay for costs associated with 
            family emergencies; clothing and other essentials; academic 
            supplies; and medical and dental costs not covered by 
            another insurance program. It can also be used for 
            educational purposes, such as enrolling in summer school.

5.  Academic Enhancement Fund--$25.1M

    a.  A companion to the Student Assistance Fund, the academic 
            enhancement fund is intended to enhance academic support 
            programs for student-athletes at Division I schools.
6. Division II and III allocations--$63.2M

    a.  The NCAA allocates funds to Division II and Division III to 
            support grants, student-athlete services and programs. It 
            also funds championships including game expenses, meal 
            allowances and team transportation, and supports other 
            initiatives including grants, student-athlete services, and 
            programs.

7.  Other Division I distributions--$43.7M

    a.  The NCAA Division I Board of Directors and Executive Committee 
            approved a supplemental $43.7 million distribution to 
            Division I schools, which was available due to revenues 
            exceeding expenses for the Association's 2011-12 Fiscal 
            Year.

8.  Conference Grants--$8.SM

    a.  These grants are used to implement conference-level programs in 
            five specific categories of focus. These include 
            officiating programs, compliance and enforcement, 
            enhancement of opportunities for ethnic minorities, and 
            heightening awareness of drug and gambling education 
            programs.

9.  Student-Athlete Services--$57.8M

    a.  The NCAA invests this money each year in a variety of student-
            athlete-focused areas. These include health and safety, 
            catastrophic injury insurance, drug testing, and leadership 
            development. This money also funds several NCAA 
            scholarships, including postgraduate scholarships for 
            former student-athletes pursuing master's degrees, 
            doctorates or other advanced degrees. In addition, money 
            from this fund supports the NCAA Honors Ceremony and the 
            Woman of the Year award.

10.  Membership Support Services--$27.7M

    a.  While NCAA rules are proposed and approved by NCAA member 
            schools, those same campuses often turn to the NCAA to help 
            interpret and enforce the rules fairly across the 
            Association. To assist with this work, the NCAA dedicates 
            significant resources to the governance process, including 
            committees and the NCAA Convention, in addition to training 
            for campuses and national office support.

11.  Educational Services--$4.7M

    a.  The NCAA offers training and educational services to members 
            and student athletes on a regular basis. These funds 
            support various programs, including the Women's Coaches 
            Academy, the Pathway Program, Emerging Leaders Seminar, and 
            the annual NCAA Convention.

12.  Other Association-wide Expenses--$27.9M

    a.  A portion of the NCAA budget is allocated to other association-
            wide expenses that support member schools and the overall 
            association, including legal services, communications and 
            business insurance coverage.

13.  General and Administration Expenses--$40.7M


    a.  To fund the day-to-day administration of the NCAA and its 
            national office, these expenses cover the cost of central 
            services and initiatives at the national office, including 
            administrative and financial services, operations, 
            information technology, facilities management and 
            executive.

    Again, I very much appreciate your willingness to make this NCAA-
provided information part of the hearing record. Should you have any 
questions or concerns, please do not hesitate to contact me.
            Sincerely,
                                            Mark A. Emmert,
                                                    NCAA President.
MAE:clk

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.


      
</pre></body></html>
